APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion No. 27982 in the State of
South Carolina Supreme Court
(June 17, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion No. 5578 in the State of South
Carolina Court of Appeals
(July 25, 2018). . . . . . . . . . . . . . App. 32
Appendix C Order Re Respondent’s and Amici
Curiae’s Motions to Alter, Amend or
Reconsider Order Re Petitioner’s
Motion for Summary Judgment and
the Limited Special Administrator’s
Motion for Summary Judgment in the
State of South Carolina Court of
Common Pleas Second Judicial Circuit
(October 26, 2015) . . . . . . . . . . . . App. 49
Appendix D Order Re Petitioner Tommie Rae
Brown’s Motion for Summary
Judgment and the Limited Special
Administrator’s Motion for Summary
Judgment in the State of South
Carolina Court of Common Pleas
Second Judicial Circuit
(January 13, 2015) . . . . . . . . . . . App. 72
Appendix E Consent Order of Dismissal in the
State of South Carolina Family Court
Second Judicial Circuit
(August 16, 2004) . . . . . . . . . . . App. 136

ii
Appendix F Final Order in the State of Carolina
Family Court for the Ninth Judicial
Circuit
(April 15, 2004) . . . . . . . . . . . . . App. 140
Appendix G Order Denying Rehearing in the
Supreme Court of South Carolina
(August 24, 2020) . . . . . . . . . . . App. 147
Appendix H Petition for Rehearing in the State of
South Carolina in the Supreme Court
(July 1, 2020). . . . . . . . . . . . . . . App. 149
Appendix I Respondent’s Brief in the State of
South Carolina in the Supreme Court
(March 28, 2019) . . . . . . . . . . . . App. 171
Appendix J Petitioner’s Brief in the State of South
Carolina in the Supreme Court
(March 4, 2019) . . . . . . . . . . . . . App. 176

App. 1

APPENDIX A
THE STATE OF SOUTH CAROLINA
In The Supreme Court
Appellate Case No. 2018-001990
[Filed: June 17, 2020]
______________________________________
In Re: The Estate of James Brown a/k/a )
James Joseph Brown.
)
)
Tommie Rae Brown,
)
Respondent,
)
)
v.
)
)
David C. Sojourner, Jr., in his capacity
)
as Limited Special Administrator and
)
Limited Special Trustee,
)
Deanna Brown-Thomas,
)
Yamma Brown, Venisha Brown,
)
Larry Brown, Terry Brown,
)
Michael Deon Brown
)
and Daryl Brown,
)
Defendants,
)
_______________________________________)
Of whom Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown are the Petitioners.

App. 2
ON WRIT OF CERTIORARI TO
THE COURT OF APPEALS
Appeal from Aiken County
Doyet A. Early, III, Circuit Court Judge
Opinion No. 27982
Heard October 16, 2019 – Filed June 17, 2020
REVERSED AND REMANDED
Robert C. Byrd and Alyson Smith Podris, both of
Parker Poe Adams & Bernstein, LLP, of
Charleston, and Marc Toberoff, of Toberoff &
Associates, PA, of Malibu, California, for
Petitioners.
Robert N. Rosen, of Rosen Law Firm, LLC, of
Charleston; S. Alan Medlin, of Columbia;
Thomas Heyward Carter Jr., Andrew W.
Chandler and M. Jean Lee, all of Evans Carter
Kunes & Bennett, PA, of Charleston; David
Lawrence Michel, of Michel Law Firm, LLC, of
Mount Pleasant; Arnold S. Goodstein, of
Goodstein Law Firm, LLC, of Summerville; and
Gerald Malloy, of Malloy Law Firm, of
Hartsville, for Respondent.
CHIEF JUSTICE BEATTY: Disputes over the
estate of entertainer James Brown (Brown) have
persisted in the years since his untimely death on
December 25, 2006. In this case, the Court considers an
action by Tommie Rae Brown (Respondent) to establish
that she is the surviving spouse of Brown under the
South Carolina Probate Code. The issue arose in the
context of Respondent’s claims filed in the Aiken

App. 3
County Probate Court for an elective share or an
omitted spouse’s share of Brown’s estate.1 Uncertainty
as to Respondent’s marital status existed because
Respondent did not obtain an annulment of her first
recorded marriage until after her marriage ceremony
with Brown. Respondent’s claims were transferred to
the circuit court, which granted Respondent’s motion
for partial summary judgment and denied a similar
motion by the Limited Special Administrator and
Trustee (LSA). The circuit court found as a matter of
law that Respondent was the surviving spouse of
Brown. The court of appeals affirmed. In re Estate of
Brown, 424 S.C. 589, 818 S.E.2d 770 (Ct. App. 2018).
This Court granted a petition for a writ of certiorari
filed by several of Brown’s children (Petitioners)2 to
review the decision of the court of appeals. We reverse
and remand.
I. FACTS
In February 1997, Respondent participated in a
marriage ceremony in Texas with Javed Ahmed, a
native of Pakistan who was living in the United States.
Ahmed’s and Respondent’s signatures appear on the
application for a marriage license and affirmed that
Ahmed was not currently married. The application

1

See generally S.C. Code Ann. § 62-2-802 (Supp. 2019) (defining
surviving spouse in the current codification of the Probate Code);
id. § 62-2-201 (elective share); id. § 62-2-301 (omitted spouse).

2

Petitioner Venisha Brown passed away in 2018. Petitioners have
advised the Court that an action for the appointment of a personal
representative is pending.

App. 4
contained a warning that false statements could result
in imprisonment and a fine.
In December 2001, Respondent participated in a
marriage ceremony with Brown in South Carolina,
after the birth of a son earlier that year.3 Respondent
signed the 2001 marriage license, affirming this was
her first marriage. However, Respondent and Ahmed
had not divorced and no formal document purporting to
terminate or void Respondent’s marriage to Ahmed
existed at that time.
A third party informed Brown sometime in 2003
that Respondent had been married to Ahmed and was
never divorced. In December 2003, Respondent brought
an action in South Carolina to annul her marriage to
Ahmed.
In January 2004, Brown filed an action to annul his
marriage to Respondent, indicating the parties had
recently separated. Brown alleged he was entitled to an
annulment because Respondent never divorced her
first husband, so their purported marriage was void ab
initio. Brown asked that Respondent “be required to
permanently vacate the marital residence” and noted
the parties had executed a prenuptial agreement that
resolved all matters regarding equitable division,
alimony, and attorney’s fees.

3

Prior to her marriage ceremony with Brown, Respondent signed
a prenuptial agreement that waived any future claim to an
interest in Brown’s estate, including the right to an elective share
or an omitted spouse’s share. No issue is before the Court
regarding the prenuptial agreement.

App. 5
A hearing was held in the family court in
Charleston County in April 2004, on Respondent’s
application for an annulment of her marriage to
Ahmed. Ahmed did not appear to litigate the claim.
Respondent’s attorney conceded Ahmed technically was
in default, but stated he was not moving to place
Ahmed in default. Respondent briefly testified as the
sole witness and stated immediately after the
marriage, she went to Ahmed’s house with her
belongings and Ahmed told her that she could not live
with him, he already had three wives in Pakistan, and
he just wanted to stay in the United States. It is
undisputed that Respondent’s testimony as to Ahmed’s
alleged statements was the only evidence before the
family court that Ahmed was married at the time of his
marriage ceremony with Respondent.
The same day as the hearing, the family court
issued an order granting Respondent’s request for an
annulment. The family court found Ahmed had been
adequately served by publication in Texas (his last
known residence) after attempts to locate him were
unsuccessful, and that he was given notice of the
hearing. Citing Respondent’s testimony, the family
court found Respondent’s marriage to Ahmed was void
ab initio because (1) their union was bigamous, as
Ahmed had three wives and lacked the capacity to
marry; (2) the parties never consummated the
marriage; and (3) Ahmed fraudulently induced the
marriage to stay in the United States.
In May 2004, Brown amended his complaint against
Respondent. In the amended complaint, Brown alleged
Respondent did not inform him that she had been

App. 6
married and was still married to Ahmed at the time of
their marriage ceremony in 2001. Brown asserted S.C.
Code Ann. § 20-1-80 prohibited Respondent from
entering into another marriage while she was still
married to Ahmed. Respondent answered and
counterclaimed, seeking a divorce from Brown and
support. The actions of Respondent and Brown were
ultimately withdrawn and dismissed without prejudice
in a consent order filed in August 2004, in which
Respondent and Brown agreed to seal the court
records, and Respondent agreed to “forever waive any
claim of a common[-]law marriage to [Brown], both now
and in the future.” Respondent and Brown had an
on-and-off relationship until Brown passed away on
December 25, 2006. They did not have another
marriage ceremony following the issuance of the 2004
order declaring Respondent’s marriage to Ahmed null
and void.
After Brown’s death, Respondent and Petitioners
filed actions in the Aiken County Probate Court to set
aside Brown’s 2000 will and charitable trust based on
fraud and undue influence. Respondent sought an
elective share or an omitted spouse’s share of Brown’s
estate, as well as a share for her son with Brown. The
probate court transferred the matters to the circuit
court in Aiken County. Respondent and Petitioners
reached a settlement with Brown’s Estate, and the
circuit court issued an order approving the settlement.
On appeal, this Court affirmed in part, reversed in
part, and remanded the matter to the circuit court,
finding the settlement was improper. Wilson v. Dallas,
403 S.C. 411, 743 S.E.2d 746 (2013).

App. 7
In 2014, following the remand, the circuit court took
up Respondent’s claims for an elective share or an
omitted spouse’s share of Brown’s estate, as well as
Respondent’s motion for partial summary judgment on
the issue of the legal validity of her ceremonial
marriage to Brown. The LSA also filed a summary
judgment motion, asserting Respondent could not
establish that she is Brown’s surviving spouse because
her marriage to Brown was legally impossible under
South Carolina law. The LSA contended Respondent’s
marriage to Brown in 2001 was invalid because she
still had a marriage of record with Ahmed at that time,
citing S.C. Code Ann. § 20-1-80 (providing a marriage
contracted while a party has a living spouse is void ab
initio unless one of several exceptions applies). The
LSA also contended that, while the status of
Respondent’s first marriage is binding on the world
(i.e., it is annulled), the underlying factual findings in
the family court’s 2004 annulment order (such as the
finding that Ahmed had three wives in Pakistan in
1997) were not conclusive as to nonparties who had no
opportunity to litigate those points. Petitioners
submitted memoranda and documents in support of the
LSA’s motion and opposed Respondent’s motion.4 The
parties also submitted a Joint Stipulation of Facts

4

The documents included a 2014 affidavit from a Georgia attorney
and a 2008 affidavit from an attorney in Pakistan, both of whom
stated they contacted Ahmed (who was in Pakistan) in 2008, and
he informed them that he was not married at the time of his 1997
marriage ceremony with Respondent and that he and Respondent
lived together after the wedding. The Georgia attorney stated he
spoke to Ahmed by phone in early 2008 and then secured the
attorney in Pakistan to follow up with Ahmed in person.

App. 8
summarizing the facts on which they were able to
agree.
The circuit court granted Respondent’s motion for
partial summary judgment on the issue of
Respondent’s status and denied the LSA’s in a 2015
order, finding as a matter of law that Respondent is the
surviving spouse of Brown. The circuit court, relying on
the family court’s 2004 annulment order (which it
found was conclusive of the facts recited therein and
binding on Petitioners), ruled Respondent’s first
marriage to Ahmed was void ab initio due to Ahmed’s
bigamy, so Respondent had no legal impediment to her
marriage with Brown in 2001 and their marriage was
valid. The circuit court further found Respondent and
Brown had not annulled their 2001 marriage or
divorced prior to Brown’s death in 2006.
The court of appeals affirmed the circuit court’s
determination that Respondent was Brown’s surviving
spouse.5 In re Estate of Brown, 424 S.C. 589, 818 S.E.2d
770 (Ct. App. 2018). The court of appeals reasoned
Petitioners lacked standing to challenge the annulment
order, just as Brown did not have standing to intervene
in the annulment action, and any rights Petitioners
have are derivative from Brown. The court noted
Brown availed himself of the method he could use to
invalidate his marriage to Respondent by bringing his
own annulment action, but the parties agreed to
5

Before the court of appeals issued its opinion, the LSA entered
into a settlement agreement with Respondent on behalf of the
Estate and was permitted to withdraw from the appeal. Petitioners
indicate the validity of this settlement agreement is the subject of
a separate action.

App. 9
dismiss that action, and Brown did not bring another
action during his lifetime.6
The court of appeals rejected Petitioners’ contention
that they were not disputing the annulment order’s
effect on Respondent’s status, but only the
unchallenged factual findings, such as the fact that
Ahmed had three wives at the time of his marriage to
Respondent. The court held Petitioners were
collaterally estopped from disputing those findings
because (1) the annulment was actually litigated, as
the family court reviewed the evidence presented and
found it was sufficient to meet Respondent’s burden of
proof; (2) the validity of the marriage of Respondent
and Ahmed was determined in the annulment action;
and (3) the facts were necessary to support the
judgment.
The court of appeals agreed with the circuit court
that the 2004 annulment order was conclusive of all
facts regarding Ahmed’s marriage to Respondent and
further found the circuit court did not have subject
matter jurisdiction to relitigate the annulment order
because only the family court has jurisdiction over

6

As part of that settlement, Respondent agreed to never claim she
was Brown’s common-law wife. Petitioners contend Brown did not
believe his marriage to Respondent was valid and wanted to
preclude the alternative establishment of a common-law marriage.
See Byers v. Mount Vernon Mills, Inc., 268 S.C. 68, 71, 231 S.E.2d
699, 700 (1977) (stating removal of an impediment to marriage
does not convert a bigamous marriage to a common-law marriage
and noting “there must be a new mutual agreement, either by way
of civil ceremony or by way of a recognition of the illicit relation
and a new agreement to enter into a common[-]law marriage”).

App. 10
annulments.7 Relying solely on the factual findings in
the annulment order, the court of appeals found Ahmed
had at least three wives in Pakistan at the time of his
marriage ceremony with Respondent in 1997, so
Respondent’s and Ahmed’s marriage was bigamous and
void ab initio. Consequently, the court of appeals
agreed with the circuit court that Respondent’s
recorded marriage to Ahmed was not an impediment to
Respondent’s marriage to Brown, regardless of whether
there was an annulment order in place resolving
Respondent’s first marriage.
The court of appeals acknowledged that in Lukich
v. Lukich, 379 S.C. 589, 666 S.E.2d 906 (2008), this
Court analyzed section 20-1-80 of the South Carolina
Code and held an annulment order did not “relate
back” to resuscitate a marriage that violated the
statute. The court of appeals found Respondent’s
situation was distinguishable, however, because, unlike
in Lukich, Respondent’s first recorded marriage was
bigamous (based on the perceived conclusiveness of the
findings in the annulment order) and, therefore, void
ab initio. As a result, the court of appeals reasoned
Respondent’s second recorded marriage could not be
bigamous because her first recorded marriage was
never valid. The court of appeals held the rule
announced in Lukich—that an annulment order cannot
retroactively validate a bigamous marriage—is limited
to situations where the first marriage is merely
voidable, not void, as voidable marriages are valid until
7

We agree with Petitioners that subject matter jurisdiction is not
implicated here. Petitioners did not seek to overturn the
annulment or the family court’s order.

App. 11
one of the parties elects to end the marriage, but a
bigamous marriage is never valid. This Court granted
the petition for a writ of certiorari filed by Petitioners.
II. DISCUSSION
Petitioners contend the court of appeals erred in
upholding the circuit court’s ruling that Respondent is
Brown’s surviving spouse as a matter of law. We agree
and begin our analysis by examining (A) the effect of
the annulment order, followed by (B) the application of
section 20-1-80 of the South Carolina Code.
A. Effect of In Rem Annulment Order on
Nonparties
Petitioners argue the court of appeals erred in
holding the findings of fact underlying the 2004
annulment order are binding on them and that they are
collaterally estopped from challenging those facts in
this estate matter. Petitioners assert the order
annulling the marriage of Respondent and Ahmed is an
in rem order to establish the parties’ status. Petitioners
contend, however, that third parties are not bound by
the underlying factual findings in the order. Petitioners
emphasize that they do not—and concede that they
could not—challenge the grant of the annulment to
Respondent and its declaration as to Respondent’s
status, and they state nothing in the current litigation
will resurrect Respondent’s marriage to Ahmed.
Petitioners maintain the annulment order was
effectively obtained by default, as Ahmed did not
appear at the hearing, so the facts put forth by
Respondent were never litigated by an opposing party.
Petitioners assert Respondent has never actually

App. 12
shown that Ahmed had three wives in Pakistan when
she married him in 1997; rather, in seeking the
annulment, Respondent merely offered her
unchallenged testimony that Ahmed made a statement
to this effect after their wedding ceremony. Petitioners
point out that no marriage certificates or any other
evidence has ever been produced to show Ahmed was
previously married. Moreover, Respondent has
stipulated that she possesses no documents or other
tangible evidence to establish that Ahmed was married
to someone else when he married her. Petitioners state
that, in the absence of the annulment order being
treated as conclusive of the facts recited therein, the
court of appeals erred in holding Ahmed had three
wives at the time of his marriage ceremony with
Respondent, and that Respondent was, therefore,
Brown’s surviving spouse as a matter of law.8
“In rem actions generally are instituted to
determine the status of property and the rights of
individuals with respect thereto.” 1 Am. Jur. 2d Actions
§ 29 (2016). “A proceeding in rem is not confined to
determining the status of inanimate things but extends
to the status of individuals and their relations to
others.” Id.
Respondent’s action for an annulment, in which she
served Ahmed with notice by publication, is an action
in rem that acts only upon the status of the parties. See

8

Petitioners also assert there is evidence in the record that Ahmed
was not married based on, inter alia, his 1997 Texas marriage
license with Respondent, in which he affirmed that he was not
married, and the affidavits submitted (see supra note 4).

App. 13
Mazzei v. Cantales, 112 A.2d 205, 207 (Conn. 1955)
(“Marriage does create a status.”); 4 Am. Jur. 2d
Annulment of Marriage § 1 (2018) (both an annulment
and a divorce “relate to the marriage status”); see also
Estate of Walton, 794 P.2d 131, 133 (Ariz. 1990)
(stating “the import of designating a proceeding as in
rem relates to the effect of the judgment”). “It is ancient
law that a judgment in rem is res judicata as to all the
world with regard to the res or status that is
determined therein.” Presbrey v. Presbrey, 179 N.Y.S.2d
788, 792 (App. Div. 1958), aff’d, 168 N.E.2d 135 (N.Y.
1960).
The Supreme Court of the United States has long
recognized, however, that it is misleading to broadly
state that an in rem judgment is binding on all the
world. The judgment is binding on the world, including
nonparties, only as to the decision regarding status, but
it is not conclusive or binding on nonparties as to the
underlying facts upon which the decision is based, even
those facts that are essential to its determination:
“If a competent court . . . divorces a couple, or
establishes a will, . . . the couple is divorced,
[and] the will is established as against all the
world, whether parties or not, because the
sovereign has said that it shall be so. . . . But . . .
the judgment, because conclusive on all the
world in what we may call its legislative effect,
is [not] equally conclusive upon all as an
adjudication of the facts upon which it is
grounded. On the contrary, those judgments . . .
are said to be conclusive evidence of the facts
upon which they proceed only against parties

App. 14
who were entitled to be heard before they were
rendered. . . . We may lay on one side, then, any
argument based on the misleading expression
that all the world are parties to a proceeding in
rem. This does not mean that all the world are
entitled to be heard; and, as strangers in interest
are not entitled to be heard, there is no reason
why they should be bound by the findings of fact,
although bound to admit the title or status which
the judgment establishes.” We think that this
quotation expresses the correct rule and that it
is sustained by the decisions of this court.
Tilt v. Kelsey, 207 U.S. 43, 52–53 (1907) (emphasis
added) (citation omitted) (last omission in original); see
also Gratiot Cty. State Bank v. Johnson, 249 U.S. 246,
248–49 (1919) (stating a judgment in rem “is not res
judicata as to the facts or as to the subsidiary questions
of law on which it is based, except as between parties
to the proceeding or privies thereto,” and observing
“[t]he rule finds abundant illustration in cases dealing
with decedents’ estates and in cases involving the
marriage status” (citations omitted)).
“The general rule applicable to proceedings in rem
affecting a marital status” is that the judgment is
conclusive upon all persons as to existence of the
status, but the judgment will not bind anyone
personally unless the court has jurisdiction over the
individual, and it is not conclusive as to a fact upon
which the judgment is based except as between persons
who have actually litigated the existence of the fact. In
re Holmes’ Estate, 52 N.E.2d 424, 429 (N.Y. 1943)
(quoting Restatement of the Law of Judgments § 74).

App. 15
We agree with Petitioners that the in rem
annulment order simply determined Respondent was
thereafter free to remarry. The underlying factual
findings as to her marriage ceremony with Ahmed and,
more specifically, Ahmed’s true marital status in 1997,
do not bind those who had no opportunity to be heard
on the matter. Cf. Gaines v. Relf, 53 U.S. 472, 539
(1851) (stating “the naked confession of Desgrange,
that he had been guilty of bigamy, . . . is incompetent
evidence, and inadmissible against” the executors of
Daniel Clark).
To the extent the court of appeals held Petitioners
were precluded from contesting any findings in the
annulment order because Brown did not pursue his
own annulment action against Respondent and
Petitioners’ rights were derivative from Brown, we find
Brown’s actions are not determinative of Petitioners’
rights. The fact that Brown did not pursue his own
annulment action is not determinative of his marital
status in this estate proceeding to ascertain if Brown
has a surviving spouse, as a void marriage may be
challenged at any time, even after the death of a
spouse. See Morris v. Goodwin, 148 A.3d 63, 70 n.4
(Md. Ct. Spec. App. 2016) (“[C]ourts have ruled that
void marriages may be challenged by third parties after
the death of one of the married parties.”); In re Estate
of Toutant, 633 N.W.2d 692, 697 (Wis. Ct. App. 2001)
(“[A] marriage can be declared null and void after the
death of a spouse.”); see also Estate of Randall, 999
A.2d 51, 52 (D.C. 2010) (stating “a marriage void ab
initio is subject to collateral attack at any time whereas
a marriage merely voidable cannot be annulled after
the death of either spouse” (citation omitted)).

App. 16
As for the finding of the court of appeals that the
doctrine of collateral estoppel precluded Petitioners
from examining the underlying factual findings in the
annulment order, we find the doctrine is not applicable.
Petitioners were not parties to the annulment order,
were not privies with a party, and the issue was
effectively decided by default, so the issues disputed
here were not actually litigated.
“Under the doctrine of collateral estoppel, once a
final judgment on the merits has been reached in a
prior claim, the relitigation of those issues actually and
necessarily litigated and determined in the first suit
are precluded as to the parties and their privies in any
subsequent action based upon a different claim.”
Roberts v. Recovery Bureau, Inc., 316 S.C. 492, 495–96,
450 S.E.2d 616, 619 (Ct. App. 1994) (emphasis added).
The validity of Brown’s and Respondent’s purported
marriage was not litigated in Respondent’s annulment
action against Ahmed.
In addition, Ahmed did not appear at the
annulment proceeding and did not litigate any issue
regarding the annulment. Neither the reluctance of
Respondent’s counsel to move for an entry of default
nor counsel’s one-sided presentation of evidence alters
the fact that the annulment was uncontested.
Collateral estoppel does not apply to default judgments
because the factual issues were never actually
litigated. See State v. Bacote, 331 S.C. 328, 331, 503
S.E.2d 161, 163 (1998) (“In the context of a default
judgment, collateral estoppel or issue preclusion does
not apply because an essential element of that doctrine
requires that the claim sought to be precluded actually

App. 17
have been litigated in the earlier litigation.” (citing 50
C.J.S. Judgments § 797 (1997))); Kunst v. Loree, 404
S.C. 649, 746 S.E.2d 360 (Ct. App. 2013) (stating the
essential element requiring that the claim was actually
litigated is not met where there is a default). Thus,
collateral estoppel is not applicable in this case.
Even if the matter had actually been litigated,
Petitioners were not parties or in privity with a party.
The parties to the annulment action were Respondent
and Ahmed. Respondent argues to this Court (1) that
Brown paid for all or part of Respondent’s legal fees for
the annulment, so he was in privity with Respondent,
and (2) since Brown is Petitioners’ father, Petitioners
are in privity with Brown as his relatives, and
(3) Petitioners are, by extension, in privity with a party
and are bound by the findings in Respondent’s
annulment order. Respondent’s allegation of privity has
no merit. Brown’s purported financial assistance in
obtaining the annulment, without any evidence that
Brown directed or controlled the litigation, does not
place him in privity with Respondent and does not bind
Petitioners.9 Moreover, Petitioners’ relationship with
Brown as his children does not place them in privity
with a party. See Roberts, 316 S.C. at 496, 450 S.E.2d
at 619 (“‘Privity’ as used in the context of collateral
estoppel, does not embrace relationships between
9

The parties stipulated that Brown did not intervene in the
annulment action, and he was not a client of Respondent’s
attorney. See, e.g., E.I. Du Pont de Nemours & Co. v. Sylvania I.
Corp., 122 F.2d 400, 405 (4th Cir. 1941) (holding “mere assistance
in the defense of a case is insufficient to bind a person not joined
as a party,” as it is participation in the trial and control of the
litigation that will bind one who is not a party of record).

App. 18
persons or entities, but, rather deals with a person’s
relationship to the subject matter of the litigation.
Privity is not established from the mere fact that
persons may happen to be interested in the same
question or in proving or disproving the same state of
facts or because the question litigated was one which
might affect such other person’s liability as a judicial
precedent in a subsequent action.” (citation omitted)).
Based on the preceding, we conclude Petitioners are
not bound by the factual findings in the annulment
order and are not collaterally estopped from litigating
whether Ahmed had the capacity to marry
Respondent.10 See id. at 496, 450 S.E.2d at 619 (“Due
process prohibits estopping some litigants who never
had a chance to present their evidence and arguments
on a claim, despite one or more existing adjudications
of the identical issue which stand squarely against
their position.”); cf. Scarboro v. Morgan, 64 S.E.2d 422,
424 (N.C. 1951) (stating “the heirs-at-law of Everette
Scarboro, not being parties to the action in Wilson
County, are not bound by the annulment judgment”).
Since the factual findings underlying the annulment

10

The validity of a marriage is usually determined by the
jurisdiction where it is contracted and will be recognized in
another state unless “such recognition would be contrary to a
strong public policy of that State.” Zwerling v. Zwerling, 270 S.C.
685, 686, 244 S.E.2d 311, 312 (1978) (quoting 52 Am. Jur. 2d
Marriage § 82). Since Respondent’s 1997 marriage to Ahmed
occurred in Texas, Texas law could be implicated in determining
its validity, but no issue has been raised in this regard. The
validity of Brown’s South Carolina marriage to Respondent is
properly examined under South Carolina law.

App. 19
order are not conclusive, the grant of summary
judgment in favor of Respondent is reversible error.
B. Application of Section 20-1-80
Petitioners further contend the court of appeals
erred in finding Respondent was Brown’s surviving
spouse because Respondent’s marriage to Brown
violated section 20-1-80 of the South Carolina Code as
a matter of law, where Respondent did not resolve her
first marriage before contracting marriage with Brown.
The South Carolina General Assembly has
established detailed procedures regarding the issuance
and recordation of marriage licenses and certificates in
this state to maintain the accuracy and accessibility of
information affecting the public interest. The General
Assembly has deemed it unlawful for any person to
contract marriage within this state without first
procuring a marriage license. S.C. Code Ann.
§ 20-1-210 (2014); see also id. § 20-1-280 (imposing a
penalty for anyone furnishing a false affidavit to
procure a license).
“The form of license and certificate of marriage shall
be prescribed and furnished by the State Registrar and
shall contain information required by the standard
certificate as recommended by the national agency in
charge of vital statistics, all of which are declared
necessary for registration, identification, legal, health[,]
and research purposes, with such additions as are
necessary to meet requirements imposed by the State.”
Id. § 20-1-310 (emphasis added). For uniformity, the
Division of Vital Statistics of the Department of Health
and Environmental Control (DHEC) is responsible for

App. 20
printing and distributing the forms to be used by all
probate courts in this state. Id. § 20-1-320.
A probate court judge or the clerk of court shall
issue a license upon the filing of an application, the
lapse of at least twenty-four hours, the payment of the
fee provided by law, and “the filing of a statement,
under oath or affirmation, to the effect that the persons
seeking the contract of matrimony are legally entitled
to marry, together with the full names of the persons,
their ages, and places of residence.” Id. § 20-1-230(A).
The probate judge or clerk of court who issued the
marriage license must (upon the return of copies by the
person who performed the wedding ceremony) “record
and index such [marriage] certificate in a book kept for
that purpose and send one copy to the Division of Vital
Statistics of [DHEC] within fifteen days after the
marriage license is returned to his offices.” Id.
§ 20-1-340. Thereafter, DHEC must “properly file and
index every marriage license and certificate and may
provide a certified copy of any license and certificate
upon application of proper parties except that upon
request the Department of Social Services or its
designee must be provided at no charge with a copy or
certified copy of a license and certificate for the purpose
of establishing paternity or establishing, modifying, or
enforcing a child support obligation.” Id. § 20-1-350.
In section 20-1-80, entitled, “Bigamous marriage
shall be void; exceptions,” the General Assembly has
declared all marriages contracted while a party has a

App. 21
living spouse are void, unless one of three specified
circumstances is established:
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend [1] to a
person whose husband or wife shall be absent
for the space of five years, the one not knowing
the other to be living during that time, [2] not to
any person who shall be divorced[,] or [3] [to any
person] whose first marriage shall be declared
void by the sentence of a competent court.
Id. § 20-1-80 (emphasis added). By the plain reading of
this statute, the General Assembly has not declared
every bigamous marriage void ab initio; there are
exceptions. The first two circumstances, absence for
five years and divorce, are not implicated here.
Petitioners contend the third exception highlighted in
section 20-1-80, the party’s first marriage has been
declared void by a competent court, required
Respondent to obtain a court order declaring her first
recorded marriage void before entering into a second
marriage.
Petitioners argue this Court indicated in Lukich v.
Lukich, 379 S.C. 589, 666 S.E.2d 906 (2008) that
section 20-1-80 focuses on the parties’ status at the time
a marriage is undertaken, so an annulment order
cannot retroactively validate a bigamous marriage
entered into prior to the issuance of the annulment.
Petitioners assert it is undisputed that, at the time of
Respondent’s marriage ceremony with Brown in 2001,
she had not annulled her first marriage to Ahmed.
Consequently, pursuant to section 20-1-80 and Lukich,

App. 22
Respondent’s 2004 annulment could not retroactively
validate Respondent’s 2001 marriage to Brown.
Petitioners assert the statute applies on its face to “[a]ll
marriages,” without limitation, and it requires the first
marriage to be “declared void by the sentence of a
competent court” (emphasis added).
Petitioners state vital public policy concerns
underlie section 20-1-80, which “simply requires
spouses who have previously obtained a marriage
license and participated in a marriage ceremony to
annul that marriage before attempting to marry
again.” Petitioners contend “Lukich and its strict
construction of Section 20-1-80 are entirely dispositive
of this appeal as a matter of law . . . .” They note all
annulments declare a defective marriage void ab initio,
so Respondent’s attempt to distinguish between void
and voidable marriages is not warranted in the context
of section 20-1-80.
Respondent, in turn, argues the rule in Lukich is
limited to the facts of that case, which involved a
voidable first marriage that was terminated based on
a spouse’s intoxication, not a marriage that was void ab
initio for bigamy. Respondent contends bigamous
marriages are not legal marriages and are never valid.
Respondent maintains her marriage to Ahmed was
void ab initio because Ahmed was already married. As
a result, Respondent states, there was no legal first
marriage that would serve as an impediment to her
marriage to Brown.
Respondent contends a voidable marriage is a valid
marriage until one party elects to procure an
annulment, and an annulment is not needed for a void

App. 23
marriage. Respondent states this distinction is not at
odds with the holding in Lukich, which recognized that,
although an annulment renders a marriage void ab
initio for most purposes, it cannot resurrect a bigamous
second marriage because, at the time the second
marriage was contracted, the individual had a lawful
spouse. Here, however, Respondent asserts she did not
have a lawful spouse, as Ahmed did not have the
capacity to marry her.
Determining the meaning of a statute is a question
of law. See Town of Summerville v. City of N.
Charleston, 378 S.C. 107, 110, 662 S.E.2d 40, 41 (2008)
(“Determining the proper interpretation of a statute is
a question of law, and this Court reviews questions of
law de novo.”).
We first note Respondent’s arguments presuppose
that Petitioners are conclusively bound by the factual
finding in the family court’s annulment order that
Ahmed had three wives in Pakistan (and that his
marriage to Respondent was, therefore, bigamous). For
the reasons discussed in the preceding section of this
opinion, the annulment order does not bind third
parties such as Petitioners to this factual finding, as
they had no opportunity to contest this point. Further,
Respondent has stipulated that she has no evidence
that Ahmed had three wives in Pakistan, other than
her own (unchallenged) testimony at the annulment
hearing regarding Ahmed’s alleged statement to this
effect. Cf. Gaines, 53 U.S. at 534 (“The great basis of
human society throughout the civilized world is
founded on marriages and legitimate offspring; and to
hold that either of the parties could, by a mere

App. 24
declaration, establish the fact that a marriage was
void, would be an alarming doctrine.”). Consequently,
we agree with Petitioners that the alleged bigamous
nature of Respondent’s first marriage was never
established in this estate matter.
However, even assuming Respondent’s first
marriage was, in fact, bigamous, we disagree with
Respondent’s interpretation of section 20-1-80 and this
Court’s holding in Lukich. Lukich presented a
bright-line rule based on the plain language of the
statute—all marriages contracted while a party has a
living spouse are invalid unless the party’s first
marriage has been “declared void” by an order of a
competent court (assuming the other statutory
exceptions do not apply). We noted that, “[i]n
construing a statute, we need not resort to rules of
construction where the statute’s language is plain.”
Lukich, 379 S.C. at 592, 666 S.E.2d at 907.
As we explained in Lukich, the statute looks to only
a single point in time, the date of contracting the
subsequent marriage, and it does not contemplate
either a prospective or retroactive perspective:
The statute speaks to the status quo at the time
the marriage was contracted, and does not
contemplate either a prospective or a retroactive
perspective. Any other construction of § 20–1–80
would lead to uncertainty and chaos.
Id. at 593, 666 S.E.2d at 907 (emphasis added).
Respondent asserts the effect of the statute (i.e.,
whether it is retroactive) should turn on the basis for
the annulment. We rejected this contention by the

App. 25
appellant in Lukich, stating it is the rule set forth in
section 20-1-80, not its exceptions, which is paramount.
See id. at 592 n.2, 666 S.E.2d at 907 n.2. We have
previously noted that “[t]his law first appears [in the
civil context] in the Revised Statues of 1873 . . . .” Davis
v. Whitlock, 90 S.C. 233, 237, 73 S.E. 171, 172 (1911).
To date, the General Assembly has not carved out any
exceptions to the requirement that a party obtain a
declaration of voidness from a competent court, and we
decline to impose an alternative reading that the
General Assembly did not set forth in the plain
language of the statute.
We agree with Respondent that most bigamous
marriages are void ab initio by law as a matter of
public policy. However, also as a matter of public
policy, and to protect the state’s interest in the
accurate recording of marriages, the failure to resolve
a prior marriage of record is also undesirable. Section
20-1-80 promotes the state’s need for accurate public
records by ensuring a marriage entered in the public
record is terminated before an individual enters into
another marriage of record. As we stated in Lukich, it
is the status of the parties at the time of contracting the
subsequent union, without the official resolution of a
prior union, that the statute prohibits in order to
protect societal interests. Cf. Carnie v. Carnie, 252 S.C.
471, 477, 167 S.E.2d 297, 300 (1969) (observing “the
well established proposition that the state itself is a
silent party to all divorce proceedings and that it is the
duty of the court to protect the interest of the state
therein”).

App. 26
As noted above, the General Assembly has set forth
detailed procedures to be followed in the recording and
indexing of marriage certificates, which it has stated
are vital “for registration, identification, legal, health[,]
and research purposes.” See S.C. Code Ann. § 20-1-310.
At the time Respondent contracted marriage with
Brown, public records showed Respondent entered into
a marriage in Texas in 1997 and then a purported
marriage in South Carolina in 2001. In our view,
section 20-1-80 requires that the resolution of the 1997
marriage be placed upon the public record prior to the
subsequent marriage so that the records accurately
reflect the parties’ status as married or unmarried. See
generally 11 Am. Jur. 2d Bigamy § 4 (2019) (stating
where a statute specifies exceptions to bigamy that
includes a declaration of voidness by a court, the
voidness generally must be declared by a competent
court prior to entering the second marriage).
While we acknowledge there is some authority for
the proposition that a marriage that is deemed void ab
initio by statute need not be declared so by a court, we
believe section 20-1-80, a civil statute,11 contemplates
an orderly procedure for this determination that
precludes a party from unilaterally and privately
concluding a prior marriage is defective. Without a
formal declaration that a marriage is void by a
competent court, the public record will continue to
show an existing marriage. Moreover, it is possible that
a party could falsely claim (or mistakenly believe) that
11

Section 20-1-80, a civil statute, is distinguishable from the
criminal offense of bigamy, currently found in section 16-15-10 of
the South Carolina Code.

App. 27
a marriage is bigamous, so requiring this point to be
established in a formal setting with admissible
evidence provides a verifiable method for ascertaining
the parties’ marital status. Cf. Perlstein v. Perlstein,
204 A.2d 909, 911–12 (Conn. 1964) (stating a marriage
ceremony gives rise to a presumptively valid status of
marriage that persists unless and until it is overthrown
by evidence in an appropriate judicial proceeding; the
court stated “[n]o mere claim of bigamy, whether made
in a pleading or elsewhere, would establish that a
marriage was bigamous,” and “[t]he state’s concern in
the marriage status of its domiciliaries imperatively
demands that the invalidity of the purported marriage
be judicially determined before that invalidity be
accepted”); State v. Crosby, 420 P.2d 431, 433 (Mont.
1966) (reasoning that, where a statute proclaims the
methods to avoid a subsequent marriage from being
declared bigamous, one of which being that the
marriage has been declared void by a court of
competent jurisdiction, “such a determination of
voidness cannot be made by the person involved”;
rather, it must be made by a court of competent
jurisdiction).
Public records have long played an essential role in
society. Official records are kept of each individual’s
birth, marriage, divorce, and death. These vital records
provide a confirmation of status that can be
determinative of a person’s rights in many contexts.
See generally Murray v. Supreme Lodge of New
England Order of Prot., 52 A. 722, 723 (Conn. 1902)
(“From a very early period our law has provided for the
record of births, deaths, and marriages in some way by
some public official. The first act of this kind seems to

App. 28
have been passed in 1664 [], and ever since that time
our statute book has contained provisions [regarding]
the making and preservation of such records.”).
This state’s abiding interest in the accuracy of its
records regarding a party’s marital status is
underscored by the fact that a panoply of rights,
privileges, and responsibilities are legislatively created
by a valid marriage. For example, under the South
Carolina Code, a spouse has a vested special equity and
ownership right in marital property (§ 20-3-610); may
consent to medical treatment for the other (§ 44-66-30);
has homestead protections (§ 15-41-30); has the right
to bring a claim for loss of consortium (§ 15-75-20); is
given preference for appointment as the spouse’s
guardian (§ 62-5-308); is entitled to various tax
benefits, such as the two wage-earner credit for
married individuals (§ 12-6-3330); has the right to
claim an evidentiary privilege for marital
communications (§ 19-11-30); has insurance conversion
privileges (§ 38-71-170); has rights to alimony
(§ 20-3-130), child custody (§ 20-3-160), and the
equitable distribution of property in the event of a
divorce (§ 20-3-620); is entitled to pursue a claim for
wrongful death of a spouse (§ 15-51-20); may receive an
award of workers’ compensation benefits as the
surviving spouse (§ 42-9-290); and is protected from
disinheritance via the provisions for an elective share
(§ 62-2-201) and for an omitted spouse’s share
(§ 62-2-301). These rights, privileges, and
responsibilities that are incident to a marriage are
universally recognized in other jurisdictions. See Baehr
v. Lewin, 852 P.2d 44, 59 (Haw. 1993), as clarified on
reconsideration (May 27, 1993) (outlining “a number of

App. 29
the most salient marital rights and benefits”), and
abrogated by Obergefell v. Hodges, 135 S. Ct. 2584
(2015); Baker v. State, 744 A.2d 864, 883–84 (Vt. 1999)
(discussing “the benefits and protections incident to a
marriage license”).
The recording of a marriage license creates an
obstacle to a subsequent marriage until such time as
the obstacle is removed by court order. If individuals do
not comply with the proper protocols for entering into
and documenting a valid marriage under state law, the
public records will not be accurate, and the
determinations on which those records are based will
likewise be faulty. For this reason, compliance serves
not only the interests of the individual parties entering
into a marriage, but also the public interest, and it
advances a state’s public policy of affording notice of its
residents’ status to all concerned.
In the current appeal, because it is undisputed that,
at the time Respondent contracted marriage with
Brown in 2001, she had not resolved her first recorded
marriage (to Ahmed), her marriage to Brown was void
ab initio and “there was nothing to be ‘revived’ by the
annulment order” Respondent obtained in 2004. See
Lukich, 379 S.C. at 592, 666 S.E.2d at 907 (stating a
bigamous married is void ab initio and cannot be
revived by the subsequent conduct of the parties); 11
Am. Jur. 2d Bigamy § 4 (2019) (stating some
authorities hold that “voidness of the former marriage
must be declared by a court of competent jurisdiction,
and the fact that under a civil statute a prior marriage
was void from the beginning because of the fact that at
the time of the prior marriage the accused had another

App. 30
wife does not render subsequent marriages
nonbigamous”); see also Davis, 90 S.C. at 246, 73 S.E.
at 175 (“The tendency of the courts of this country is
. . . to hold that, where the relation began as
meretricious, it cannot be converted into a marriage by
the mere removal of the obstacle to marriage without
some subsequent agreement to be husband and wife.”).
The uncertainty that arose as to Respondent’s
marital status in the current case and the lengthy legal
process that ensued, to the detriment of all those
concerned, is precisely the type of problem section
20-1-80 addresses by requiring the orderly recording of
marriages and any terminations to facilitate the
accuracy of the public record.12 While the inability to
readily determine Brown’s heirs has needlessly
diminished Estate assets, we are concerned that it has
also had detrimental effects on numerous unknown
persons who are not parties to this appeal. Brown’s
estate planning documents indicated that he intended
the bulk of his wealth to be used to support his
charitable trust, which he specifically declared was to
“be used solely for the tuition, educational expenses,
and financial assistance of . . . children, youth, or young
adults ([w]ho are both qualified and deserving)” of
financial assistance to further their education in South
Carolina and Georgia. Wilson v. Dallas, 403 S.C. 411,
417, 743 S.E.2d 746, 750 (2013). The ongoing litigation

12

Because the preceding issues are dispositive, we need not reach
Petitioners’ remaining arguments. See Futch v. McAllister Towing
of Georgetown, Inc., 335 S.C. 598, 613, 518 S.E.2d 591, 598 (1999)
(observing an appellate court need not address remaining issues
when the determination of another point is dispositive).

App. 31
since Brown’s passing has thwarted his expressed wish
that his estate be used for educational purposes, a fact
confirmed by the parties in this case, who
acknowledged that no scholarships have been paid for
students to date, a point we find both extraordinary
and lamentable.
III. CONCLUSION
Based on the foregoing, we conclude Respondent is
not the surviving spouse of Brown. Consequently, we
reverse the decision of the court of appeals and remand
the matter to the circuit court for further proceedings.
Upon remand, the circuit court shall promptly proceed
with the probate of Brown’s estate in accordance with
his estate plan.
REVERSED AND REMANDED.
KITTREDGE, HEARN and JAMES, JJ., concur.
FEW, J., concurring in a separate opinion.
JUSTICE FEW: I completely agree with the majority’s
well-reasoned analysis of section 20-1-80 of the South
Carolina Code (2014) in Section II.B of the majority
opinion. I concur in Section II.B and the conclusion the
majority sets forth in Section III. Respectfully, I would
not reach the issues addressed in Section II.A.

App. 32

APPENDIX B
THE STATE OF SOUTH CAROLINA
In The Court of Appeals
Appellate Case No. 2015-002417
[Filed: July 25, 2018]
_______________________________________
In Re: The Estate of James Brown a/k/a )
James Joseph Brown,
)
)
Tommie Rae Brown,
)
Respondent,
)
)
v.
)
)
David C. Sojourner, Jr., in his capacity
)
as Limited Special Administrator and
)
Limited Special Trustee,
)
Deanna Brown-Thomas,
)
Yamma Brown, Venisha Brown,
)
Larry Brown, Terry Brown,
)
and Daryl Brown,
)
Respondents below, )
_______________________________________)
Of whom Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown, Terry Brown, Michael Deon
Brown and Daryl Brown are the Appellants.

App. 33
Appeal From Aiken County
Doyet A. Early, III, Circuit Court Judge
Opinion No. 5578
Heard April 17, 2018 – Filed July 25, 2018
AFFIRMED
Robert C. Byrd and Alyson Smith Podris, both of
Parker Poe Adams & Bernstein, LLP, of
Charleston; Katon Edwards Dawson, Jr., of
Parker Poe Adams & Bernstein, LLP, of
Columbia; and Marc Toberoff, of Malibu, CA, all
for Appellants Deanna Brown Thomas, Yamma
Brown, and Venisha Brown. Matthew Day
Bodman, of Matt Bodman, PA, of Columbia, and
David B. Bell, of Augusta, GA, both for
Appellants Michael Deon Brown and Daryl J.
Brown. John Andrew Donsbach, Sr., of
Donsbach Law Group, LLC, of Martinez, GA, for
Appellant Terry Brown.
Robert N. Rosen, of Rosen Law Firm, LLC, of
Charleston; S. Alan Medlin, of Columbia;
Thomas Heyward Carter, Jr., Andrew W.
Chandler, and M. Jean Lee, all of Evans Carter
Kunes & Bennett, PA, of Charleston; David
Lawrence Michel, of Michel Law Firm, LLC, of
Charleston; and Arnold S. Goodstein, of
Goodstein Law Firm, LLC, of Summerville, all
for Respondent.
SHORT, J.: In this case involving the estate of James
Brown, six of Brown’s children appeal from the trial
court’s grant of Tommie Ray Brown’s (Respondent’s)
motion for summary judgment, arguing the trial court

App. 34
erred in finding the marriage between Respondent and
Brown was not bigamous. We affirm.
FACTS
Respondent married Javed Ahmed on February 17,
1997. Thereafter, she married Brown on December 14,
2001.1 Respondent brought an action to annul her
marriage to Ahmed on December 15, 2003, and in its
April 15, 2004 order, the Charleston County Family
Court found her marriage to Ahmed was void ab initio.
The court found Ahmed was married at the time of his
marriage to Respondent, and therefore, he lacked
capacity to marry her.2
1

On her marriage license to Brown, Respondent stated it was her
first marriage. In the parties’ joint stipulation of facts filed
September 5, 2014, it states, “From the February 17, 1997
marriage ceremony between [Respondent] and [Ahmed] through
the December 14, 2001 marriage ceremony between [Respondent]
and [Brown], no order of any court or other occurrence of which
[Respondent] is aware at this time ended or caused to end any
marriage that certain parties assert existed between [Respondent]
and [Ahmed].”

2

Respondent stated she thought she married Ahmed, but after the
marriage ceremony, he told her he would not live with her because
he was married to three or more women in Pakistan. She claims
the marriage was never consummated, and Ahmed only married
her to become a United States citizen. In the parties’ joint
stipulation of facts, it states Respondent had “no documents or
other tangible evidence evidencing [Ahmed] was married to
another person when [Respondent] and [Ahmed] participated in
the February 17, 1997 marriage ceremony” and Respondent could
not identify any person “who can testify that [Ahmed] was married
to another person when [Respondent] and [Ahmed] participated in
the February 17, 1997 marriage ceremony.” According to

App. 35
Brown and Respondent separated after Brown was
arrested on January 28, 2004, for criminal domestic
violence as a result of an altercation between Brown
and Respondent. Brown sought an annulment from
Respondent on May 6, 2004, asserting Respondent was
legally barred from entering into a marriage to Brown
because she was married to Ahmed at the time of their
marriage ceremony. Respondent filed a counterclaim,
seeking a divorce on the grounds of physical cruelty
and adultery. In a consent order of dismissal filed by
the Aiken County Family Court on August 16, 2004,
the parties informed the court they had reached an
agreement, and Respondent agreed to “forever waive
any claim of a common law marriage to [Brown], both
now and in the future.” Respondent states she and
Brown reconciled and lived together until his death.
Brown died on December 25, 2006. His will devised his
personal effects to six named children: Deanna
Brown-Thomas, Yamma Brown, Venisha Brown, Terry
Brown, Michael Deon Brown, and Daryl Brown
(collectively, Appellants). Brown’s will was admitted to
probate on January 18, 2007. On January 26, 2007, the
Aiken County Probate Court removed the matter to the
circuit court, and the probate court continued to
remove all matters filed in Brown’s Estate to the circuit
court. On February 1, 2007, Respondent brought an
action to set aside Brown’s entire will, which did not
name her or their son as beneficiaries, based on alleged

Respondent, Ahmed was never located, and he did not “appear,
answer the complaint or otherwise plead within the time required,
participate in or otherwise defend himself in the Ahmed
Annulment Action.”

App. 36
undue influence and fraud.3 She separately claimed an
elective share or an omitted spouse’s share of the
Brown estate.
Appellants and Respondent participated in mediation
on August 10, 2008, and reached a settlement
agreement. The agreement states “[t]he settling parties
intend for the agreement to be a binding private
settlement agreement but also are seeking court
approval of the settlement.” The parties agreed
Respondent “was the legal wife of [Brown], during his
lifetime and at the time of his death, and qualifies as
his surviving spouse.” The court approved the
settlement agreement on May 26, 2009. However, on
May 8, 2013, the South Carolina Supreme Court
reversed and remanded the approval of the settlement
to the trial court because of a lack of evidence showing
a fair and reasonable settlement of a good faith
controversy. See Wilson v. Dallas, 403 S.C. 411, 450-51,
743 S.E.2d 746, 767-68 (2013). The court stated that
“even if [Respondent was] able to establish a claim as
Brown’s surviving spouse, she executed a prenuptial
agreement, in which she indicated that she had the
opportunity to consult with counsel of her own choosing
and waived all rights to Brown’s property or any
statutory claims against his estate,” and a valid
prenuptial agreement would normally preclude any
right to an elective share. Wilson, 403 S.C. at 440, 743
S.E.2d at 762.

3

Brown and Respondent have one son together, James Joseph
Brown, II, who was born on June 11, 2001.

App. 37
In the interim, a hearing was held and several other
motions were filed, but what is relevant to this appeal
is that on April 28, 2014, Respondent filed a motion for
summary judgment, asserting there was no genuine
issue of material fact as to her marriage to Brown, and
she was entitled to summary judgment on the issue of
the validity of her marriage as a matter of law. On
June 2, 2014, Appellants joined in on a motion for
summary judgment, limited to the sole assertion that
Respondent was not Brown’s surviving spouse at the
time of his death.4 After a hearing on the motions, the
trial court filed its order on January 13, 2015, granting
Respondent’s motion for summary judgment. The court
found Respondent and Ahmed never had a valid
marriage because it was a bigamous marriage, and
thus, Respondent had no impediment to her valid
marriage to Brown. Appellants filed motions to
reconsider. In an order filed October 26, 2015, the trial
court denied Appellants’ motions to reconsider. These
appeals followed.5
4

The Limited Special Administrator (LSA) of the Estate of James
Brown filed the motion. In the motion, Appellants attached as an
exhibit an affidavit from an attorney who said he spoke with
Ahmed, who was in Pakistan. The attorney stated Ahmed told him
he was not married to anyone else when he married Respondent,
and he and Respondent lived together as husband and wife for a
period of time following the 1997 marriage. Appellants also
attached the marriage license between Ahmed and Respondent
that stated Ahmed was not married at the time of the application.

5

Michael Deon Brown and Daryl Brown adopted the briefs of the
LSA. The LSA notified this court that it reached a settlement with
Respondent and sought to withdraw its appeal. On September 19,
2017, this court granted the LSA’s request to withdraw its appeal
and stated the briefs submitted by the LSA were to be made a part

App. 38
STANDARD OF REVIEW
A motion for summary judgment shall be granted “if
the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to a
judgment as a matter of law.” Rule 56(c), SCRCP. “In
determining whether any triable issues of fact exist,
the trial court must view the evidence and all
reasonable inferences that may be drawn therefrom in
the light most favorable to the party opposing summary
judgment.” Pallares v. Seinar, 407 S.C. 359, 365, 756
S.E.2d 128, 131 (2014). “An appellate court applies the
same standard used by the trial court under Rule 56(c)
when reviewing the grant of a motion for summary
judgment.” Spence v. Wingate, 395 S.C. 148, 156, 716
S.E.2d 920, 925 (2011). “Because summary judgment is
a drastic remedy, it should be cautiously invoked to
ensure that a litigant is not improperly deprived of a
trial.” Id.
LAW/ANALYSIS
I.

Bigamous Marriage

Appellants Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown argue the trial court erred in not
finding Respondent’s attempted marriage to Brown
was bigamous as a matter of law due to her failure to

of the record as the briefs of Michael Deon Brown and Daryl
Brown.

App. 39
terminate her first marriage prior to her second
marriage.6 We disagree.
Section 20-1-80 of the South Carolina Code (2014)
provides:
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend to a
person whose husband or wife shall be absent
for the space of five years, the one not knowing
the other to be living during that time, not to
any person who shall be divorced or whose first
marriage shall be declared void by the sentence
of a competent court.
Appellants argue the trial court erred in applying the
2004 annulment order to validate Respondent’s 2001
marriage to Brown, which they assert was bigamous
under section 20-1-80. They maintain a subsequent
order declaring a first marriage void ab initio does not
relate back so as to validate a second bigamous
marriage. Appellants also argue the trial court erred in
making a distinction between later-annulled marriages
that were “void” and those that were “voidable.” They
state it does not matter whether Respondent’s 1997
marriage to Ahmed was “void” or “voidable” because
Respondent’s first marriage must be declared void by
a competent court before she can remarry.

6

Appellants Terry Brown, Michael Deon Brown, and Daryl Brown
also make essentially this same argument in their briefs;
therefore, we combine the arguments for this issue.

App. 40
The trial court in this case stated, “A void marriage is
treated differently from a voidable marriage. A
voidable marriage is valid unless and until a court
rules that such a marriage is invalid, but a void
marriage is never valid for any purpose.” The court
further stated, “South Carolina law precludes this
Court from giving any effect whatsoever to a bigamous
marriage. Because the Court cannot give any effect to
a bigamous marriage, it is required to hold that the
bigamous marriage was never a marriage.” Therefore,
the court held Respondent and Ahmed never had a
valid marriage at any point in time, and Respondent
had no impediment to her valid marriage to Brown.
The South Carolina Supreme Court in Lukich v. Lukich
found that under the terms of section 20-1-80, the
wife’s “‘marriage’ to [h]usband # 2 was ‘void’ from the
inception since at the time of that marriage she had a
living spouse and that marriage had not been ‘declared
void.’” 379 S.C. 589, 592, 666 S.E.2d 906, 907 (2008)
(quoting S.C. Code Ann. § 20-1-80). “A mere marriage
ceremony between a man and a woman, where one of
them has a living wife or husband, is not a marriage at
all. Such a marriage is absolutely void, and not merely
voidable.” Day v. Day, 216 S.C. 334, 338, 58 S.E.2d 83,
85 (1950); see also Howell v. Littlefield, 211 S.C. 462,
466, 46 S.E.2d 47, 48 (1947) (“[Husband’s] existing
marriage . . . incapacitated him . . . to contract another
marriage. . . .”); Johns v. Johns, 309 S.C. 199, 201, 420
S.E.2d 856, 858 (Ct. App. 1992) (“At the time the
parties began residing together in September 1983, and
throughout their cohabitation, the respondent was
legally married to another woman. Thus, any marriage
between the parties while [the] respondent had a

App. 41
subsisting marriage was void as a matter of public
policy. . . . It was void from its inception, not merely
voidable, and, therefore, cannot be ratified or confirmed
and thereby made valid.”).
While an annulment order relates back in most
senses, it does not have the ability to validate
the bigamous second “marriage.” Since there
was no marriage under the plain terms of the
statute when the ceremony between Wife and
Husband # 2 was performed in 1985, there was
nothing to be “revived” by the annulment order
in 2003.
Lukich, 379 S.C. at 592, 666 S.E.2d at 907.
In Wilson v. Dallas, 403 S.C. at 434 n.16, 743 S.E.2d at
759 n.16, our supreme court stated in a footnote:
[Respondent]’s request for an annulment from
Ahmed was hastily granted by the family court
in Charleston County during the pendency of
Brown’s separate annulment action against her.
The circuit court noted the decision of the Court
of Appeals in Lukich v. Lukich, 368 S.C. 47, 627
S.E.2d 754 (Ct. App. 2006), in which the Court of
Appeals held that an annulment declaring a
spouse’s first marriage void could not
retroactively validate the spouse’s second
marriage. The circuit court distinguished
Brown’s situation, opining that the rule in
Lukich did not apply where the first marriage
was never valid because one of the parties was
already married. This Court has since affirmed
Lukich, in Lukich v. Lukich, 379 S.C. 589, 666

App. 42
S.E.2d 906 (2008). We express no opinion,
however, on the circuit court’s interpretation
here.
In Lukich, there was no impediment to the first
marriage; thus, the wife had to have the first marriage
annulled for the second marriage to be valid. Here,
Respondent’s first marriage to Ahmed was invalid or
void from the beginning because he was already
married to someone else at the time of the marriage. As
a result, had Respondent’s marriage to Ahmed not been
annulled, the second marriage to Brown would still
have been valid. Respondent was married to Brown in
a valid ceremonial marriage, as evidenced by a
marriage license and certificate. Her marriage to
Ahmed was properly held bigamous in a final
unappealed judgment by the family court, which
provides she had no impediment to her marriage to
Brown. Therefore, we find the trial court did not err in
finding Respondent was married to Brown.
II.

Summary Judgment

Appellants Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown argue the trial court erred in not
granting their motion for summary judgment because
Respondent failed to present any admissible evidence
that her marriage to Ahmed was invalid.7
Appellants argue the trial court granted Respondent’s
motion for summary judgment on the purported ground
that Respondent’s marriage to Ahmed was bigamous
7

Appellant Terry Brown makes essentially this same argument in
his brief; therefore, we combine the arguments for this issue.

App. 43
without any evidentiary support for its finding. They
also assert the trial court erred in relying on the
annulment order for the truth of the matter asserted in
its findings because it was inadmissible hearsay not
subject to an exception. Appellants assert the evidence
presented to the trial court established that Ahmed
was not married when he married Respondent in 1997.
Specifically, that Ahmed stated he was not presently
married on their Texas marriage license. They assert,
in contrast, that the only evidence that Ahmed was
married at the time is the annulment order, which was
based solely on Respondent’s testimony.
The denial of a motion for summary judgment is not
directly appealable. Ballenger v. Bowen, 313 S.C. 476,
476, 443 S.E.2d 379, 380 (1994). Therefore, we decline
to address this issue. However, to the extent
Appellants also argue the trial court erred in granting
Respondent’s motion for summary judgment, we find
the trial court had no subject matter jurisdiction to
relitigate the family court order because only the
family court has jurisdiction over annulments. S.C.
Code Ann. § 63-3-530(A)(6) (2010) (“The family court
has exclusive jurisdiction . . . to hear and determine
actions for the annulment of marriage.”). As a result,
the trial court did not err in granting Respondent’s
motion for summary judgment because the annulment
order was conclusive as to Respondent’s marriage to
Ahmed.
III.

Collateral Estoppel

Appellants Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown argue the trial court erred in
holding the findings of fact and conclusions of law in

App. 44
the annulment order were preclusive as to Appellants.8
We disagree.
“Collateral estoppel, also known as issue preclusion,
prevents a party from relitigating an issue that was
decided in a previous action, regardless of whether the
claims in the first and subsequent lawsuits are the
same.” Carolina Renewal, Inc. v. S.C. Dep’t of Transp.,
385 S.C. 550, 554, 684 S.E.2d 779, 782 (Ct. App. 2009).
“The party asserting collateral estoppel must
demonstrate that the issue in the present lawsuit was:
(1) actually litigated in the prior action; (2) directly
determined in the prior action; and (3) necessary to
support the prior judgment.” Id.
Appellants argue the annulment order binds “all the
world” as to the marital status of Respondent and
Ahmed as of April 15, 2004, the date the order was
filed. However, they assert the annulment order’s
findings of fact and conclusions of law are not binding
on those who were not parties to that proceeding, such
as Brown and Appellants.
Appellants also argue the trial court erred in finding
they are collaterally estopped from contesting the
findings of fact and conclusions of law in the
annulment order. They assert the first element of
collateral estoppel is not met because the order was
essentially granted by default and the issue of Ahmed’s
alleged bigamy was never actually litigated. Appellants
also assert Ahmed was not properly served with
8

Appellants Terry Brown, Michael Deon Brown, and Daryl Brown
all make essentially this same argument in their briefs; therefore,
we combine the arguments for this issue.

App. 45
Respondent’s summons and complaint because the
publication was buried in the Houston Chronicle on
page two of the classified section and the process server
did not state he searched United States immigration
databases or looked for Ahmed in Pakistan. Appellants
further argue collateral estoppel only applies to parties
to the prior action and their privies, and the only
named parties in the annulment action were
Respondent and Ahmed. They assert Brown was not in
privity with Respondent due to his alleged interest in
the outcome, and Brown’s and Appellants’ interests are
neither identical to nor closely aligned with
Respondent or Ahmed. Appellants assert merely paying
Respondent’s legal fees for the annulment action did
not place him in privity with Respondent and did not
give him control over the litigation. Finally, Appellants
argue that even if the elements of collateral estoppel
were present, application of the doctrine is
discretionary and should not be applied to this case
because it would be inequitable to bar Appellants from
challenging the hasty findings of a prior action in
which Brown was not a named party, had no right to
intervene, did not control the proceedings, and his
interests were not heard or adjudicated.
We find Appellants lacked standing to contest the
annulment order, just as Brown did not have standing
to intervene in the annulment action between
Respondent and Ahmed. See Lukich, 368 S.C. at 51,
627 S.E.2d at 756 (denying the husband’s motion to
intervene in the wife’s annulment proceeding and
finding he did not have standing because he was not a
party to the marriage). Any rights Appellants have are
derivative from Brown. See Watson v. Watson, 172 S.C.

App. 46
362, 369-70, 174 S.E. 33, 36 (1934) (“[A]s it is only the
children of Mr. Watson who are contesting this
question, they are completely estopped, as was their
father, from disputing the validity of the divorce in
question. If they cannot dispute the validity of the
divorce, then there is no question of the validity of the
marriage to the demandant which they can make, and
hence there is no question of her right of dower in the
real estate which he owned during coverture.”); Neely
v. Thomasson, 365 S.C. 345, 354, 618 S.E.2d 884, 889
(2005) (“Because the issue of paternity was raised and
ruled upon in a prior action, Decedent, if alive, would
have been barred from challenging paternity at a later
date. As a result, Decedent’s heirs are likewise barred
from asserting claims that Decedent himself would
have been barred from asserting. Moreover, we find
that it would be unjust to allow Decedent’s siblings to
assert a claim that Decedent himself never chose to
assert during his lifetime.” (citations omitted)). During
his life, Brown availed himself of the method available
to him by bringing his own annulment action against
Respondent to invalidate his marriage to her. However,
Brown and Respondent agreed to dismiss the action,
and Brown did not bring another action prior to his
death.
Appellants also argue that while the annulment order
binds them as to the marital status of Respondent and
Ahmed as of April 15, 2004, the annulment order’s
findings of fact and conclusions of law are not binding
on those who were not parties to that proceeding.
However, Respondent is only asserting the family
court’s order as to the status of her marriage to Ahmed.
As for Appellants’ collateral estoppel argument, (1) the

App. 47
annulment was actually litigated as the court reviewed
the evidence presented and found it was sufficient to
meet Respondent’s burden of proof; (2) the validity of
the marriage between Respondent and Ahmed was
determined in the annulment action as it was the
entire purpose of the action; and (3) the issue was
necessary to support the prior judgment. Therefore, we
find the trial court did not err in holding the findings of
fact and conclusions of law in the annulment order
were preclusive as to Appellants.
IV.

Discovery Stay

Appellants Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown argue the trial court erred in
staying discovery and granting Respondent’s motion for
summary judgment despite genuine issues of material
fact. We disagree.
Appellants argue the court erred in not allowing the
parties to conduct any discovery pending its ruling on
Respondent’s motion, yet allowed her to file two
self-serving affidavits in support of her motion, and the
court sealed her handwritten diaries. They assert this
prevented them from using potentially relevant
evidence that may have been adverse to Respondent.
The parties all agreed to the stipulation of facts in this
case, which resolves the material factual issues in the
action. The reason Appellants seek additional discovery
is to relitigate the annulment order. We already
determined Appellants are bound by the annulment
order. Therefore, we find the trial court did not err in
staying discovery pending the decision on Respondent’s

App. 48
motion for summary judgment as to the status of her
marriage to Brown.
CONCLUSION
Accordingly, the decision of the trial court is
AFFIRMED.
THOMAS and HILL, JJ., concur.

App. 49

APPENDIX C
STATE OF SOUTH CAROLINA
COUNTY OF AIKEN
IN THE COURT OF COMMON PLEAS
SECOND JUDICIAL CIRCUIT
Case Nos.: 2013-CP-02-02849
2013-CP-02-02850
[Filed: October 26, 2015]
_________________________________
IN RE THE ESTATE OF
)
JAMES BROWN A/K/A
)
JAMES JOSEPH BROWN
)
_________________________________)
ORDER RE RESPONDENT’S AND AMICI
CURIAE’S MOTIONS TO ALTER, AMEND OR
RECONSIDER ORDER RE PETITIONER’S
MOTION FOR SUMMARY JUDGMENT AND
THE LIMITED SPECIAL ADMINISTRATOR’S
MOTION FOR SUMMARY JUDGMENT
This matter came before the court on June 30, 2015
on the following motions: the Limited Special
Administrator’s Motion to Alter, Amend and
Reconsider filed January 26, 2015; Larry Brown,
Venisha Brown, Deanna Brown-Thomas, and Yamma
Brown’s Motion to Alter or Amend Judgment and/or for
Reconsideration dated January 26, 2015; Jeanette
Mitchell, Sarah LaTonya Brown Fegan, Ciara Petitt,
Cheriquarius Williams and LaRhonda Petitt’s Motion

App. 50
to Reconsider Alter Amend January 13, 2015 Order;
Daryl Brown’s Motion to Alter, Amend and Reconsider
filed January 28, 2015; Michael Deon Brown’s Motion
to Alter, Amend and Reconsider dated February 2,
2015; and Terry Brown’s Motion to Alter, Amend and
Reconsider filed February 2, 2015. Petitioner filed a
Return in Opposition to Respondents’ Motions to Alter,
Amend or Reconsider on July 6, 2015.
The following counsel appeared at the hearing:
(1) Robert N. Rosen, S. Alan Medlin, Arnold S.
Goodstein, and Corey T. L. Smith, counsel for Tommie
Rae Brown; (2) John F. Beach and Lyndey Zwing,
counsel for the Limited Special Administrator David C.
Sojourner; (3) A. Peter Shahid, Jr., counsel for
Guardian ad Litem Stephen M. Slotchiver; (4) Stephen
M. Slotchiver, Guardian ad Litem for James Joseph
Brown, II; (5) Matthew D. Bodman, counsel for Daryl
Brown and Michael Deon Brown; (6) John A. Donsbach
and Scott Keniley, counsel for Terry Brown; (7) William
Barr and Ittriss J. Jenkins, counsel for Jeanette
Mitchell and Amici Curiae LaRhonda Petitt, Ciara
Petitt, Cheriquarius Williams, and Sarah LaTonya
Brown Fegan; and (8) J. David Black; counsel for
Russell Bauknight, Personal Representative of the
James Brown Estate and Trustee of the James Brown
2000 Irrevocable Trust Agreement.
I. ISSUES BEFORE THE COURT.
This Court had an extensive hearing on the
Respondent’s respective Motions on June 30, 2015. All
points raised in these Motions have already been
considered and denied in this Court’s Order filed
January 13, 2015 granting Petitioner’s Motion for

App. 51
Summary Judgment. In granting Petitioner’s Motion
for Summary Judgment, this Court relied only upon
the applicable law as well as the stipulated facts and
took judicial notice of the pleadings and other
documents in this case.1 The only real issue in
controversy at the June 30, 2015 hearing was the
interpretation of Lukich v. Lukich, 368 S.C. 47, 627
S.E.2d 754 (Ct. App. 2006), aff’d, 379 S.C. 589, 666
S.E.2d 906 (2008). This Court reiterates that it relied
only upon the applicable law and facts as agreed upon
in the Joint Stipulation of Facts in granting
Petitioner’s Motion for Summary Judgment.
At the hearing on Respondents’ Motions to Alter,
Amend or Reconsider held on June 30, 2015,
Respondents argued that Lukich was dispositive of this
matter and agreed that this Court’s determination of
the impact of Lukich on this case would be
determinative. Consequently, this Order focuses
specifically on the impact of Lukich. Respondents
contend that Lukich changes prior law by holding that
a bigamous marriage is voidable, and Petitioner
contends that Lukich is consistent with the bigamy
statute and all case precedent by holding that a
1

See Joint Stipulation of Facts filed September 5, 2014 at p. 5,
¶ 10 which states:
The parties could not reach an agreement as to other facts
but agree this Court can take judicial notice, as it deems
appropriate, of the files, pleadings, transcripts of hearings,
briefs and oral arguments in this Court, the Court of
Appeals and the Supreme Court along with the Record on
Appeal from the Court of Appeals and Supreme Court, in
all cases concerning or related to Petitioner’s elective share
and omitted spouse claims.

App. 52
bigamous marriage is void and thus never a marriage.
For the reasons stated in the previous order and
discussed hereinbelow, this Court agrees with
Petitioner’s position. Determining the impact of Lukich
on South Carolina jurisprudence first requires an
examination of South Carolina law prior to Lukich.
A. The Bigamy Statute.
The South Carolina General Assembly has clearly
spoken through S.C. Code Ann. § 20-1-80 that a
bigamous marriage is “void” – i.e., never a marriage
and never valid from the beginning.2 This section reads
as follows:
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend to a
person whose husband or wife shall be absent
2

For more than a century, that statute has provided that
bigamous marriages are void. This is consistent with the public
policy against bigamous marriages. For example, entering into a
bigamous marriage is a crime. Note, however, that State v. Sellers,
140 S.C. 66,134 S.E. 873 (S.C. 1926), recognizes, as do all the other
bigamy cases, that a bigamous marriage is void ab initio, so that
a void first marriage is not an impediment to a valid second
marriage, and thus the second marriage is not bigamous and not
a crime.

Lukich confirms the difference between a void marriage – void ab
initio because of bigamy – and a merely voidable marriage – valid
unless and until a court invalidates it, such as for intoxication.
Lukich annulled two marriages: a bigamous marriage, held void ab
initio, and a marriage annulled for intoxication, held voidable.
Unlike bigamous marriages, which are against public policy and
necessarily void, “intoxication” marriages are not against public
policy and understandably are voidable.

App. 53
for the space of five years; the one not knowing
the other to be living during that time, not to
any person who shall be divorced or whose first
marriage shall be declared void by the sentence
of a competent court.
S.C. Code Ann. § 20-1-80. A void marriage is treated
differently from a voidable marriage. A voidable
marriage can be valid unless and until a court rules
that such a marriage is invalid, but a void marriage is
never valid for any purpose.
The South Carolina General Assembly understands
the difference between void and voidable. For example,
S.C. Code Ann. § 62-3-713, governing self-dealing
transactions by a personal representative, provides
that such a transaction is “voidable” and can be
invalidated at the request of an interested person.
“An annulment declares that a marriage never
occurred because of some defect. Defective marriages
may be either void or voidable. In a void marriage, the
circumstances are such that the marriage could never
have come into being. A voidable marriage is
recognized under the law as a valid marriage until an
action is brought to prove it invalid.” Stuckey, Marital
Litigation in South Carolina, Ch. 3.A. A bigamous
marriage is void.3
Consequently, when the General Assembly uses the
term “void” in the bigamy statute, the meaning is clear:
a bigamous marriage is void ab initio and never valid.
3

In fact, “a void [bigamous] marriage technically needs no judicial
action to declare that it is void.” Id.

App. 54
B. Case Precedent: A Bigamous Marriage
Is Void Ab Initio And Never A Marriage.
The annulment order in this case was granted on
the most serious and substantial of all grounds for
rendering a marriage void: bigamy. It is against public
policy and a crime to commit bigamy. A long line of
South Carolina cases; including Lukich, holds that a
bigamous marriage is not a marriage at all, at any
point in time. In fact, every South Carolina case
considering the issue has concluded that a bigamous
marriage is void ab initio, and thus never a marriage:
At the time the patties began residing
together in September 1983, and throughout
their cohabitation, the respondent was legally
married to another woman. Thus, any marriage
between the parties while respondent had a
subsisting marriage was void as a matter of
public policy. S.C. Code Ann. § 20- 1-80 (1985)
(“All marriages contracted while either of the
parties has a former wife or husband living shall
be void”). It was void from its inception, not
merely voidable, and, therefore, cannot be
ratified or confirmed and thereby made valid.
Johns v. Johns, 309 S.C. at 201, 420 S.E.2d at 858
(emphasis added).
A mere marriage ceremony between a man
and a woman, where one of them has a living

App. 55
wife or husband, is not a marriage at all. Such a
marriage is absolutely void, and not merely
voidable.
Day v. Day, 216 S.C. 334, 338, 58 S.E.2d 83, 85 (1950)
(emphasis added).
There could not have been a valid marriage
between the appellant, Maggie (Craft) Blizzard,
and William Blizzard, as William Blizzard had
a lawful living wife at the time of the claimed
marriage.
Ex parte Blizzard, 185 S.C. 131, 193 S.E. 633, 634
(1937).
When, however, there is an impediment to
marriage, such as one party’s existing marriage
to a third person, no common-law marriage may
be formed, regardless whether mutual assent is
present.
Callen v. Callen, 365 S.C. 618, 624, 620 S.E.2d 59, 62
(2005) (emphasis added). See also Splawn v. Splawn,
311 S.C. 423, 425, 429 S.E.2d 805, 806 (1993); 52 Am.
Jur. 2d, supra, § 57 (“A marriage that occurs while one
party is still legally married to another is void from its
inception and cannot be retroactively validated by
estoppel, by mutual agreement, or by the parties’
conduct in holding themselves out as husband and
wife.”).4 This is hardly surprising as the courts are
4

Every South Carolina case, as required by § 20-1-80, has
concluded that the status of someone entering into a bigamous
marriage is that of never having been married. It is Mrs. Brown’s
status that is critical here. At the time she married Mr. Brown, she

App. 56
required to follow the mandate from the legislature
that bigamous marriages are void ab initio.
C. Lukich v. Lukich.
Both the Court of Appeals and Supreme Court
decisions in Lukich5 are in accord with § 20-1-80, case
precedent, and Mrs. Brown’s position. Lukich held that
a bigamous marriage is void ab initio. Lukich also held
that a marriage, annulled for intoxication rather than
bigamy, could be treated as voidable.
Lukich annulled two marriages: one void ab initio
for bigamy and another voidable for intoxication.6 In

had no impediment to their marriage because she had never been
married before. Respondents cite several cases that deal with
ancillary matters, but all of these cases follow the required rule
about status: someone having entered into a bigamous marriage
was never married. To the extent these cases also deal with
ancillary matters, they are inapposite. See Splawn v. Splawn, 311
S.C. 423, 429 S.E.2d 805 (S.C. 1993) (bigamous marriage void ab
initio but court had to deal with ancillary equitable apportionment
of property issues); Rodman v. Rodman, 361 S.C. 291, 604 S.E.2d
399 (S.C. App. 2004) (similar, citing White v. White, 283 S.C. 348,
323 S.E.2d 521 (S.C. 1984)); Joye v. Yon, 355 S.C. 452, 586 S.E.2d
131 (2003) (second marriage bigamous and void ab initio – court
had to decide impact on first husband’s obligation to pay alimony,
which had ostensibly ended if second marriage was valid, which it
was not).
5

368 S.C. 47, 627 S.E.2d 754 (Ct. App. 2006); 379 S.C. 589, 666
S.E.2d 906 (2008).

6

It is highly significant, however, that the annulment of the wife’s
first marriage was based upon intoxication. A ceremony performed
while the parties are intoxicated is not completely ineffective to
create a marriage. The marriage is only voidable, not void. See

App. 57
Lukich, the wife sought alimony during a divorce from
her second husband (Marriage 2). During the divorce
proceeding, the second husband learned that the
woman had previously been married (Marriage 1) and
had never obtained a divorce or an annulment from the
first husband. During the divorce case, which was
pending in one county, the wife quickly obtained an
annulment for Marriage 1, without her husband’s
knowledge and in another venue, on the ground of
intoxication.7 Both appellate courts concluded that
Marriage 1 was voidable and refused to apply the
annulment of Marriage 1 retroactively so that her
status would allow her to enter Marriage 2. Marriage
1 in Lukich was properly voidable, rather than void,
because the annulment was based on intoxication
Barber v. People, 203 Ill. 543, 546, 68 N.E. 93, 94 (1903)
(“Intoxication at the time of entering into the marriage contract
will not render the marriage void, but only voidable.”); Henley v.
Foster, 220 Ala. 420, 422, 125 So. 662, 664 (1930) (“A nullity decree
may be and is properly granted . . . upon a voidable marriage, one
subject to ratification, but not ratified, as in the case of
drunkenness[.]”). Once the parties return to sobriety, they are free
to waive the defect and have a legally recognized marriage.
Heavily intoxicated people have the right to seek an annulment of
their marriage, but they are not required to exercise that right.
A bigamous marriage, by contrast, is one of the least valid
relationships possible. It is not a marriage at all, for any purpose
known to the law. The defect cannot be waived or ratified; the law
positively forbids the recognition of any form of marriage where
one party to the marriage ceremony is already married to someone
else.
7

“[S]he and Havron were married during a night of heavy
drinking, [and] had never lived together as husband and wife[.]”.
Lukich, 368 S.C. at 51, 627 S.E.2d at 756.

App. 58
rather than bigamy. One consequence of the Lukich
court treating Marriage 2, the bigamous marriage, as
void ab initio, is that the husband in Marriage 2 owed
no alimony because Marriage 2 was “never a marriage.”
If Lukich had not treated Marriage 2 as void ab initio
because it was bigamous, as required by statute and
precedent, the Court would have had to conclude that
the husband of Marriage 2 would have owed alimony
from the time of Marriage 2 until the annulment of
Marriage 2.8
In short, a marriage entered into by intoxicated
persons is not invalid until the parties decide to attack
the marriage and not to waive the defect. Therefore, it
is logical, as the Lukich Court held, that a voidable
marriage was invalid only prospectively from the date
of the annulment.
A void marriage, however, is different. A void
marriage is never a valid marriage. The parties are not
permitted to waive the defect; the marriage is
automatically invalid. Both Lukich appellate courts
concluded that Marriage 2 was void ab initio because it
was bigamous. Consequently, Marriage 2 was never a

8

The holding in Lukich as to Marriage 1 makes perfect sense, as
a voidable marriage is invalid only if it is attacked. The parties to
a voidable marriage always have the option of waiving the defect
and ratifying the marriage. The annulment of Marriage 1 in
Lukich was granted on the ground of intoxication. Intoxication is
one of the classic grounds that render a marriage voidable, but not
void. See 52 Am. Jur. 2d Marriage § 23 (Westlaw database updated
Nov. 2014); Abel v. Waters, 373 So. 2d 1125, 1128 (Ala. Civ. App.),
writ denied, 373 So. 2d 1129 (Ala. 1979); Barber v. People, 203 Ill.
543, 546, 68 N.E. 93, 94 (1903).

App. 59
marriage so that the divorce was unnecessary and the
second husband could not owe alimony.
In contrast to Mrs. Brown’s situation, Mrs. Lukich’s
first husband was not already married when he
married Mrs. Lukich, and consequently there was no
impediment under the bigamy statute for this first
husband to enter a marriage with Mrs. Lukich.
Therefore it was Mrs. Lukich ‘s second marriage, to Mr.
Lukich, that was void unless this second marriage fit
under one of the three exceptions in the bigamy
statute.
The Court of Appeals in its Lukich decision
expressly stated that its holding as to the intoxication
annulment was limited to the facts of the marriage and
would not apply to bigamous marriages such as this
very case, where Mrs. Brown’s first marriage was void
and not merely voidable:
We note that our holding is limited to the facts
of the case at bar, e.g., the situation where the
annulled marriage would be valid but for an
annulment decree declaring the marriage ab
initio. Our holding is not meant to affect a party
who enters into one of the three types of
marriages that never have legal validity in
South Carolina, namely marriages that are void
ab initio by operation of statute:
(1) bigamous marriages, S.C. Code Ann. § 20-180 (Supp. 2004); (2) same sex marriages, S.C.
Code Ann. § 20-1-15 (Supp. 2004); and
(3) marriages of minors under the age of 16, S.C.
Code Ann. § 20-1-100 (Supp. 2004).

App. 60
Lukich v. Lukich, 368 S.C. 47, 55, 627 S.E.2d 754,758
n. 2 (Ct. App. 2006).
The Supreme Court in its Lukich opinion did not
overturn the obvious rule recognized by the Court of
Appeals in its Lukich opinion. In fact, the Supreme
Court opinion confirms that bigamous marriages are
void ab initio and are never a marriage at all: “The
[bigamy] statute speaks to the status quo at the time the
marriage was contracted, and does not contemplate
either a prospective or retroactive perspective. Any other
question of § 20-1-80 would lead to uncertainty and
chaos.” 379 S.C. at 593; 666 S.E.2d at 907 (emphasis
added). The Supreme Court opinion in Lukich also cites
precedential authority for the same principle:
Day v. Day, 216 S.C. 334, 58 S.E.2d 83 (1950) (‘A
mere marriage ceremony between a man and a
woman, where one of them has a living wife or
husband, is not a marriage at all. Such a
marriage is absolutely void, and not merely
voidable.’); Howell v. Littlefield, 211 S.C. 462, 46
S.E.2d 47 (1947) (‘[Husband’s] existing
marriage. . .incapacitated him. . .to contract
another marriage. . . .’).
Id. at 592-93, 666 S.E.2d at 907.
Contrary to Respondents’ contention, Lukich does
not change, but is instead consistent with, S.C. Code
Ann. § 20-1-80 and all South Carolina case precedent:
a bigamous marriage (Marriage 2 in Lukich) is void ab
initio and never a marriage.
In their summary judgment arguments,
Respondents, in particular Terry Brown, cited the

App. 61
following language from the Supreme Court opinion in
Lukich as somehow changing the treatment of
bigamous marriages in this state:
Under the statute’s terms, Wife’s ‘marriage’ to
Husband # 2 was ‘void’ from the inception since
at the time of that marriage she had a living
spouse and that marriage had not been ‘declared
void.’ § 20-1-80.
Lukich, 373 S.C. at 592, 666 S.E.2d at 907 (Emphasis
added).
Respondents contend that Lukich creates new law
with respect to bigamous marriages. Respondents
claim Lukich disregards the clear requirement of the
bigamy statute and ignores or reverses all case
precedent that bigamous marriages are void ab initio.
At the summary judgment hearing, Respondents based
their contention on the words “and that” emphasized in
the above quote. These words, Respondents argue,
indicate that regardless of whether a marriage is void
or voidable, one has an impediment to marriage and
must obtain an annulment before remarriage. Contrary
to Respondents’ contention, however, the words “and
that” do not refer to the bigamous marriage (Marriage
2 in Lukich); the words “and that” clearly refer to the
intoxication marriage (Marriage 1 in Lukich). Thus,
Lukich cannot be read to change a substantive
statutory rule of law: Lukich does not hold that a
bigamous marriage is void only from the date of the
annulment order. This would render a bigamous
marriage voidable rather than void. Lukich does no
such thing. Rather, Lukich confirms that a bigamous
marriage is void ab initio and never a marriage because

App. 62
it treated Marriage 2 (the bigamous marriage in
Lukich) as never having been a marriage, so that the
second husband did not need a divorce and did not owe
alimony to a wife he never married.
Similarly, at the hearing on the motions to reconsider,
Respondents, especially Terry Brown, continue to
misplace and misstate the order of marriages in Lukich
and argue that the order of marriages in this case is
parallel, but it is not.9 Terry Brown tries to shoehorn
the first marriage in Lukich into Mr. Brown and Mrs.
Brown’s marriage situation, but that shoe does not fit.
The Lukich court clearly distinguish a marriage void
for bigamy --- the second marriage in Lukich --- from a
marriage voidable for intoxication --- the first marriage
in Lukich. Terry Brown attempts to equate the
putative first marriage of Mrs. Brown to Ahmed with
the first marriage in Lukich, based simply on the order
of marriages. But it is the type of annulment that
creates the critical distinction between Lukich and this
case, not the order of marriages. A bigamous marriage
--- the first putative marriage in this case and the
second marriage in Lukich --- is always void ab initio
and never a marriage.
Respondents’ misreading of Lukich would
necessarily include both the Court of Appeals and the
Supreme Court favorably citing the statute requiring
and the cases holding that bigamous marriages are
void and thus never valid, yet according to Respondents
somehow overturning and contravening them without

9

See Transcript, June 30, 2015, pp. 83-84.

App. 63
expressly saying so. For example, the Lukich Court of
Appeals cited the following cases:
Section 20-1-80 of the South Carolina Code
Annotated sets forth the principle that “[a]ll
marriages contracted while either of the parties
has a former wife or husband living shall be
void.” This statute codifies the overriding public
policy of this state against bigamy. Johns v.
Johns, 309 S.C. 199, 203, 420 S.E.2d 856, 859
(Ct.App.1992) (holding the public policy of not
recognizing bigamous marriages overrides the
public policy supporting the finality of
judgments). A person who is married cannot
enter into a valid marriage by participating in a
marriage ceremony with a new person. Day v.
Day, 216 S.C. 334, 338, 58 S.E.2d 83, 85 (1950)
(“A mere marriage ceremony between a man and
a woman, where one of them has a living wife or
husband, is not a marriage at all. Such a
marriage is absolutely void, and not merely
voidable.”).
The Supreme Court opinion in Lukich quoted the
following cases:
While an annulment order relates back in
most senses, it does not have the ability to
validate the bigamous second ‘marriage.’ Since
there was no marriage under the plain terms of
the statute when the ceremony between Wife
and Husband # 2 was performed in 1985, there
was nothing to be ‘revived’ by the annulment
order in 2003. See e.g., Day v. Day, 216 S.C. 334,
58 S.E.2d 83 (1950) (“A mere marriage ceremony

App. 64
between a man and a woman, where one of them
has a living wife or husband, is not a marriage
at all. Such a marriage is absolutely void, and
not merely voidable”)2; Howell v. Littlefield, 211
S.C. 462, 46 S.E.2d 47 (1947) (“[Husband’s]
existing marriage ... incapacitated him ... to
contract another marriage....”). The statute
speaks to the status quo at the time the
marriage was contracted, and does not
contemplate either a prospective or a retroactive
perspective. Any other construction of § 20-1-80
would lead to uncertainty and chaos.
379 S.C. at 592-93, 666 S.E.2d at 907 (emphasis
added).10
Respondents argue that the Lukich courts, without
expressly saying so, overruled the very cases they cited
favorably for the proposition that bigamous marriages
are void ab initio and contravened the bigamy statute
that the Lukich courts cited. Of course, the Lukich
courts did no such thing, but instead ruled consistently
with the bigamy statute and all South Carolina

10

The italicized language clearly refers to the bigamous marriage
as the second marriage in Lukich, The first marriage, annulled for
intoxication, was voidable and, because voidable marriage
annulments may be prospective only, did not alter the wife’s status
as already being married when she attempted to enter into a
bigamous marriage with her putative second husband. Unlike Mrs.
Lukich, it was Mrs. Brown’s first putative marriage that was void
ab initio for bigamy, so that she had a status of “not married” when
she entered into her valid marriage with Mr. Brown because she
had no impediment.

App. 65
precedent by holding that a bigamous marriage is
never a marriage.11
If Respondents were correct that Lukich created a
new rule, then the Lukich court would instead have
held that the second husband owed alimony until an
annulment order for Marriage 2 was obtained. The
clear meaning of Lukich is that, as required by § 20-180 and all precedent, bigamous marriages are void ab
initio and never a marriage.
Moreover, even if Respondents were correct in their
position about Lukich, i.e., that even a bigamous
marriage is valid unless and until an annulment order
is obtained, they could still not prevail. Under their
theory, Lukich changed the law about bigamous
marriages so that a bigamous marriage remains valid
unless and until an order of annulment is obtained. If
that were correct, then under their theory Mrs. Brown
had an impediment to marrying Mr. Brown and that
marriage was therefore bigamous. But under
Respondents’ position, Mr. Brown’s bigamous marriage
to Mrs. Brown would be valid unless and until Mr.
Brown obtained an order annulling their marriage,
which he did not obtain during his lifetime. It is now
too late for Mr. Brown to obtain an annulment.12 So,
even under Respondents’ theory, the marriage between
11

In fact, a later decision cites both Day and Lukich in the same
sentence for the proposition that bigamous marriages are void ab
initio, without any suggestion that the latter overrules the former.
See Hill v. Bert Bell/Pele Rozelle NFL Player Ret. Plan, 405 S.C.
423, 426, 747 S.E.2d 791, 792-93 (2013).
12

See the discussion in the January 13, 2015 Order at IV.C.

App. 66
Mrs. Brown and Mr. Brown was valid at his death and
cannot be invalidated because it is too late.
In this case, unlike Lukich, it is the first marriage
(Marriage 1), rather than Marriage 2 in Lukich, that is
bigamous and thus void. Consequently, Mrs. Brown’s
attempted marriage to Ahmed (Marriage 1) was void ab
initio and never a marriage. Therefore Mrs. Brown had
no impediment to her marriage to Mr. Brown, and that
marriage (Marriage 2) is valid.
Despite the contentions of Respondents, Lukich is
consistent with the bigamy statute and all precedent
involving bigamous marriages: bigamous marriages are
void ab initio and never have any effect --- they are
“never a marriage.” The only difference with respect to
bigamous marriages between Lukich and this case is
that, in Lukich, the bigamous marriage was the second
marriage, while in this case, the bigamous marriage is
the first marriage. That difference has no impact on the
treatment of bigamous marriages. The bigamous
second marriage in Lukich was void ab initio and never
had effect. The bigamous first marriage in this case
was void ab initio and never had effect, so that Mrs.
Brown had no impediment to her marriage to Mr.
Brown.
Were this Court to give only prospective effect to the
annulment in this case, it would be holding that a
bigamous marriage was not invalid from its inception.
Rather, it would be holding that a bigamous marriage
was valid from the date of its inception until the date
of the annulment.

App. 67
This Court is unwilling to hold that a bigamous
marriage, as determined by a family court of this state,
was ever legal. There is no precedent for such a
holding. South Carolina law precludes this Court from
giving any effect whatsoever to a bigamous marriage.
Because the Court cannot give any effect to a bigamous
marriage, it is required to hold that the bigamous
marriage was never a marriage.
Mrs. Brown and Ahmed never had a valid marriage
at any point in time, and Mrs. Brown had no
impediment to her valid marriage to Mr. Brown.
Lukich is consistent with Hallums v. Hallums, 74
S.C. 407, 54 S.E. 613 (1906), which held that bigamous
marriages are void ab initio, in accord with all other
cases considering the issue. The LSA argued that
Hallums was exactly on point and reached a different
result. The LSA misses a critical factual distinction
between Hallums and the current case: in Hallums,
there was never a court determination that the first
marriage (Marriage 1) was bigamous and, in fact, the
court found that the Marriage 1 was not bigamous. By
contrast, in the current case, there is a valid
annulment order finding that the first marriage was
bigamous.
The Hallums paradigm actually supports Mrs.
Brown’s position. If the Hallums court had determined
that Marriage 1 was bigamous, then the Hallums
opinion indicates that the second marriage (Marriage
2) would have been valid because there would have
been no impediment to the wife entering into the
second marriage (Marriage 2) with the decedent.

App. 68
More specifically, in Hallums, a woman attempted
to get a distributive share from the decedent’s estate,
claiming to be his surviving spouse. However, the
estate contended that she was already married when
she attempted to marry the decedent, and thus had an
impediment to the attempted marriage to the decedent.
The woman then contended that her attempted first
marriage was invalid because her putative first
husband was already married when they attempted to
get married. So far, the LSA is correct: absent the
critical distinction missed by the LSA’s analysis, the
Hallums paradigm is the same as the paradigm in the
current case because in Hallums, the woman argues
that she had no impediment to marrying the decedent
(Marriage 2) because she was never married to her first
husband (Marriage 1) as the first husband himself was
already married.
In the current case, Mrs. Brown argues that she had
no impediment to marrying the decedent (Marriage 2)
because she was never married to her first husband
(Marriage 1) as the first husband himself was already
married. The critical difference between the two cases
is that in Hallums, the woman did not have a separate
annulment order invalidating Marriage 1 void ab initio
and did not get one because the court concluded her
first marriage was not bigamous. In the current case,
Mrs. Brown does have an annulment order invalidating
Marriage 1. In Hallums, the court was asked to
consider the validity of both Marriage 1 and Marriage
2 at the same time. The Hallums court determined that
Marriage 1 was valid because there was insufficient
evidence that the husband in Marriage 1 was already
married: consequently, Marriage 1 in Hallums was not

App. 69
bigamous and therefore was valid. Thus, the woman in
Hallums had an impediment to Marriage 2. That is the
critical factual difference between the facts in Hallums
and the current case. In the current case, Marriage 1
was determined by a court to be bigamous and thus
never valid. In the current case, Mrs. Brown thus had
no impediment to Marriage 2 (her valid marriage to
Mr. Brown).
Hallums supports Mrs. Brown’s position. Hallums
stands for the proposition that, if Marriage 1 had been
bigamous and thus void ab initio, Marriage 2 to the
decedent would have been valid and the woman would
have been entitled to her distributive share from the
decedent’s estate. That is exactly Mrs. Brown’s
position. Because she has an order confirming that
Marriage 1 was void ab initio as bigamous, Marriage 2
is valid and she qualifies as a surviving spouse.13
D. All Bigamous Marriages Are Void, Under
Lukich And All Other Applicable Law.
Every bigamous marriage is void ab initio. A
bigamous marriage is never valid – “never a marriage.”
In S.C. Code Ann. § 20-1-80, the bigamy statute, the
South Carolina General Assembly requires that a
13

Unlike this case, the court in Hallums looked at the first
marriage after the decedent’s death because: (1) there was no preexisting annulment order from a court with exclusive jurisdiction
over annulments, as there is today; (2) this was prior to the family
court having exclusive jurisdiction over annulments – in fact, this
was prior to the existence of family courts in South Carolina;
(3) this was prior to § 62-2-802 defining surviving spouse for estate
purposes and case law precluding postmortem annulments. See the
January 13, 2015 Order at IV.C.

App. 70
bigamous marriage is void ab initio. In accordance with
this legislative mandate, every South Carolina case
dealing with bigamous marriages, including Lukich
and Hallums, holds that a bigamous marriage is void
ab initio and never has effect. Although Respondents
contend that Lukich somehow changes that rule and
instead provides that a bigamous marriage is valid
until an annulment order is obtained, that is not the
holding in Lukich as to bigamous marriages. In Lukich,
it is the second marriage that is bigamous and both
appellate courts treat that second marriage as void ab
initio, in accordance with the bigamy statute and all
case precedent. In Mrs. Brown’s case, it is the first
marriage that is bigamous, and that first marriage is
therefore void ab initio, meaning that Mrs. Brown had
no impediment to her marriage to Mr. Brown.
Despite the contention of the LSA, Hallums is in
accord with the bigamy statute, Lukich, and all other
case precedent in treating bigamous marriages as void
ab initio. Unlike Mrs. Brown’s first marriage, which
was found to be bigamous and void, the first marriage
in Hallums was found not to be bigamous and was
therefore valid. However, if the first marriage in
Hallums had been found to be bigamous and void, the
opinion indicates that the second marriage would have
consequently been valid because the wife would have
had no impediment to her second marriage and thus
could inherit. That is exactly Mrs. Brown’s case: her
first marriage has been found to be bigamous and void,
so that she had no impediment to her marriage to Mr.
Brown: their marriage is valid and she is his surviving
spouse.

App. 71
II. CONCLUSION.
Respondents would have this Court become the first
court ever in the history of South Carolina to hold that
any form of validity attaches to a bigamous marriage.
The Court declines that invitation. Regardless of
whether it is annulled sooner, annulled later, or even
not annulled at all, a bigamous marriage is not a
marriage for any purpose known to the law. The
holding in Lukich, which also held that a voidable
marriage based on intoxication is valid between the
date of marriage and the date of annulment, confirms
the statutory and case precedent rule that all bigamous
marriages are void and never a marriage.
Therefore, it is hereby ORDERED, DECREED and
ADJUDGED that the Respondents’ and Amici Curiae’s
Motions to Alter, Amend and Reconsider are denied.
AND IT IS SO ORDERED.
This 20 day of Oct., 2015, at ____, South Carolina.
/s/ Doyet A. Early
DOYET A. EARLY, III
JUDGE, SECOND JUDICIAL CIRCUIT

App. 72

APPENDIX D
STATE OF SOUTH CAROLINA
COUNTY OF AIKEN
IN THE COURT OF COMMON PLEAS
SECOND JUDICIAL CIRCUIT
Case Nos.: 2013-CP-02-02849
2013-CP-02-02850
[Filed: January 13, 2015]
_________________________________
IN RE THE ESTATE OF
)
JAMES BROWN A/K/A
)
JAMES JOSEPH BROWN
)
_________________________________)
ORDER RE PETITIONER TOMMIE RAE
BROWN’S MOTION FOR SUMMARY
JUDGMENT AND THE LIMITED SPECIAL
ADMINISTRATOR’S MOTION FOR SUMMARY
JUDGMENT
This matter came before the court on November 24,
2014 on Petitioner Tommie Rae Brown’s Motions for
Summary Judgment filed October 30, 2007, November
26, 2007, and April 28, 2014, and the Limited Special
Administrator’s (LSA’s) Motion for Summary Judgment
dated May 29, 2014. Each of these Motions requests
summary judgment determining whether Mrs. Brown
is the surviving spouse of James Joseph Brown. All
parties have submitted detailed memoranda in support
of their respective positions as well as responsive

App. 73
memoranda, and all parties have consented to a Joint
Stipulation of Facts filed September 5, 2014.
The following counsel appeared at the hearing:
(1) Robert N. Rosen, S. Alan Medlin, M. Jean Lee,
David L. Michel, and Corey T. L. Smith, counsel for
Tommie Rae Brown; (2) John F. Beach, counsel for the
LSA David C. Sojourner; (3) A. Peter Shahid, Jr.,
counsel for Guardian ad Litem Stephen M. Slotchiver;
(4) Stephen M. Slotchiver, Guardian ad Litem for
James Joseph Brown, II; (5) David B. Bell and
Matthew D. Bodman, counsel for Daryl Brown; (6) John
A. Donsbach and Scott Keniley, counsel for Terry
Brown; (7) Louis Levenson, counsel for Deanna Brown
Thomas, Yamma N. Brown, Venisha Brown, and Lany
Brown; and (8) William Barr and Vera Gilford, counsel
for amicus curiae Jeanette Mitchell.
I.

SUMMARY JUDGMENT STANDARD.

The standard for granting summary judgment is
clear:
Rule 56(c) of the South Carolina Rules of Civil
Procedure provides a motion for summary
judgment shall be granted ‘if the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with the affidavits,
if any, show that there is no genuine issue as to
any material fact and that the moving party is
entitled to a judgment as a matter of law.’ In
determining whether any triable issues of fact
exist, the trial court must view the evidence and
all reasonable inferences that may be drawn
therefrom in the light most favorable to the

App. 74
party opposing summary judgment. Brockbankv.
Best Capital Corp., 341 S.C. 372, 534 S.E.2d 688
(2000).
Progressive Max Ins. Co. v. Floating Caps, Inc., 405
S.C. 35, 42, 747 S.E.2d 178, 181-82 (2013).
II.

HISTORY
OF
THE
STATEMENT OF FACTS.

CASE

AND

A. These Proceedings.
Mrs. Brown filed a petition for Elective Share or
Omitted Spouse’s share on February 1, 2007, asserting
she is the surviving spouse of Mr. Brown. She filed a
Motion for Summary Judgment on October 30, 2007 on
the issue of her ceremonial marriage to Mr. Brown and
the legality of said marriage. Mrs. Brown filed the
same motion along with the Affidavit of Tommie Rae
Brown in Support of Her Motion for Summary
Judgment on November 26, 2007.
On December 20, 2007, Mrs. Brown filed Petitions
to Set Aside the Will and Trust. Similarly, on
December 26, 2007, five of the six Devisees from the
2000 will filed Petitions to Set Aside the Will and
Trust. Before these Petitions were heard, Mrs. Brown
and other parties to the estate litigation participated in
mediation which resulted in a private settlement
agreement. In the settlement agreement, Mrs. Brown
was recognized by all parties thereto as the surviving
spouse of Mr. Brown. The settlement agreement
provided that it was a binding private agreement,
regardless of court approval, and provided that it
bound personal representatives and trustees, as
allowed by law. The settlement agreement expressly

App. 75
provided that the provision recognizing Mrs. Brown as
the surviving spouse survived regardless of whether
the agreement was approved by a court.
On May 26, 2009, this Court issued an Order that,
inter alia, approved the settlement agreement and
found that the contest or controversy was in good faith
and that the effect of the agreement on interested
parties was just and reasonable in satisfaction with
S.C. Code Ann. § 62-3-1102(3). This Court issued
another Order which removed the then Personal
Representatives and Trustees (Pope and Buchanan),
and at the request of the settling parties, this
Court appointed Russell Bauknight as Personal
Representative and Trustee.
Pope and Buchanan appealed the order approving
the settlement agreement and the order removing them
from their fiduciary positions to the Court of Appeals,
and at the request of the Court of Appeals the
consolidated appeals were certified to the Supreme
Court pursuant to Rule 204(b), SCACR. In reviewing
this Court’s finding that there was a good faith
controversy under S.C. Code Ann. § 62-3-1102, the
Supreme Court determined that the settlement failed
the second element of the S.C. Code Ann. § 62-3-1102
test, i.e., that the effect of the agreement on interested
parties is just and reasonable. Wilson v. Dallas, 403
S.C. 411, 447, 2013 S.C. LEXIS 240, *64 (2013). The
Supreme Court upheld the removal of the prior
fiduciaries, finding that they had irreconcilable
differences with the estate and trust beneficiaries, but
reversed and remanded the approval of the settlement
because of a lack of evidence showing a fair and

App. 76
reasonable settlement of a good faith controversy. The
Supreme Court also vacated Mr. Bauknight’s
appointments and remanded the case to this Court.
This Court held a status conference on May 29,
2013 concerning the Supreme Court Opinion and
issued an Order on June 13, 2013 requiring all
interested persons to submit applications to serve as
fiduciaries of the Estate and Trust by July 29, 2013.
Mr. Bauknight was ordered to continue serving in a
fiduciary capacity as Special Administrator and Special
Trustee in the interim. This Court conducted a hearing
to receive testimony from all applicants on September
4 and 11, 2013. This Court then issued its October 1,
2013 Order appointing Mr. Bauknight as the Personal
Representative of the Estate and Trustee of the Trust
and David C. Sojourner as Limited Special Trustee of
the Trust. The Probate Court of Aiken County
appointed Mr. Sojourner as the Limited Special
Administrator (LSA) of the Estate by its Order filed
October 10, 2013.
On March 10, 2014 the LSA served a Motion to
Modify Protective Orders Related to Diaries of Tommie
Rae Hynie Brown asking this Court to lift the Court’s
protective orders and to require Mrs. Brown to produce
her diaries. Mrs. Brown filed a Return to Motion to
Modify Protective Orders Related to Diaries of Tommie
Rae Brown and Motion for Protective Order or Order of
Confidentiality along with her supporting Affidavit on
March 27, 2014, and a hearing was held on March 31,
2014. This Court determined that the LSA’s Motion to
Modify Protective Orders and all discovery would be
held in abeyance pending resolution of Mrs. Brown’s

App. 77
Motion for Summary Judgment and later indicated the
parties should negotiate a scheduling order.
Mrs. Brown filed another Motion for Summary
Judgment and supporting Affidavit on April 28, 2014.
She filed a Motion for Protective Order and the
Affidavit of Robert N. Rosen on May 12, 2014
requesting that, other than answering the LSA’s First
Requests to Admit, all discovery be stayed pending
resolution of her Motion for Summary Judgment.
Petitioner and the LSA subsequently entered an
Agreement Resolving Petitioner’s Motion for Protective
Order dated May 16, 2014, and this Court issued a
Scheduling Order filed June 10, 2014 staying all
discovery (other than the LSA’s April 23, 2014 1st
Requests for Admission, 2nd Interrogatories, and 2nd
Requests for Production) pending resolution of Mrs.
Brown’s April 24, 2014 Motion for Summary Judgment.
The LSA subsequently served his own Motion for
Summary Judgment on May 29, 2014.
The parties have served memoranda in support of
their respective positions and responsive memoranda
in accordance with the Scheduling Order, and a
hearing was held on the aforementioned Motions for
Summary Judgment at the Bamberg County
Courthouse on November 24, 2014.
B. Stipulated Facts.
Petitioner Tommie Rae Brown (“Mrs. Brown”) and
James Joseph Brown (“Mr. Brown”) were married by
ceremonial marriage on December 14, 2001 at Beech

App. 78
Island in Aiken County, South Carolina.1 Prior to their
marriage, Mrs. Brown gave birth to Mr. Brown’s
biological son; James Brown, II on June 11, 2001.2
Following their marriage, Mr. Brown learned that Mrs.
Brown had participated in a putative marriage
ceremony with another man, Javed Ahmed (“Ahmed”)
in February of 1997 in Texas, where both Mrs. Brown
and Ahmed resided at the time. In December 2003,
with Mr. Brown paying her attorney’s fees, Mrs. Brown
filed an action against Ahmed in the Family Court of
South Carolina for an annulment on the grounds of
bigamy, among other grounds.3
Mrs. Brown’s counsel hired a licensed private
investigator, Mr. Ronald Pannell, to locate Ahmed, and
he was unable to do so. Mr. Pannell submitted an
Affidavit of Attempted Service, filed in the Family
Court on February 4, 2004, stating he conducted
numerous searches in national databases in an attempt

1

See Joint Stipulation of Facts, p. 3, ¶¶ 4-5 and Exhibit 4 at
000005-6 (License and Certificate for Marriage).

2

See Joint Stipulation of Facts, p. 2, ¶ 3 along with Exhibit 2 (birth
certificate) at 000003 and Exhibit 3 (LabCorp DNA Test Results)
at 000004.

3

Id. at 3, ¶ 7 and Exhibit 5 at 000007-9 (Summons and Complaint
for Annulment). James Brown paid for Mrs. Brown’s annulment,
and Mrs. Brown’s attorney kept Mr. Brown’s attorney informed of
the proceedings. See id. at 4, ¶¶ 13-14 and Exhibit 14 at 00005064; Personal Representatives’ Responses to Petitioner Tommie Rae
Brown’s Second Request for Admission, dated January 11, 2008,
pp. 3-4, Request and Response Nos. 9 and 10.

App. 79
to locate Ahmed, and he found two addresses.4 One
address was 14403 Ella Blvd., #314, Houston, Texas,
77014. Mr. Pannell stated in his affidavit that Ahmed
no longer resided at that address. The other address
was 14365 Cornerstone Drive, #617, Houston, Texas,
77014, which Mr. Pannell stated in his affidavit was
the address on Mr. Ahmed’s driver’s license issued in
1999. As a result, this address (14365 Cornerstone
Drive, #617, Houston Texas, 77014) was Ahmed’s last
known address. Mr. Pannell stated in his affidavit that
Ahmed no longer resided at that address either.
Mrs. Brown filed an Affidavit in the Family Court
on February 4, 2004, with Mr. Pannell’s Affidavit of
Attempted Service, requesting an Order of
Publication.5 In her affidavit, Mrs. Brown stated that
Mr. Pannell conducted a full skip trace report and was
unable to locate Ahmed. She also said Mr. Pannell
found an address where Ahmed apparently had resided
since she last knew of his whereabouts. Judge Jocelyn
B. Cate of the Family Court issued an Order of
Publication on February 3, 2004 finding that Mrs.
Brown had made a diligent effort to locate Ahmed and
that it appeared to the satisfaction of the Family Court
that Ahmed’s current address and whereabouts were
unknown.6 The Order of Publication scheduled a Final
Hearing for March 26, 2004 at 9:30 A.M. Mrs. Brown

4

Joint Stipulation of Facts at 000010 (Affidavit of Ronald Pannell)

5

Id. at 000016 (Affidavit of Tommie Rae Hynie, a/k/a Tommie Rae
Brown).

6

Id. at 000017 (Order of Publication).

App. 80
properly published the Summons and notice of the
hearing in the Houston Chronicle, a newspaper of
general circulation in the area, and filed an Affidavit of
Publication as directed by the Order of Publication.7
Ahmed was served by publication.
An Order of Continuance was filed by the Family
Court on March 24, 2004, rescheduling the Final
Hearing to April 15, 2004 at 9:00 A.M.8 Mrs. Brown’s
counsel sent Ahmed notice of the rescheduled hearing
by regular mail and certified mail, return receipt
requested, to both of the addresses found by Mr.
Pannell, which included Ahmed’s last known address
at 14365 Cornerstone Drive, #617, Houston, Texas,
77014, the address he had given to the Texas
Department of Motor Vehicles.9 Mrs. Brown’s counsel
therefore properly gave written notice of the
rescheduled hearing pursuant to Rule 17, SCRFC as
determined by Judge Segars-Andrews’ April 15, 2004
Order.
At the trial in Family Court, Mrs. Brown testified
that Ahmed told her he was married to several other
women at the time of their purported marriage
ceremony and that none of those marriages had been

7

Id. at 000026-27 (Affidavit of Publication); see also id. at 00001718 (Order of Publication).

8

9

Id. at 000028 (Order of Continuance).

Id. at 000019-25 (Affidavit of Marcia F. Jones); 000010 (Affidavit
of Ronald Pannell).

App. 81
dissolved.10 A final judgment was entered on April 15,
2014 annulling the purported marriage between Mrs.
Brown and Ahmed (“the annulment order”).11 Judge
Segars-Andrews found that Ahmed was already
married at the time of his putative marriage ceremony
to Mrs. Brown, that Ahmed lacked capacity to marry
Mrs. Brown, and that the purported marriage between
Mrs. Brown and Ahmed was “wholly null and void ab
initio.”12
The stipulated facts show that Mr. Brown was
aware of the litigation between Mrs. Brown and Ahmed
because (1) Mr. Brown paid Mrs. Brown’s legal fees,
(2) Mrs. Brown’s counsel sent Mr. Brown’s attorney a
copy of the Summons and Complaint in February,
2004, and (3) Mrs. Brown’s counsel sent Mr. Brown’s
attorney the Final Order in April, 2004.13
Mr. Brown filed an annulment action of his own
against Mrs. Brown on January 29, 2004 in the Family
Court of Aiken County.14 Just weeks after the April 15,
2004 Final Order was filed, Mr. Brown filed an
Amended Complaint for Annulment in the Family
10

Id. at 000040, lines 16-20; 00004, lines 13-15 (April 15, 2004
Transcript of Record).

11

Id. at 000029-32 (April 15, 2004 Final Order).

12

Id. at 000030-32 (April 15, 2004 Final Order).

13

Id. at 4, ¶¶ 13-14 and Exhibit 14 at 000050-64 (Correspondence
with James B. Huff, Esquire).
14

Id. at 000065-67 (Mr. Brown’s Summons and Complaint for
Annulment).

App. 82
Court requesting the Court to issue a judgment that
the “Findings of Facts of the Charleston Family Courts
are binding on [the Aiken County Family Court]...” and
that “[p]ursuant to the Order of the Charleston Family
Court, Defendant is collaterally and judicially estopped
from denying the allegations in [Mr. Brown’s
annulment action].”15 Mrs. Brown counterclaimed for a
divorce and other relief.16 Mr. and Mrs. Brown
reconciled in July 2004 and signed a Consent Order on
August 16, 2014 dismissing Mr. Brown’s action.17
Mr. Brown died on December 25, 2006, and his will,
dated August 1, 2000 was filed with the Aiken County
Probate Court on January 18, 2007.
C. The Annulment Action.
Mrs. Brown properly brought the annulment action
in South Carolina, properly served Ahmed, and
properly notified him of the date of rehearing. The
Family Court concluded that Ahmed “was married at
the time he entered into his marriage with [Mrs.
Brown] and therefore he lacked the capacity to marry
[Mrs. Brown].”18
The Respondents have argued that the annulment
order was improper because the summons and
15

Id. at 000070, ¶¶ 10-11 (Mr. Brown’s Amended Complaint for
Annulment).
16

Id. at 5, ¶ 19 and Exhibit 17 at 000072-82.

17

Id. at 000085-86 (Consent Order of Dismissal).

18

Id. at 000031, ¶ 4 (April 15, 2004 Final Order).

App. 83
complaint were not properly served and notice of
the final hearing was not given. The Court has already
found that service and notice were proper. Mrs.
Brown’s counsel hired a licensed private investigator to
locate the Defendant. That investigator’s affidavit was
found to be sufficient by the Family Court.
South Carolina law does not permit direct or
collateral attacks upon an order authorizing service by
publication:
An order for service by publication may be
issued pursuant to S.C. Code Ann. § 15-9-710
(Supp.1999) when an affidavit, satisfactory to
the issuing officer, is made stating that the
defendant, a resident of the state, cannot, after
the exercise of due diligence, be found, and that
a cause of action exists against him. § 15-9710(3). When the issuing officer is satisfied by the
affidavit, his decision to order service by
publication is final absent fraud or collusion.
Wachovia Bank of S.C., N.A. v. Player, 341 S.C. 424,
428-29, 535 S.E.2d 128, 130 (2000) (emphasis added);
see also Hendrix v. Hendrix, 296 S.C. 200, 203, 371
S.E.2d 528, 530 (1988). The Respondents do not
contend there was fraud in the procurement of the
annulment. The order authorizing service by
publication therefore cannot be attacked. See also
Schleicher v. Schleicher, 310 S.C. 275, 277, 423 S.E.2d
147, 148-49 (Ct. App. 1992) (holding that service of the
notice of the time and date for a merits hearing is
effective upon mailing when sent by certified mail,
return receipt requested and that Rule 5(b)(1); SCRCP,

App. 84
rather than Rule 4(d)(8), SCRCP, is the applicable
rule).
Some of the Respondents object that the annulment
action should have been filed in Aiken County, not
Charleston County. This is a mere matter of venue,
which has no effect on the validity of the judgment. In
Lillard v. Searson, 170 S.C. 304, 170 S.E. 449 (1933),
the court held that a defect in venue cannot be used to
attack a final judgment:
Since it clearly appears that the defendant
named in the case was not a resident of Richland
county, at the time the action was instituted
against him, but was a resident of Allendale
county, the action was instituted in the wrong
county, and the proper course to have pursued
was for the defendant to have moved to have the
case transferred to Allendale county. . . .
However, the defendant did not do this, and
waited until judgment had been rendered in the
cause before taking any steps in the matter.
Therefore the defendant waived the jurisdictional
question, and, in effect, gave to the court of
Richland County authority to hear the said case
on its merits, and judgment was thereafter
rendered in said court against the defendant as
in any other default case.
170 S.E. at 450-51 (1933) (emphasis added). Note that
the judgment in Lillard, like the annulment in this
case, was entered without entry of an appearance by
the defendant.

App. 85
“The failure to bring the proceedings within the
proper venue, when such is determined by the place of
residence, does not render them void, the error being in
practice and not jurisdictional.” In re Lemack’s Estate,
207 S.C. 137, 144, 35 S.E.2d 34, 37 (1945) (quoting 32
C.J. 633). “The irregularity [in venue] complained of is
not jurisdictional.” State v. Richardson, 149 S.C. 121,
124, 146 S.E. 676, 677 (1928).
Under the above authority, venue is clearly not
jurisdictional, and it is therefore not a sufficient basis
for attacking a final judgment. The Family Court has
statewide jurisdiction. See S.C. Code Ann. § 14-2-10
(establishing “the statewide family court system”).
III.

BECAUSE MRS. BROWN HAD NO
IMPEDIMENT, HER MARRIAGE TO MR.
BROWN IS VALID.
A. The Bigamy Statute.

The South Carolina General Assembly has clearly
spoken through S.C. Code Ann. § 20-1-80 that a
bigamous marriage is “void” – i.e., never a marriage
and never valid from the beginning.19 This section
reads as follows:

19

For more than a century, that statute has provided that
bigamous marriages are void. This is consistent with the public
policy against bigamous marriages. For example, entering into a
bigamous marriage is a crime. Note, however, that State v. Sellers,
140 S.C. 66,134 S.E. 873 (S.C. 1926), recognizes, as do all the other
bigamy cases, that a bigamous marriage is void ab initio, so that
a void first marriage is not an impediment to a valid second
marriage, and thus the second marriage is not bigamous and not
a crime.

App. 86
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend to a
person whose husband or wife shall be absent
for the space of five years, the one not knowing
the other to be living during that time, not to
any person who shall be divorced or whose first
marriage shall be declared void by the sentence
of a competent court.
S.C. Code Ann. § 20-1-80. A void marriage is treated
differently from a voidable marriage. A voidable
marriage is valid unless and until a court rules that
such a marriage is invalid, but a void marriage is never
valid for any purpose. Lukich v. Lukich, 368 S.C. 47,
627 S.E.2d 754 (Ct. App. 2006), aff’d, 379 S.C. 589, 666
S.E.2d 906 (2008), confirms the difference between a
void marriage – void ab initio because of bigamy – and
a merely voidable marriage – valid unless and until a
court invalidates it, such as for intoxication. Lukich
annulled two marriages: a bigamous marriage, held
void ab initio, and a marriage annulled for intoxication,
held voidable.
The South Carolina General Assembly
demonstrates that it understands the difference
between void and voidable. For example, S.C. Code
Ann. § 62-3-713, governing self-dealing transactions by
a personal representative, provides that such a
transaction is “voidable” and can be invalidated at the
request of an interested person.
Consequently, when the General Assembly uses the
term “void” in the bigamy statute, the meaning is clear:
a bigamous marriage is void ab initio and never valid.

App. 87
B. Case Precedent.
1. A Bigamous Marriage Is Void Ab
Initio And Never A Marriage.
The annulment order in this case was granted on
the most serious and substantial of all grounds for
rendering a marriage void: bigamy. It is against public
policy and a crime to commit bigamy. A long line of
South Carolina cases, including Lukich, holds that a
bigamous marriage is not a marriage at all, at any
point in time. In fact, every South Carolina case
considering the issue has concluded that a bigamous
marriage is void ab initio, and thus never a marriage:
At the time the parties began residing
together in September 1983, and throughout
their cohabitation, the respondent was legally
married to another woman. Thus, any marriage
between the parties while respondent had a
subsisting marriage was void as a matter of
public policy. S.C. Code Ann. § 20-1-80 (1985)
(“All marriages contracted while either of the
parties has a former wife or husband living shall
be void”). It was void from its inception, not
merely voidable, and, therefore, cannot be
ratified or confirmed and thereby made valid.
Johns, 309 S.C. at 201, 420 S.E.2d at 858 (emphasis
added).
A mere marriage ceremony between a man
and a woman, where one of them has a living

App. 88
wife or husband, is not a marriage at all. Such a
marriage is absolutely void, and not merely
voidable.
Day v. Day, 216 S.C. 334, 338, 58 S.E.2d 83, 85 (1950)
(emphasis added).
There could not have been a valid marriage
between the appellant, Maggie (Craft) Blizzard,
and William Blizzard, as William Blizzard had
a lawful living wife at the time of the claimed
marriage.
Ex parte Blizzard, 185 S.C. 131, 193 S.E. 633, 634
(1937).
When, however, there is an impediment to
marriage, such as one party’s existing marriage
to a third person, no common-law marriage may
be formed, regardless whether mutual assent is
present.
Callen v. Callen, 365 S.C. 618, 624, 620 S.E.2d 59, 62
(2005) (emphasis added). See also Splawn v. Splawn,
311 S.C. 423, 425, 429 S.E.2d 805, 806 (1993); 52 Am.
Jur. 2d, supra, § 57 (“A marriage that occurs while one
patty is still legally married to another is void from its
inception and cannot be retroactively validated by
estoppel, by mutual agreement, or by the parties’
conduct in holding themselves out as husband and
wife.”).20 This is hardly surprising as the courts are
20

Every South Carolina case, as required by § 20-1-80, has
concluded that the status of someone entering into a bigamous
marriage is that of never having been married. It is Mrs. Brown’s
status that is critical here. At the time she married Mr. Brown, she

App. 89
required to follow the mandate from the legislature
that bigamous marriages are void ab initio.
2. Lukich v. Lukich.
Both the Court of Appeals and Supreme Court
decisions in Lukich v. Lukich21 are in accord with § 201-80, case precedent, and Mrs. Brown’s position. Lukich
held that a bigamous marriage is void ab initio. Lukich
also held that a marriage, annulled for intoxication
rather than bigamy, could be treated as voidable.22

had no impediment to their marriage because she had never been
married before. Respondents cite several cases that deal with
ancillary matters, but all of these cases follow the required rule
about status: someone having entered into a bigamous marriage
was never married. To the extent these cases also deal with
ancillary matters, they are inapposite. See Splawn v. Splawn, 311
S.C. 423, 429 S.E.2d 805 (S.C. 1993) (bigamous marriage void ab
initio but court had to deal with ancillary equitable apportionment
of property issues); Rodman v. Rodman, 361 S.C. 291, 604 S.E.2d
399 (S.C. App. 2004) (similar, citing White v. White, 283 S.C. 348,
323 S.E.2d 521 (S.C. 1984); Joye v. Yon, 355 S.C. 452, 586 S.E.2d
131 (2003) (second marriage bigamous and void ab initio – court
had to decide impact on first husband’s obligation to pay alimony,
which had ostensibly ended if second marriage was valid, which it
was not).
21

368 S.C. 47, 627 S.E.2d 754 (Ct. App. 2006); 379 S.C. 589, 666
S.E.2d 906 (2008).
22

“An annulment declares that a marriage never occurred because
of some defect. Defective marriages may be either void or voidable.
In a void marriage, the circumstances are such that the marriage
could never have come into being. A voidable marriage is
recognized under the law as a valid marriage until an action is
brought to prove it invalid.” Stuckey, Marital Litigation in South
Carolina, Ch. 3.A. A bigamous marriage is void. In fact, “a void

App. 90
Lukich annulled two marriages: one void ab initio
for bigamy and another voidable for intoxication. In
Lukich, the wife sought alimony during a divorce from
her second husband (Marriage 2). During the divorce
proceeding, the second husband learned that the
woman had previously been married (Marriage 1) and
had never obtained a divorce or an annulment from the
first husband. During the divorce case, the wife quickly
obtained an annulment for Marriage 1, without her
husband’s knowledge and in another venue, on the
ground of intoxication.23 Both appellate courts
concluded that Marriage 1 was voidable and refused to
apply the annulment of Marriage 1 retroactively so
that her status would allow her to enter Marriage 2.
Marriage 1 in Lukich was properly voidable, rather
than void, because the annulment was based on
intoxication rather than bigamy. One consequence of
the Lukich court treating Marriage 2, the bigamous
marriage, as void ab initio, is that the husband in
Marriage 2 owed no alimony because Marriage 2 was
“never a marriage.” If Lukich had not treated Marriage
2 as void ab initio because it was bigamous, as required
by statute and precedent, the Court would have had to
conclude that the husband of Marriage 2 would have

[bigamous] marriage technically needs no judicial action to declare
that it is void.” Id.
23

The annulment at issue in Lukich was granted on the ground of
intoxication. Lukich, 368 S.C. at 51, 627 S.E.2d at 756 (“[S]he and
Havron were married during a night of heavy drinking, [and] had
never lived together as husband and wife[.]”).

App. 91
owed alimony from the time of Marriage 2 until the
annulment of Marriage 2.24
In short, a marriage entered into by intoxicated
persons is not invalid until the parties decide to attack
the marriage and not to waive the defect. Therefore, it
is logical, as the Lukich Court held, that a voidable
marriage is invalid only prospectively from the date of
the annulment.
A void marriage, however, is different. A void
marriage is never a valid marriage. The parties are not
permitted to waive the defect; the marriage is
automatically invalid. Both Lukich appellate courts
concluded that Marriage 2 was void ab initio because it
was bigamous. Consequently, Marriage 2 was never a
marriage so that the divorce was unnecessary and the
second husband could not owe alimony.
Lukich does not change, but is instead consistent
with, S.C. Code Ann. § 20-1-80 and all South Carolina
case precedent: a bigamous marriage (Marriage 2 in
Lukich) is void ab initio and never a marriage.
Respondents, in particular Terry Brown, cite the
following language from the Supreme Court opinion in
24

The holding in Lukich as to Marriage 1 makes perfect sense, as
a voidable marriage is invalid only if it is attacked. The parties to
a voidable marriage always have the option of waiving the defect
and ratifying the marriage. The annulment of Marriage 1 in
Lukich was granted on the ground of intoxication. Intoxication is
one of the classic grounds that render a marriage voidable, but not
void. See 52 Am. Jur. 2d Marriage § 23 (Westlaw database updated
Nov. 2014); Abel v. Waters, 373 So. 2d 1125, 1128 (Ala. Civ. App.),
writ denied, 373 So. 2d 1129 (Ala. 1979); Barber v. People, 203 Ill.
543, 546, 68 N.E. 93, 94 (1903).

App. 92
Lukich as somehow changing the treatment of
bigamous marriages in this state:
Under the statute’s terms, Wife’s ‘marriage’ to
Husband # 2 was ‘void’ from the inception since
at the time of that marriage she had a living
spouse and that marriage had not been ‘declared
void.’ § 20-1-80.
Lukich, 373. S.C. at 592, 666 S.E.2d at 907 (Emphasis
added).
Respondents contend that Lukich creates new law
with respect to bigamous marriages. Respondents
claim Lukich disregards the clear requirement of the
bigamy statute and ignores or reverses all case
precedent that bigamous marriages are void ab initio.
Respondents base their contention on the words “and
that” emphasized in the above quote. These words,
Respondents argue; indicate that regardless of whether
a marriage is void or voidable, one has an impediment
to marriage and must obtain an annulment before
remarriage. Contrary to Respondents’ contention,
however, the words “and that” do not refer to the
bigamous marriage (Marriage 2 in Lukich); the words
“and that” clearly refer to the intoxication marriage
(Marriage 1 in Lukich). Thus, Lukich cannot be read to
change a substantive rule of law, namely that a
bigamous marriage is void only from the date of the
annulment order. This would render a bigamous a
marriage voidable rather than void. Lukich does no
such thing. Rather, Lukich confirms that a bigamous
marriage is void ab initio and never a marriage because
it treated Marriage 2 (the bigamous marriage in
Lukich) as never having been a marriage, so that the

App. 93
second husband did not need a divorce and did not owe
alimony to a wife he never married.
If Respondents were correct that Lukich created a
new rule, then the Lukich court would instead have
held that the second husband owed alimony until an
annulment order for Marriage 2 was obtained.
Moreover, if Respondents are correct, then the Lukich
appellate courts favorably cite cases holding that
bigamous marriages are void ab initio while somehow
overturning those cases and ignoring § 20-1-80. The
clear meaning of Lukich is that, as required by § 20-180 and all case precedent, bigamous marriages are void
ab initio and never a marriage.
Moreover, even if Respondents were correct in their
position about Lukich, i.e., that even a bigamous
marriage is valid unless and until an annulment order
is obtained, they could still not prevail. Under their
theory, Lukich changed the law about bigamous
marriages so that a bigamous marriage remains valid
unless and until an order of annulment is obtained. If
that were correct, then under their theory Mrs. Brown
had an impediment to marrying Mr. Brown and that
marriage was therefore bigamous. But under
Respondents’ position, Mr. Brown’s bigamous marriage
to Mrs. Brown would be valid unless and until Mr.
Brown obtained an order annulling their marriage,
which he did not obtain during his lifetime. It is now
too late for Mr. Brown to obtain an annulment.25 So,
even under Respondents’ theory, the marriage between

25

See the discussion at IV.C. below.

App. 94
Mrs. Brown and Mr. Brown was valid at his death and
cannot be invalidated because it is too late.
In this case, unlike Lukich, it is the first marriage
(Marriage 1), rather than Marriage 2 in Lukich, that is
bigamous and thus void. Consequently, Mrs. Brown’s
attempted marriage to Ahmed (Marriage 1) was void ab
initio and never a marriage. Therefore Mrs. Brown had
no impediment to her marriage to Mr. Brown, and that
marriage (Marriage 2) is valid.
Despite the contentions of Respondents, Lukich is
consistent with the bigamy statute and all precedent
involving bigamous marriages: bigamous marriages are
void ab initio and never have any effect --- they are
“never a marriage.” The only difference with respect to
bigamous marriages between Lukich and this case is
that, in Lukich, the bigamous marri
age was the second marriage, while in this case, the
bigamous marriage is the first marriage. That
difference has no impact on the treatment of bigamous
marriages. The bigamous second marriage in Lukich
was void ab initio and never had effect. The bigamous
first marriage in this case was void ab initio and never
had effect, so that Mrs. Brown had no impediment to
her marriage to Mr. Brown.
Were this Court to give only prospective effect to the
annulment in this case, it would be holding that a
bigamous marriage was not invalid from its inception.
Rather, it would be holding that a bigamous marriage
was valid from the date of its inception until the date
of the annulment.

App. 95
This Court is unwilling to hold that a bigamous
marriage, as determined by a family court of this state,
was ever legal. There is no precedent for such a
holding. South Carolina law precludes this Court from
giving any effect whatsoever to a bigamous marriage.
Because the Court cannot give any effect to a bigamous
marriage, it is required to hold that the bigamous
marriage was never a marriage.
Mrs. Brown and Ahmed never had a valid marriage
at any point in time, and Mrs. Brown had no
impediment to her valid marriage to Mr. Brown.
3. Hallums v. Hallums.
The LSA argued that Hallums v. Hallums, 74 S.C.
407, 54 S.E. 613 (S.C. 1906), was exactly on point and
reached a different result. The LSA misses a critical
factual distinction between Hallums and the current
case: in Hallums, there was never a court
determination that the first marriage (Marriage 1) was
bigamous and, in fact, the court found that the
Marriage 1 was not bigamous. By contrast, in the
current case, there is a valid annulment order finding
that the first marriage was bigamous.
The Hallums paradigm actually supports Mrs.
Brown’s position. If the Hallums court had determined
that Marriage 1 was bigamous, then the Hallums
opinion indicates that the second marriage (Marriage
2) would have been valid because there would have
been no impediment to the wife entering into the
second marriage (Marriage 2) with the decedent.
More specifically, in Hallums, a woman attempted
to get a distributive share from the decedent’s estate,

App. 96
claiming to be his surviving spouse. However, the
estate contended that she was already married when
she attempted to marry the decedent, and thus had an
impediment to the attempted marriage to the decedent.
The woman then contended that her attempted first
marriage was invalid because her putative first
husband was already married when they attempted to
get married. So far, the LSA is correct: absent the
critical distinction missed by the LSA’s analysis, the
Hallums paradigm is the same as the paradigm in the
current case because in Hallums, the woman argues
that she had no impediment to marrying the decedent
(Marriage 2) because she was never married to her first
husband (Marriage 1) as the first husband himself was
already married.
In the current case, Mrs. Brown argues that she had
no impediment to marrying the decedent (Marriage 2)
because she was never married to her first husband
(Marriage 1) as the first husband himself was already
married. The critical difference between the two cases
is that in Hallums, the woman did not have a separate
annulment order invalidating Marriage 1 void ab initio
and did not get one because the court concluded her
first marriage was not bigamous. In the current case,
Mrs. Brown does have an annulment order invalidating
Marriage 1. In Hallums, the court was asked to
consider the validity of both Marriage 1 and Marriage
2 at the same time. The Hallums court determined that
Marriage 1 was valid because there was insufficient
evidence that the husband in Marriage 1 was already
married: consequently, Marriage 1 in Hallums was not
bigamous and therefore was valid. Thus, the woman in
Hallums had an impediment to Marriage 2. That is the

App. 97
critical factual difference between the facts in Hallums
and the current case. In the current case, Marriage 1
was determined by a court to be bigamous and thus
never valid. In the current case, Mrs. Brown thus had
no impediment to Marriage 2 (her valid marriage to
Mr. Brown).
Hallums actually supports Mrs. Brown’s position.
Hallums stands for the proposition that, if Marriage 1
had been bigamous and thus void ab initio, Marriage 2
to the decedent would have been valid and the woman
would be entitled to her distributive share from the
decedent’s estate. That is exactly Mrs. Brown’s
position. Because she has an order confirming that
Marriage 1 was void ab initio as bigamous, Marriage 2
is valid and she qualifes as a surviving spouse.26
4. All Bigamous Marriages Are Void.
Every bigamous marriage is void ab initio. A
bigamous marriage is never valid – “never a marriage.”
In S.C. Code Ann. § 20-1-80, the bigamy statute, the
South Carolina General Assembly requires that a
bigamous marriage is void ab initio. In accordance with
this legislative mandate, every South Carolina case
dealing with bigamous marriages, including Lukich
26

Unlike this case, the court in Hallums looked at the first
marriage after the decedent’s death because: (1) there was no preexisting annulment order from a court with exclusive jurisdiction
over annulments, as there is today; (2) this was prior to the family
court having exclusive jurisdiction over annulments – in fact, this
was prior to the existence of family courts in South Carolina;
(3) this was prior to § 62-2-802 defining surviving spouse for estate
purposes and case law precluding postmortem annulments. See
IV.C below.

App. 98
and Hallums, holds that a bigamous marriage is void
ab initio and never has effect. Although Respondents
contend that Lukich somehow changes that rule and
instead provides that a bigamous marriage is valid
until an annulment order is obtained, that is not the
holding in Lukich as to bigamous marriages. In Lukich,
it is the second marriage that is bigamous and both
appellate courts treat that second marriage as void ab
initio, in accordance with the bigamy statute and all
case precedent. In Mrs. Brown’s case, it is the first
marriage that is bigamous, and that first marriage is
therefore void ab initio, meaning that Mrs. Brown had
no impediment to her marriage to Mr. Brown.
Despite the contention of the LSA, Hallums is in
accord with the bigamy statute, Lukich, and all other
case precedent in treating bigamous marriages as void
ab initio. Unlike Mrs. Brown’s first marriage, which
was found to be bigamous and void, the first marriage
in Hallums was found not to be bigamous and was
therefore valid. However, if the first marriage in
Hallums had been found to be bigamous and void, the
opinion indicates that the second marriage would have
consequently been valid because the wife would have
had no impediment to her second marriage and thus
could inherit. That is exactly Mrs. Brown’s case: her
first marriage has been found to be bigamous and void,
so that she had no impediment to her marriage to Mr.
Brown: their marriage is valid and she is his surviving
spouse.

App. 99
IV.

THE ANNULMENT ORDER IS FINAL AND
BINDING.
A. Introduction.

Because the bigamy statute and case law, including
Lukich, hold that a bigamous marriage is void ab initio,
the annulment order confirms that Mrs. Brown had no
impediment to her marriage to Mr. Brown.
Respondents contend that the annulment order is
not valid and that this Court should refuse to recognize
the annulment order or alternatively disregard the
findings of fact of the annulment order. For a number
of reasons, this Court concludes that the annulment
order is final and binding. Nor will this Court re-open
or re-litigate the underlying findings of fact of the
annulment order, which in this case would have the
same effect as disregarding the annulment order. All of
these reasons are explained in greater detail below at
IV.B-G, but generally the reasons are as follows:
First, only the family court has jurisdiction over
annulments. This Court does not have jurisdiction over
annulments. If this Court failed to recognize the
annulment order as valid, then the result would be to
re-litigate the annulment in this Court. If this Court
does not have jurisdiction to hear an annulment action,
it does not have jurisdiction to re-litigate an annulment
action. Nor can this Court re-open or review the
findings of fact underlying the annulment order. Even
if this court had jurisdiction to do so, doing so would
lead to only two possible results: (1) this Court’s
determination that the family court was correct or
(2) that the family court reached an incorrect

App. 100
conclusion. This, presumably, would mean that the
annulment order, which was not appealed, is rendered
invalid by this Court. This Court simply does not have
such jurisdiction.
Second, even if this Court had jurisdiction to not
recognize or to re-litigate the annulment order, the
appropriate parties would not be available. Mrs. Brown
and Ahmed would be the necessary parties, and Ahmed
is not a party to this action nor should he be. If this
Court allowed Ahmed to participate as a party in the
re-litigation of the order, this would allow him to
collaterally attack a family court order he cannot now
directly attack. The only way to invalidate a marriage
in South Carolina is to bring an annulment action. Mr.
Brown obviously knew that because he brought an
annulment action, which he eventually dismissed.
Annulment actions cannot be brought postmortem. Nor
can Respondents do so. Any right they may have is
derived from Mr. Brown, and they cannot have greater
rights than he did.
Third, a court has to have a reason to refuse to
recognize an order, and the only reason is the failure of
due process, either by failure to obtain personal
jurisdiction or a lack of subject matter jurisdiction.
Even if this Court had jurisdiction concerning the
annulment order, it finds that there is no defect in
personal jurisdiction –i.e., the service was proper – and
the family court had subject matter jurisdiction. There
is no failure of due process and so there is no reason to
refuse to recognize the order.
Fourth, even if this Court had jurisdiction, the issue
of the finality of the annulment order – i.e., whether it

App. 101
is binding on those not parties to the action – in this
case applies only to Mr. Brown because, as noted,
Respondents at best stand in his shoes. The
Respondents concede that an annulment is an in rem
action, and in rem actions are binding on non-parties
as to status. Even if Mr. Brown was not precluded by
the reasons stated above, and for other reasons, he
would be bound by the status determination of an in
rem action. The status determination of the annulment
order was that Mrs. Brown was never married to
Ahmed and thus her status at the time of her marriage
to Mr. Brown was that she had no impediment to that
marriage. Mrs. Brown’s status is the only relevant
issue here.
Finally, to disregard or relitigate the annulment
order would create a chaotic precedent. No marital
determination of status – validation of marriage,
invalidation of marriage (annulment) or termination of
marriage (divorce) – would ever be final and binding.
Families are critically affected by the status of family
court actions and their status determinations must be
sacrosanct. To allow any third party to attack a status
determination would permit endless litigation over
family matters and continuing uncertainty over such
critical relationship matters as paternity and
legitimacy, as well as a person’s ability to enter into
valid marriages. Some examples of unacceptable
problems which would result in this case are as follows:
1. Mr. Brown brought and dismissed an
annulment action attacking his marriage to
Mrs. Brown. This Court takes judicial notice
that Mr. Brown did not thereafter attempt to

App. 102
file an action in court to invalidate their
marriage, which he obviously knew how to do
if he wished. Mr. Brown did not annul his
marriage to Mrs. Brown before his death, but
Respondents now wish to do so.
2. The annulment order legitimizes James
Brown II. Because the annulment action
confirmed that Mrs. Brown had no
impediment to her marriage to Mr. Brown,
their marriage makes James II, born before
the marriage, legitimate. Effectively
overturing the annulment order would
render James II illegitimate, affecting critical
rights of his.
3. If Ahmed is not a party to relitigation of the
annulment order, an overturning or
disregard of that order could impact his
family status. According to the sworn
affidavit of Daryl Brown’s attorney in this
matter, David Bell, Ahmed has known for at
least six years that his marriage to Mrs.
Brown was annulled. This Court takes
judicial notice that Mr. Ahmed has taken no
judicial action to attack the annulment order.
Relying on the validity of the annulment
order, Ahmed may have married
subsequently and had children: if the
annulment order is overturned, then his
marriage would be invalidated and his
children rendered illegitimate.

App. 103
B. This Court Lacks Subject Matter
Jurisdiction To Relitigate Or Disregard
The Annulment Order.
Respondents would have this Court relitigate or
disregard the annulment order issued by the family
court. However, this Court does not have jurisdiction
over annulments. Only the family court has jurisdiction
over actions for annulments. S.C. Code Ann. § 63-3530(A)(6)27 provides that the family court has exclusive
jurisdiction over annulments.
The only way for Mr. Brown to have invalidated his
marriage to Mrs. Brown would have been through an
annulment of their ceremonial marriage. “Annulments
are actions to establish the invalidity of marriages.”
See Stuckey, Marital Litigation, Ch. 3.A. Mr. Brown
obviously understood that an annulment action is the
method to seek an invalidation of a marriage because
he brought an action to annul his marriage to Mrs.
Brown. As discussed above, Mr. Brown dismissed that
action through a consent order. It is now too late for
Mr. Brown, or anyone acting for or through him, to
bring an annulment action to invalidate his marriage
to Mrs. Brown. See the discussion at IV.C below.
Consequently, if this Court lacks subject matter
jurisdiction over annulments, it cannot relitigate or
disregard the family court annulment order.
Redetermining the underlying facts of the annulment
order would be engaging in an annulment action, which
this Court lacks jurisdiction to do.

27

Formerly S.C. Code § 20-7-140.

App. 104
Having this Court relitigate or disregard an existing
valid family court order would create a precedent
resulting in chaos.28 If a third party is allowed to attack
an order of annulment or divorce obtained during a
decedent’s lifetime, relationships relied on by the
decedent during his lifetime and taken to his grave
could be undone, and great damage would be done to
the public policy of stability of marriage.
S.C. Code Ann. § 63-3-530(A)(6) grants the family
court exclusive jurisdiction over annulments. To allow
the Respondents to challenge Mrs. Brown’s annulment
from Ahmed in this Comt would subvert the exclusive
authority granted to the family court by the South
Carolina General Assembly.29 According to the plain
language of the statute, the General Assembly granted
exclusive jurisdiction over annulments to the family
court.30 In so doing, the General Assembly prohibited
all other courts from going behind the family court’s
annulment orders.
Lukich fits this statutory scheme because it
involved an appeal from the family court, which had
jurisdiction over annulments. Lukich did not allow an
28

See, e.g., Neely, discussed below.

29

“The canon of construction ‘expressio unius est exclusio alterius’
or ‘inclusio unius est exclusio alterius’ holds that ‘to express or
include one thing implies the exclusion of another, or of the
alternative.’ Black’s Law Dictionary 602 (7th ed. 1999).” Hodges v.
Rainey, 533 S.E.2d 578, 582, 341 S.C. 79, 86 (2000).
30

In S.C. Code § 63-3-530(A)(6), the Legislature says that “[t]he
Family Court has exclusive jurisdiction...to hear and determine
actions for annulment of marriage”.

App. 105
annulment order to be challenged in a court outside of
the family court. Unlike Mr. Lukich, Mr. Brown
withdrew his family court action for annulment during
his lifetime. The legislative scheme did not give Mr.
Brown the ability to challenge the annulment order
outside of the family court during his lifetime, and his
heirs likewise cannot go behind a family court order in
this Court.
C. Even If This Court Had Jurisdiction, A
Postmortem Annulment Action Is Not
Possible.
The issue before this Court on summary judgment
is whether Mrs. Brown is the surviving spouse of Mr.
Brown. South Carolina Probate Code § 62-2-802 is the
statute governing the determination of surviving
spouse qualification. Section 62-2-802 specifically
addresses annulment in this context. It provides that
a surviving spouse is someone from whom the decedent
did not get a divorce or an annulment:
Section 62-2-802. Effect of divorce,
annulment, decree of separate
maintenance, or order terminating marital
property rights.
(a) An individual who is divorced from the
decedent or whose marriage to the decedent has
been annulled is not a surviving spouse unless,
by virtue of a subsequent marriage, the
individual is married to the decedent at the time
of death. A decree of separate maintenance that
does not terminate the status of husband and
wife is not a divorce for purposes of this section.

App. 106
Section 62-2-802(c) requires that any divorce decree
or annulment be signed by the court and filed in the
office of the clerk of court. It is too late for Mr. Brown,
or those acting for or through him, to bring such an
annulment action. In Hatchell-Freeman v. Freeman,
340 S.C. 552, 532 S.E.2d 299 (Ct. App. 2000), the Court
of Appeals, addressing S.C. Code § 62-2-802, held that
a divorce decree was invalid when it was filed three
days after the husband’s death, although his death
occurred more than a week after the final divorce
hearing. In Bayne v. Bass, 302 S.C. 208, 394 S.E.2d 726
(Ct App. 1990), the wife committed suicide after the
trial judge orally granted her request for divorce but
before he signed a divorce decree. The judge signed the
decree two days after she died but vacated it on motion
by the husband’s counsel. The Court of Appeals held
that the order granting the divorce was void and that
the court properly vacated its own order. Mr. Brown
neither divorced nor had his marriage to Mrs. Brown
annulled during his lifetime. Therefore, under the
Probate Code Mrs. Brown was still his wife at the time
of Mr. Brown’s death, and she is his surviving spouse.
Respondents – in privity with Mr. Brown and
deriving any rights they have through him – are
attempting to do after his death what he chose not to
do in life. The exclusive method to invalidate a
marriage is to bring an annulment action in the Family
Court. Mr. Brown obviously knew that because he
brought an annulment action in the Family Court,

App. 107
which he dismissed.31 Again, this Court has no
jurisdiction over annulment actions, but even if it did,
it is too late for Mr. Brown to collaterally attack an
annulment order. Annulment actions cannot be
brought postmortem. Nor can Respondents do so.
D. Even If This Court Had Jurisdiction
Over Annulments And Did Not Lack
Necessary Parties; There Is No Reason
To Disregard The Annulment Order.
A court has to have a reason to refuse to recognize
an order, and the only reason is the failure of due
process, either by failure to obtain personal jurisdiction
or a lack of subject matter jurisdiction. Yarbrough v.
Collins, 293 S.C. 290, 360 S.E.2d 300 (S.C. 1987) (“A
judgment may be collaterally attacked if the court
lacked jurisdiction and the lack of jurisdiction appears
on the face of the record. Turner v. Malone, 24 S.C. 398
(1886).”); Miles v. Lee, 319 S.C. 271, 460 S.E.2d 423
(S.C. App. 1995) (similar); Henry v. Cottingham, 253
S.C. 286, 170 S.E.2d 387 (S.C. 1969) (“The decree of a
Probate Court admitting a will to probate is final and
conclusive if not reversed by the appellate court, or set
aside and revoked by direct proceeding, and cannot be
questioned collaterally. Weinberg v. Weinberg, 208 S.C.
157, 37 S.E.2d 507; Reed v. Lemacks, 204 S.C. 26,
S.E.2d 441; Davis v. Davis, 204 S.C. 26, 28 S.E.2d 441.”
. . . . “In Wilkinson v. Wilkinson, 178 S.C. 194, 182. S.E.
640, this court said: ‘As a proceeding to probate a will

31

Notably, even in Mr. Brown’s short-lived annulment action, he
did not attack the annulment order but rather insisted that it was
binding on Mrs. Brown.

App. 108
is a judicial one, a judgment or decree admitting a will
to probate stands on the same footing as a judgment of
any other Court of competent jurisdiction; and while it
is not conclusive in the sense that a person having a
requisite interest may not attack it by a direct
proceeding within the period of time allowed by statute,
without a statute conferring the right to contest, the
order admitting the will to probate would be final on all
parties.”’) McCampbell v. Warrich Corporation, 109
F.2d 115 (7th Cir. 1940) ( a collateral attack “is not
permissible if the court had jurisdiction over the
parties and the subject matter.”); Burlington Data
Processing, Inc. v. Automated Medical Systems, Inc.,
Clinical Management Systems, Inc., and William
Carlson, 492 F.Supp. 821 (D. Vermont 1980) (“A final,
valid judgment, though erroneous, is not subject to
collateral attack unless it can be shown that the court
rendering it was without jurisdiction. See Midissa
Television Co. v. Motion Pictures for Televisions, Inc.,
290 F.2d 203 (5th Cir. 1961), cert. denied 368 U.S. 827,
82 S.Ct. 47, 7 L.Ed.2d 30 (1961). Anderson v. Tucker,
68 F.R.D. 461 (D.Conn.1975). 1B J. Moore, Federal
Practice, s .407.”); Popp Telcom v. Americal Sharecom,
Inc., 210 F.3d 928 (8th Cir. 2000) (“When a judgment is
alleged to be simply erroneous or attacked on the basis
of anomalies unrelated to the court’s jurisdiction,
collateral attack is not an option.”). See also Fouche v.
Royal Indemnity Company, 217 S.C. 147, 60 S.E.2d 73
(S.C. 1950) (“The probate court of Orangeburg County
which rendered the judgment in this case is a court of
record, and had full jurisdiction over the
administration proceedings. It has been held in many
cases in this state that a judgment is not open to
successful collateral attack unless void on its face, or

App. 109
upon an inspection of the judgment roll. This principle
seems to be self evident, and the authority of adjudged
cases support it.”....“As heretofore stated, the record in
the probate court of Orangeburg County does not
affirmatively disclose that the court was without
jurisdiction of these appellants, hence their collateral
attack on the judgment cannot succeed, and the order
of discharge is binding upon them.”)
Even if this Court had jurisdiction concerning the
annulment order, it finds that there is no defect in
personal jurisdiction –i.e., the service was proper – and
the family court had subject matter jurisdiction. There
is no failure of due process and so there is no reason to
refuse to recognize the order.
E. The Annulment Order Is Binding On All
Parties.
The annulment order is binding on all parties.
South Carolina provides:
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend to a
person whose husband or wife shall be absent
for the space of five years, the one not knowing
the other to be living during that time, not [sic]
to any person who shall be divorced or whose
first marriage shall be declared void by the
sentence of a competent court.
S.C. Code Ann. § 20-1-80.
The validity of the attempted marriage between
Mrs. Brown and Ahmed has already been addressed by

App. 110
the South Carolina court with jurisdiction. That court
issued a final judgment invalidating the attempted
marriage between Mrs. Brown and Ahmed, on the
ground of bigamy. This annulment order is binding on
Mr. Brown, and consequently is binding on
Respondents.
In addition to Lukich v. Lukich, other South
Carolina case law confirms this rule. In Joye v. Yon,
345 S.C. 264, 547 S.E.2d 888 (Ct. App. 2001), a
husband and wife were divorced, and the husband was
ordered to pay alimony. Some years later, the wife
remarried. Six months later, her remarriage was
annulled for bigamy, as the second husband had never
divorced his prior wife. The first husband refused to
resume paying alimony after the annulment, and the
wife filed a contempt action to enforce the original
decree. The husband then argued that the wife’s
remarriage, bigamous though it may have been, still
terminated his ability to pay support.
The court of appeals resolved the main issue in the
case by holding that a bigamous remarriage, which is
void ab initio, does not terminate a prior spousal
support obligation. The husband then argued in the
alternative that the wife’s remarriage could not be
treated as bigamous against him, as he was not a party
to the annulment action in which the remarriage was
declared void. This is the same argument that
Respondents make in the present case. But the court of
appeals rejected this argument. It held directly that the
annulment was binding upon the first husband even
though he was not a party to the action:

App. 111
Yon also argues the court erred in reinstating
his alimony obligation because he was not a
party to Joye’s annulment action. He asserts
that he should have been made a party to the
annulment action because its outcome directly
affected him. We disagree.
Generally, a person must be joined as a party to
an action if his absence precludes complete relief
among those already parties or his interest in
the subject matter is so intertwined that he
would not receive complete relief or resolution
without his participation. Rule 19(a), SCRCP;
see First Citizens Bank & Trust Co. v. Strable,
292 S.C. 146, 148,355 S.E.2d 278,279 (Ct.
App.1987).
Since Yon had no standing to challenge the
granting of the annulment, it was not necessary
for Joye to include him as a party to the action.
Moreover, Yon suffered no prejudice by not being
made a party to the action. Under South
Carolina law, Joye’s marriage to Vance was void
ab initio and Yon’s presence as a party to the
action could not have altered the decision to
grant the annulment.
Id. at 276, 547 S.E.2d at 894 (emphasis added). For
exactly the same reasons, Respondents have no
standing to question the invalidation of Mrs. Brown’s
previous attempted marriage to Ahmed because of
Ahmed’s bigamy.32 That order can be questioned only
32

A leading authority on family law supports this South Carolina
rule. “[A]nnulment decrees are binding upon nonparties as well as

App. 112
in a direct attack by those who were party to it, and
only if that direct attack was timely and properly
brought. Just as the first husband in Joye was bound
by the annulment of the marriage between the wife and
her second husband, so is the estate of Mr. Brown
bound by the order invalidating ab initio the attempted
marriage between Mrs. Brown and Ahmed.
In Joye v. Yon, 355 S.C. 452, 586 S.E.2d 131 (2003),
the Supreme Court necessarily agreed with the court of
appeals regarding the husband’s standing to attack the
annulment. The Court of Appeals was reversed as to
the effect of the annulment upon the prior support
obligation, and not as to the existence or validity of the
annulment.33

parties respecting the validity of the marriages involved.” 1 Homer
H. Clark Jr., The Law of Domestic Relations in the United States
§ 3.6 (2d ed. 1987). Professor Clark recognizes that this issue
highlights the tension between the opportunity to be heard, on the
one side, and the need for finality on the other. Although he
recognizes that the rights of third persons may be affected by
whether or not a marriage exists, he concludes: “No matter how
clearly these [third-party] rights may depend on the existence of
a marriage, they are not of the same degree of importance,
seriousness or consequence as the interests of the spouses
themselves in the marriage. It is perhaps this factor that has led
to the well-established rule that a decree of divorce is conclusive on
third parties with respect to the termination of the marriage. It is
the writer’s view that a decree of annulment should have the same
effect.”
33

The effect of the final and binding Family Court order
invalidating the attempted marriage between Mrs. Brown and
Ahmed is that the Brown-Brown marriage is valid, per the Lukich
case, as discussed below.

App. 113
The result reached in Joye is further consistent with
S.C. Code § 20-1-520, which provides that third parties
were generally bound by a court’s determination that
a marriage is valid:
When the validity of a marriage shall be denied
or doubted by either of the parties, the other
may institute a suit for affirming the marriage
and, upon due proof of the validity thereof, it
shall be decreed to be valid and such decree shall
be conclusive upon all persons concerned.
S.C. Code Ann. § 20-1-520 (emphasis added).34

34

If third parties were able to contest family court orders, the
order would never be final and chaos in family relations would
ensue. See Neely v. Thomasson, 365 S.C. 345, 618 S.E.2d 884
(2005). As to precedent regarding finality, the Court of Appeals in
Neely cited cases as follows:
Adickes v. Allison & Bratton, 21 S.C. 245, 259 (1884)
(alteration and emphasis added) (quoting Freeman
Judgments § 12), cited with approval in Mid-State
Distribs., Inc. v. Cenlwy Importers, Inc., 310 S.C 330, 335,
426 S.E.2d 777, 780 (1993). A decree of divorce is generally
a final judgment of the court. Culbertson v. Clemens, 322
S.C. 20, 23, 471 S.E.2d 163, 164 (1996); cf. Corbin v.
Kohler Co., 351 S.C. 613. 621, 571 S.E.2d 92, 97 (Ct. App.
2002) (“The final written order contains the binding
instructions which are to be followed by the parties.”)...
See ML-Lee Acquisition Fund, L.P. v. Deloitte & Touche,
327 S.C. 238; 241, 489 S.E.2d 470, 472 (1997) (holding an
unappealed ruling is the law of the case and cannot be later
challenged).
Neely v. Thomasson, 355 S.C. 521, 536, 586 S.E.2d 141, 144 (Ct.
App. 2003) (emphasis added).

App. 114
An annulment action and an action to validate a
marriage, as described in § 20-1-520, are symmetrical:
one brings an action to validate a marriage to confirm
a marriage’s validity while one brings an annulment
action to conform a marriage’s invalidity. See Stuckey,
Marital Litigation in South Carolina, Ch. 3-A. Thus,
because “all persons concerned” are bound by a court
determination that a marriage is valid, “all persons
concerned” are likewise bound by a court’s finding that
a marriage is invalid. If third parties were able to
contest final family court orders, the order would never
be final and chaos in family relations would ensue.
Other states have held that annulments cannot be
collaterally attacked by those who are not parties to the
action. See, e.g., Johnson County National Bank &
Trust Co. v. Bach, 189 Kan. 291, 369 P.2d 231 (1962)
(certain beneficiaries made exactly the same argument
that Respondents make–that the annulment was not
binding on third parties – and the Kansas Supreme
Court agreed with the wife that the annulment was
dispositive and that it could not be questioned by third
parties).
Just as the annulment decree in Bach was
conclusive on the validity of the alleged marriage in
that case, so is the annulment in this case likewise
dispositive. The annulment can be attacked only in a
prior direct attack filed by the parties to the
action–Mrs. Brown and Ahmed.
A New York court stated the fundamental principle
of law that underlies South Carolina’s position:

App. 115
It is ancient law that a judgment in rem is
res judicata to all the world with regard to the
res or status that is determined therein. In a
matrimonial action the condition of marriage or
non-marriage is involved. An essential issue is,
therefore, one of status–or, put another way,
there is a marital res subject to in rem
jurisdiction. As a consequence, in ordinary
circumstances a judgment determining marital
status is binding on the whole world, and it is
not confined in effect to the immediate parties to
the action in which the judgment determining
status was rendered.
Presbrey v. Presbrey, 6 A.D.2d 477, 480, 179 N.Y.S.2d
788, 792 (1958) (emphasis added), aff’d, 8 N.Y.2d 797,
168 N.E.2d 135, 201 N.Y.S.2d 807 (1960); see also Luke
v. Hill, 137 Ga. 159, 73 S.E. 345, 346 (1911) (“So far as
the adjudication fixes the status of the parties, the
judgment concludes both parties and strangers[.]”).
The Restatement (Second) of Judgments states the
rule as follows:
A status determination is ordinarily binding on
non-parties because it effects a transformation of
the legal status of the person involved which
others have no legal authority to challenge. In
this respect it is similar to status changes that
parties are free to make without adjudicative
proceedings, such as entry into marriage,

App. 116
renunciation of citizenship, or voluntary
surrender of one’s property to a conservator or
trustee.
Restatement (Second) § 31 cmt. f (emphasis added); see
also id. § 31 cmt. a (“Proceedings for the determination
of status include divorce and annulment actions[.]”).
The annulment order involves Mrs. Brown’s status,
and this status cannot be collaterally attacked by any
third party. Because Mrs. Brown’s putative marriage to
Ahmed was void ab initio for bigamy, Mrs. Brown’s
status at the time of her marriage to Mr. Brown was
that she had no impediment to that marriage.
Therefore, the Respondents have no legal authority
to challenge the Family Court Order of annulment.
F. The Family Court Order Is Binding On
Respondents Who Are in Privity with
Mr. Brown.
Respondents are bound by the Family Court order.
Heirs are in privity with their ancestors. Thompson v.
Hudgens, 161 S.C. 450, 463, 159 S.E. 807, 812 (1931).
Consequently, heirs are barred from asserting claims
that their ancestors would have been barred from
asserting. Watson v. Watson, 172 S.C. 362,369-71, 174
S.E. 33, 36 (1934). In Watson, the decedent was barred
from attacking a divorce; the Court held that those in
privity with him, such as his children, were likewise
barred. These rulings are obvious because heirs and
devisees of a decedent cannot acquire any greater
rights through the decedent than the decedent had
himself. Similarly, a personal representative’s
relationship with the decedent exemplifies the classic

App. 117
case of privity with the decedent. It would be illogical
for a personal representative, representing the
decedent, or Respondents, claiming through the
decedent, to have greater rights than the decedent had
himself.
More generally, “[t]he term ‘privity’ when applied to
a judgment or decree; means one so identified in
interest with another that he represents the same legal
right.” H.G. Hall Constr. Co. v. J.E.P. Enters., 283 S.C.
196, 204, 321 S.E.2d 267, 271 (Ct. App. 1984). Carolina
Baking Co. v. Geilfuss, 169 S.C. 348, 168 S.E. 849, 852
(1933), held that a judgment is binding upon
nonparties who “sought, consented to, or acquiesced in”
the judgment. Id. To similar effect is Tillman v.
Tillman, 93 S.C. 281, 76 S.E. 559 (1912). There, a
father executed a deed giving custody of his children to
his parents. A custody action then followed between the
father’s parents and the mother, in which the mother
prevailed. The court held that the father was bound by
the judgment:
It is true that [the father] was not a formal party
to that proceeding, but he submitted an affidavit
therein making no claim on his own behalf, but
insisting on the claim of his father and mother,
to whom he had solemnly conveyed all his rights
of custody. It is clear that by this action he
became bound by the decree rendered in the
former proceeding.
Id. (emphasis added). By supporting his parents in the
custody case, therefore, the father became bound by the
result.

App. 118
In Neely v. Thomasson, 365 S.C. 345, 618 S.E.2d 884
(2005), the decedent was divorced from his wife during
his lifetime, and the divorce decree held that a
daughter was born during the marriage. After the
decedent’s death, the decedent’s heirs argued that they
were not parties to the divorce case, that they were not
bound by the court’s decision, and that the daughter
was actually not the child of the decedent. The South
Carolina Supreme Court held that the decedent was
bound by the judgment, and that the heirs were
likewise bound:
Because the issue of paternity was raised and
ruled upon in a prior action, Decedent, if alive,
would have been barred from challenging
paternity at a later date. See Eichman, 285 S.C.
at 380, 329 S.E.2d at 766. As a result,
Decedent’s heirs are likewise barred from
asserting claims that Decedent himself would
have been barred from asserting. See Watson,
172 S.C. at 370-71, 174 S.E. at 36. Moreover, we
find that it would be unjust to allow Decedent’s
siblings to assert a claim that Decedent himself
never chose to assert during his lifetime. In fact,
there is no evidence in the record that Decedent
took any steps whatsoever during his lifetime to
disclaim Nancy as his daughter. To the contrary,
Decedent acknowledged, on more than one
occasion, that Nancy was his child. Therefore,
we hold that Decedent’s siblings should not have

App. 119
been permitted to challenge the prior paternity
determination.
Id at 354-55, 618 S.E.2d at 889 (emphasis added). The
stipulated facts show that Mr. Brown supported the
annulment litigation by paying Mrs. Brown’s legal fees.
After signing the Consent Order of Dismissal
concerning his own annulment action, Mr. Brown never
again sought to annul his marriage to Mrs. Brown. As
such, the Respondents, in privity with Mr. Brown, are
bound by the Family Court’s order.
G. Binding Effect Of In Rem Judgments.
1. General Rule.
The LSA and other Respondents argue that this
Court is not bound by the factual findings set forth in
the judgment annulling Mrs. Brown’s marriage to
Ahmed. The Court respectfully disagrees.
The LSA expressly cites section 73 of the
Restatement (First) of Judgments. That section applies
on its face only to “Proceedings with Respect to
Property.” This case is governed by section 74, which
applies to “Proceedings with Respect to Status.” The
validity of the marriage between Mrs. Brown and
Ahmed is a matter of status, not a matter of property.
There is no question that a judgment annulling a
marriage is a judgment in rem.
Section 74 of the Restatement provides:
(1)

In a proceeding in rem with respect to a
status the judgment is conclusive upon all
persons as to the existence of the status.

App. 120
(2)

A judgment in such a proceeding will not
bind anyone personally unless the court
has jurisdiction over him, and it is not
conclusive as to a fact upon which the
judgment is based except between persons
who have actually litigated the question
of the existence of the fact.

Restatement § 74.
2. Section 74(1).
The above language states two competing rules. The
first rule provides that an in rem judgment is binding
upon “all persons” when the issue is the existence of
the status. The drafters elaborate:
Effect of judgment on the status. Where in a
proceeding for the creation or termination or
judicial determination of a status a competent
court has after proper notice given a valid and
final judgment, the judgment is binding on all
persons in the world as to the existence of the
status. The judgment is not subject to collateral
attack by anyone. . . .As far as the status is
concerned, the judgment is binding not only on
persons who were subject to the jurisdiction of
the court which rendered the judgment, but also
on persons not personally subject to the
jurisdiction of the court.
Restatement§ 74 cmt. a. As regards the existence of the
status itself, therefore, a judgment of annulment binds
everyone, including persons not parties to the action or
otherwise not subject to personal jurisdiction.

App. 121
Mrs. Brown provides compelling authority in
support of section 74(1). “[A]nnulment decrees are
binding upon non-parties as well as parties respecting
the validity of the marriages involved.” 1 Homer H.
Clark Jr., The Law of Domestic Relations in the United
States § 3.6 (2d ed. 1987) (emphasis added). Professor
Clark continues:
No matter how clearly these [third-party] rights
may depend on the existence of a marriage, they
are not of the same degree of importance,
seriousness or consequence as the interests of
the spouses themselves in the marriage. It is
perhaps this factor that has led to the wellestablished rule that a decree of divorce is
conclusive on third parties with respect to the
termination of the marriage. It is the writer’s
view that a decree of annulment should have the
same effect.
Id.
Clark’s rule has been followed in South Carolina. See
Joye v. Yon, discussed above.
The holding of a New York decision is squarely on
point:
It is ancient law that a judgment in rem is
res judicata as to all the world with regard to
the res or status that is determined therein. In
a matrimonial action the condition of marriage
or non-marriage is involved. An essential issue
is, therefore, one of status–or, put another way,
there is a marital res subject to in rem
jurisdiction. As a consequence, in ordinary

App. 122
circumstances a judgment determining marital
status is binding on the whole world, and it is
not confined in effect to the immediate parties to
the action in which the judgment determining
status was rendered.
Presbrey v. Presbrey, 6 A.D.2d 477, 480, 179 N.Y.S.2d
788, 792 (1958) (emphasis added), aff’d, 8 N.Y.2d 797,
168 N.E.2d 135, 201 N.Y.S.2d 807 (1960).
In Johnson County Nat. Bank & Trust Co. v. Bach,
189 Kan. 291, 369 P.2d 231 (1962) and Michelli v.
Michelli, 527 So.2d 359, 361 (La. Ct. App. 1988), courts
directly held that annulments were binding upon third
parties. These decisions did not draw any distinction
between the facts and the law. They held, consistently
with § 74(1) of the first Restatement, that in rem
judgments of status bind all parties on the issue of
status itself.
Another similar case is Headen v. Pope & Talbot,
Inc., 252 F.2d 739, 744 (3d Cir. 1958), where the court,
dealing with South Carolina facts, expressly
acknowledged the exception of § 74(2), but held that
the case was controlled by the general rule of § 74(1).
An in rem judgment of status binds the world on the
question of status itself. Third parties are not bound
only as to questions collateral to status. As to status,
and necessarily the facts determining status, all parties
are bound. See also Bair v. Bair, 91 Idaho 30, 31, 415
P.2d 673, 674 (1966) (denying decedent’s heirs’ attempt
to attack a divorce decree obtained by decedent’s widow
and stating that the heirs “as strangers to the divorce
decree, have no right to attack its validity. To hold
otherwise could cause chaos and uncertainty in the

App. 123
lives of thousands of persons” and that “[o]nce a divorce
decree is final, it should not be disturbed by strangers
who had no preexisting rights or interests adversely
affected by such judgment); Brown v. United States,
196 F.2d 777, 777-78 (D.C. Cir. 1952) (“Appellant was
a stranger to the divorce proceedings. She had no
interest in the same; no right or standing to qualify as
a party to the proceedings and oppose a divorce”).
The rule was applied to an annulment in Deyette v.
Deyette, 92 Vt. 305, 104 A. 232 (1918). That case was a
Vermont divorce action. The wife had been previously
married, but the marriage had been annulled in New
York on grounds that the parties were underage. The
husband attempted to collaterally attack the judgment
on grounds that the wife and her first husband were
not actually underage, but the court held that he
lacked standing. 104 A. at 234.
The Court further finds that the rule of section 74(1)
is good policy. If annulment judgments are not binding
upon third parties, then there would be no such thing
as a final judgment of annulment. Persons whose
marriages are annulled would never have any security,
because the judgment would always be subject to
collateral attack by persons not parties to the original
action. For example, if a woman’s first marriage is
dissolved by annulment, and she then marries again,
the facts of the annulment would not be binding on
third parties. She would be required to prove the
merits of her annulment every time the validity of her
second marriage becomes a contested issue. That would
happen not only in her divorce action after the second
marriage, but also when she takes title to property

App. 124
with her second husband or files a joint federal or state
income tax return. The LSA’s argument boils down to
an assertion that a decree of annulment is itself a
nullity if the facts are contested.
There are strong reasons why annulments should be
binding upon all third parties on issues of status–that
is, as to the invalidity of the marriage annulled. The
Court finds that on the issue of status, the judgment
annulling Mrs. Brown’s marriage to Ahmed is binding
on all third persons, regardless of whether they were
parties to the proceedings. Specifically, on the issue of
status, the judgment is binding on Mr. Brown and his
heirs.
3. Section 74(2).
The LSA recognizes the rule of section 74(1), but
argues that this case is controlled by another rule. The
LSA at points cites section 73 for this rule, but section
73 applies only to property judgments and not to status
judgments. But the LSA also cites section 74(2), and as
noted above, that section clearly does apply to status
judgments.
The LSA argues under section 74(2) that the
annulment does not bind James Brown on issues of
fact. The LSA misconstrues section 74(2). That
subsection again provides:
A judgment in such a proceeding will not
bind anyone personally unless the court has
jurisdiction over him, and it is not conclusive as
to a fact upon which the judgment is based

App. 125
except between persons who have actually
litigated the question of the existence of the fact.
Restatement § 74(2) (emphasis added). The LSA
construes this section to hold that an in rem judgment
does not bind anyone on questions of fact. This position
sweeps too broadly.
The Restatement provides, in section 74(1), that
judgments of annulment are binding on all third
parties as to the existence of the status itself. But if a
judgment is binding on the issue of status, both its
findings and its conclusions are necessarily binding.
Indeed the LSA and Respondents claim that they are
not disputing Mrs. Brown’s status. It is nonsensical to
say that a person is bound only by a court’s conclusions,
and not by the factual findings that lead inevitably to
those conclusions. If the factual findings are not
binding, then the court in a future action is free to find
different facts and reach a different result, and nothing
is binding at all.
The LSA’s position uses section 74(2) to functionally
destroy section 74(1). The Court rejects that position.
The Court holds that where the issue is the existence
(or necessarily, the nonexistence) of a status itself, an
in rem judgment regarding status binds all third
parties. It is binding not only as to its conclusions, but
also as to its factual findings.
This result is completely consistent with section
74(2). The key phrase in that section is highlighted in
the quotation above. A judgment does not “bind anyone
personally” unless the court has jurisdiction over him.
That is, a judgment in rem cannot have the binding

App. 126
effect of a judgment in personam unless the court has
personal jurisdiction over the defendant. But a
judgment that cannot be binding in personam can still
be binding in rem. The status change itself is clearly an
in rem action, so as regards the issue of status itself,
the judgment binds anyone. But as to issues other than
status, which may require in personam jurisdiction, the
judgment is not binding.
Comment b to section 74 sheds considerable light
upon the relationship between section 74(1) and (2).
That comment states:
Personal liabilities. Although a valid judgment
in rem is binding on all the world as to the
existence of a status which is the subject of the
action, it will not bind anyone personally over
whom the court does not have jurisdiction. The
court cannot impose a personal liability upon a
person who is not subject to the power of the
court. The question of the power of the court to
impose a personal liability in a proceeding in
rem to affect a status arises most frequently in a
suit for divorce with respect to a judgment for
alimony.
Id. § 74 cmt. b (emphasis added).
The emphasized last sentence gives a direct
example of the distinction between section 74(1) and
(2). The drafters had in mind the well-known rule that
a divorce binds everyone as to the validity of the
divorce itself (and necessarily the grounds of the
divorce). But when the issue is not the existence of a
status, but rather personal liability for alimony, the

App. 127
judgment does not even bind the named defendant
unless the court had personal jurisdiction over him. See
Estin v. Estin, 334 U.S. 541, 548-49 (1948); Kreiger v.
Kreiger, 334 U.S. 555 (1948) (companion case to Estin
reaching the same result); Vanderbilt v. Vanderbilt,
354 U.S. 416 (1957).
Section 74(2), therefore, is aimed only at issues
other than the status change itself. Section 74(2) says
that on issues collateral to status, the judgment is
binding only on persons who appear, and over whom
the court has jurisdiction. Likewise, factual findings in
a status change judgment cannot be binding on issues
other than status, because those issues require
personal jurisdiction and not merely in rem
jurisdiction.
This rule makes perfect sense. In rem jurisdiction
allows the court to adjudicate only the question of
status. The status here is Mrs. Brown’s marital or nonmarital status when she married Mr. Brown. If the
order is binding, her status was unmarried. It cannot
be used as a jurisdictional piggyback to allow the court
to decide issues other than the question of status,
which are not properly a basis for in rem jurisdiction.
The effect of section 74(2) is that in rem judgments
bind third parties only as to issues that are proper
subjects for in rem jurisdiction, such as status. An in
rem judgment cannot be used to bind third parties on
an issue that is not subject to personal jurisdiction.
But the LSA seeks to give a broader effect to section
74(2). The LSA argues under section 74(2) that the
factual findings in an in rem judgment do not bind
third parties on the central issue of the status change

App. 128
itself. That is going too far. If the factual findings do
not bind third parties on issues of status, the third
parties are necessarily not bound by the entire
judgment, and section 74(1) is pointless. If section 74(1)
is to have any effect at all, an in rem judgment must be
functionally binding on all issues regarding the status
change itself. The judgment is not functionally binding
unless both its factual findings and its conclusions are
binding. To say that the latter is binding, but the
former is not, is to reject the entire premise of section
74(1).
The Court therefore holds that the annulment order
in this case binds all third parties on the question of
status itself. Third parties are bound on status issues
by both the judgment’s factual findings and its
conclusion. On issues other than the status change
itself, however, the annulment does not bind third
parties unless they were subject to the personal
jurisdiction of the court.
The cases cited by the LSA are consistent with this
discussion. For example, in Gratiot County State Bank
v. Johnson, 249 U.S. 246 (1919), the Supreme Court
held:
The [bankruptcy] adjudication is, for the purpose
of administering the debtor’s property, that is, in
its legislative effect, conclusive upon all the
world. Compare Shawham v. Wherritt, 7 How.
627, 643, 12 L. Ed. 847. So far as is [sic] declares
the status of the debtor, even strangers to the
decree may not attack it collaterally. Michaels v.
Post, 21 Wall. 398, 428, 22 L. Ed. 520; New
Lamp Chimney Co. v. Ansonia Brass & Copper

App. 129
Co., 91 U. S. 656, 661, 662, 23 L. Ed. 336.
Compare Hebert v. Crawford, 228 U. S. 204, 208,
209, 33 Sup. Ct. 484, 57 L. Ed. 800. But an
adjudication in bankruptcy, like other
judgments in rem, is not res judicata as to the
facts or as to the subsidiary questions of law on
which it is based, except as between parties to
the proceeding or privies thereto.
Id. at 248.
The LSA cites the last sentence and argues that the
Court held that the factual findings in the bankruptcy
case were not binding anywhere. But the Supreme
Court expressly held, in the first two sentences, that
the bankruptcy judgment was “conclusive upon all the
world,” id., as regards the issue of status. If the factual
findings in the bankruptcy judgment were not likewise
binding against the world, on the issue of status, then
the Court’s third sentence completely destroyed its first
two sentences. That was not the Court’s intent. Gratiot
County recognizes the same two competing rules as
section 74(1) and (2). It simply held on the facts that
the issue in the later action was not one of status.
In Hunter v. Hunter, 111 Cal. 261, 43 P. 756 (1896),
the issue was the effect of a divorce judgment. The
court held that the judgment “was conclusive against
all the world that the plaintiff in that suit was no
longer the wife of Joseph Milam, and it was an
adjudication of nothing else.” Id. at 265, 43 P. at 757.
Likewise, the present annulment is conclusive against
all the world that Mrs. Brown was never validly
married to Ahmed.

App. 130
In Becher v. Contoure Laboratories, 279 U.S. 388
(1929), the first case was a state court action to declare
a party trustee of a patent, while the second case was
a federal court action for patent infringement. The
Supreme Court very emphatically pointed out that
these were different cases, presenting different issues.
Whether the patent was placed in a trust said nothing
about whether the patent was infringed. Becher
therefore involved a collateral right, not a direct
question of status.
In Hendrick v. Biggar, 209 N. Y. 440, 442, 103 N.E.
763, 764 (1913), the issue was whether a judgment in
a divorce case finding that a spouse committed adultery
was binding in a later action for alienation of
affections. The issue in the alienation of affections case
was not the validity of the divorce; it was whether the
defendant had alienated the affections of a spouse. The
second action was therefore a question collateral to
status, on which personal jurisdiction was required.
Fromm v. Glueck, 161 Misc. 502, 293 N.Y.S. 530
(Sup. Ct. 1937), involved an in rem judgment from
another state. The case involved jurisdictional issues
not present here, where both the former and present
actions arise in South Carolina. The court also
recognized that the judgment was binding on direct
questions of status. “[I]t must be conceded that, even
though personal jurisdiction of the defendant had not
been obtained, the Court of Chancery had the full
power to decree the foreclosure of the mortgage and the
sale of the property.” Id. at 504, 293 N.Y.S. at 533.
Finally, In re Rowe’s Estate, 172 Or. 293, 141 P.2d
832 (1943), is distinguishable on several grounds. To

App. 131
begin with, the case involved a decree of divorce, not a
decree of annulment. The issue was whether a finding
of desertion in the divorce decree conclusively
established lack of access for the purpose of paternity.
The fact at issue was therefore again not the status of
marriage itself, but rather a fact collateral to status.
The court expressly held that the divorce was binding
on issues of status. “[T]he decree in a divorce suit as a
decree in rem binds the whole world as to the status of
the parties, to the extent that their status is the res
adjudicated[.]” Id. at 302, 141 P.2d at 836.
In short, all of the cases cited by the LSA recognize
the same basic two rules stated in section 74(1) and (2).
An in rem judgment binds the world on the direct
question of status. It does not bind any nonparty on
collateral issues, which are not subject to in rem
jurisdiction, and which require that the court have
personal jurisdiction over the defendant. The textbook
example, cited expressly in the Restatement comments,
is alimony in a divorce case.
Having stated the competing rules of section 74(1)
and (2), the Court must now decide which of those two
competing rules applies here. The issue presented here
is whether Mrs. Brown is Mr. Brown’s surviving
spouse. Mrs. Brown has presented a valid marriage
certificate, placing upon the Respondents the burden of
proving that her most recent marriage is invalid. They
seek to defeat Mrs. Brown’s claim by proving that her
marriage to Mr. Brown was bigamous. But it is
bigamous only if Mrs. Brown had a valid marriage to
someone else at the time she married Mr. Brown. To
prove that Mrs. Brown’s marriage to Mr. Brown was

App. 132
bigamous, the Respondents must prove that Mrs.
Brown’s marriage to Ahmed was valid.
The issue here is therefore directly one of status:
Was Mrs. Brown’s marriage to Ahmed valid? The
judgment of annulment held that it was not. The
Respondents argue that the judgment of annulment
was wrong. If the judgment of annulment was wrong,
it would obviously affect Mrs. Brown’s status. The
entire issue turns upon whether the annulment
judgment correctly held that Mrs. Brown’s status had
been that of a single person all along, because her
marriage to Ahmed was void from its inception.
Because the central issue in this case is the effect of
the annulment judgment upon Mrs. Brown’s status,
this case falls squarely under section 74(1). Section
74(2) states that the factual findings in an in rem
judgment are not binding, but only on issues other
than the status change itself, which turn upon
jurisdiction in personam and not upon jurisdiction in
rem. Section 74(2) cannot be used to attack the factual
findings of an in rem judgment on the question of status
itself. To permit that is to allow section 74(2) to
completely destroy section 74(1). Regarding the issue of
status itself, the judgment annulling Mrs. Brown’s
marriage to Ahmed is binding upon all third parties,
including Mr. Brown and his heirs.
The LSA and most, if not all, of the Respondents
agreed in their arguments before the Court that Mrs.
Brown’s marriage to Ahmed was legally annulled. They
stated that they were not questioning her status. They
agreed that the annulment order is binding “on all the
world.” Their disagreement is on the facts underlying

App. 133
the annulment. However, this Court cannot separate
the judgment from the facts. If Mrs. Brown’s marriage
to Ahmed was annulled, it was annulled on the
grounds set forth in the Order. It could not be annulled
for no reason. The factual findings are binding on direct
questions of status, although, arguably, factual
findings on collateral matters are not binding.
To that end, the Respondents have cited no case
holding that the factual findings of an annulment or
divorce are not binding when the issue being raised in
the second action is the direct question of status itself,
and not a collateral issue. For the foregoing reasons,
the Family Court Order of annulment is binding on the
Respondents.
V.

CONCLUSION.

This Court finds that the conclusion it has reached
is not unfair or inequitable to Mr. Brown or the estate.
Mr. Brown was well aware of Mrs. Brown’s annulment
action. He paid Mrs. Brown’s legal fees. He was copied
on pleadings. He sought to have the findings of fact set
forth in the annulment order adopted in his own later
annulment case. It has long been settled that a person
who accepts the benefits of even a void order is
estopped to question its validity. Edwards v. Edwards,
254 S.C. 466; 176 S.E.2d 123 (1970) (“Since [husband]
proposed the transfer of the property and has accepted
the benefits accruing to him therefrom, he is now
estopped to assert the invalidity of the judgment.”);
Scheper v. Scheper, 125 S.C. 89, 118 S.E. 178 (1923)
(“Even where one who did not procure it accepts the
benefits of a void judgment, he is estopped to assert its
invalidity.”).

App. 134
Mr. Brown knew he could pursue an annulment
from Mrs. Brown as he initiated such an action himself.
If he wanted to annul his marriage, he could have
proceeded with the action he commenced. But he
decided not to proceed with it. As he never obtained an
annulment during his lifetime, his marriage was never
annulled and he was married to Mrs. Brown at the
time of his death, certainly for the purposes of
surviving spouse pursuant to S.C. Code Ann. § 62-2802, which required him to take action. Further, in this
case, Mr. Brown affirmatively sought to benefit
specifically from the Findings of Fact in the annulment
order. These are the very Findings of Fact the LSA now
wants this Court to ignore. He alleged in his own shortlived annulment action that the “Findings of Facts of
the Charleston Family Courts” were binding.35
Therefore, it is hereby ORDERED, DECREED and
ADJUDGED that Tommie Rae Brown is the surviving
spouse of James Joseph Brown. The Family Court’s
April 15, 2004 Final Order is binding on James Joseph
Brown and his heirs and must be respected by this
Court.
It is further ORDERED, DECREED and
ADJUDGED that the Petitioner Tommie Rae Brown’s
Motion for Summary Judgment on her status as James
Joseph Brown’s wife and surviving spouse is granted,
and the Limited Special Administrator’s Motion for
Summary Judgment is denied.

35

Joint Stipulation of Facts at 000070, ¶ 10 (Mr. Brown’s Amended
Complaint for Annulment).

App. 135
It is further ORDERED, DECREED and
ADJUDGED that all other issues, including the
validity of the prenuptial agreement between Tommie
Rae Brown and James Joseph Brown are reserved for
a future determination.
This 13 day of January 2015, at Aiken, South
Carolina.
/s/ Doyet A. Early, III
DOYET A. EARLY, III
JUDGE, SECOND JUDICIAL CIRCUIT

App. 136

APPENDIX E
STATE OF SOUTH CAROLINA
COUNTY OF AIKEN
IN THE FAMILY COURT
SECOND JUDICIAL CIRCUIT
CASE NUMBER: 04-DR-02-157
[Filed: August 16, 2004]
_________________________________
JAMES JOE BROWN, JR.,
)
Plaintiff
)
)
vs.
)
)
TOMMIE RAE HYNE
)
AHMED BROWN,
)
Defendant. )
_________________________________)
CONSENT ORDER OF DISMISSAL
HEARING DATE:
PRESIDING JUDGE:
ATTORNEY FOR PLAINTIFF:
ATTORNEY FOR DEFENDANT:
COURT REPORTER:

July 22, 2004
Peter R. Nuessle
James B. Huff
Robert N. Rosen
Lisa Hicklin

This matter was scheduled to come before the Court
for a Temporary Hearing on the above listed date. Prior
to the hearing the parties informed the Court that they

App. 137
had reached an Agreement in this matter. The
Agreement is as follows:
1. The parties hereby dismiss their respective
pleadings without prejudice to either party.
2. Plaintiff will pay the sum of $12,000.00 to
Defendant for her attorney fees and costs in this
matter. This will be paid within 10 days of the filing of
this order.
3. Defendant agrees to and does hereby forever
waive any claim of a common law marriage to the
Plaintiff, both now and in the future.
4. The parties agree to seal the courts file in this
matter.
Based upon the review of the court’s file I make the
following Findings of Fact:
1. The Agreement is fair and reasonable to both
parties and should be approved by the Court.
2. The Court has considered the factors enunciated
in SCRCP 41.1. I find that sealing the Courts file in
this matter is proper. Both parties are entertainers.
The parties have mutually consented to having the case
dismissed without being litigated. The parties have
resolved their differences and are currently residing
together. As such, the parties are entitled to retain
their privacy as to the documents that have been filed
with the Court. The parties mutual request and
consent to seal the Courts file is in the best interest of
both parties, will avoid disclosure of the parties private
financial matters, avoid harm to any minor child

App. 138
involved with this case and causes no prejudice to
either party or to any public interest with this case.
Based upon these Findings of Fact, I make the
following Conclusions of Law:
1. That the parties and subject matter are properly
before and subject to the jurisdiction of this Court.
Based upon the Findings of Fact and Conclusions of
Law, it is hereby ORDERED:
a. That the agreement of the parties is approved
by this Court.
b. The Courts’ file shall be sealed and not opened
to anyone without further court order of this court
allowing such disclosure.
AND IT IS SO ORDERED:
/s/ Peter Nuessle
Honorable Peter R. Nuessle
Family Court Judge
Second Judicial Circuit
Aiken, South Carolina
This 14 day of Aug., 2004
I SO CONSENT:
/s/ James Huff
James B. Huff, Esq.
Attorney for Plaintiff

App. 139
I SO CONSENT:
/s/ Robert Rosen
Robert N. Rosen, Esq.
Attorney for Defendant

App. 140

APPENDIX F
STATE OF SOUTH CAROLINA
COUNTY OF CHARLESTON
IN THE FAMILY COURT
FOR THE NINTH JUDICIAL CIRCUIT
CASE NO. 03-DR-10-4609
[Filed: April 15, 2004]
_________________________________
TOMMIE RAE HYNIE, a/k/a
)
TOMMIE RAE BROWN,
)
)
Plaintiff,
)
)
-vs)
)
JAVED AHMED,
)
)
Defendant. )
_________________________________)
FINAL ORDER
HEARING DATE:

April 15, 2004

JUDGE:

Honorable F. P. SegarsAndrews

App. 141
ATTORNEY FOR
PLAINTIFF:
ATTORNEY FOR
DEFENDANT:

Robert N. Rosen, Esquire
Donald B. Clark, Esquire
N/A

COURT REPORTER:
This matter comes before the Court for a final
hearing on April 15, 2004.
Present before the Court were the Plaintiff, Tommie
Rae Brown, and her counsel Robert N. Rosen, Esquire,
of the Rosen Law Firm, and Donald B. Clark, Esquire,
of the Donald B. Clark Law Firm.
This matter was commenced by the filing of a
Summons and Complaint by the Plaintiff to annul her
marriage to the Defendant, Javed Ahmed.
The Plaintiff is a citizen and resident of the State of
South Carolina and has resided in South Carolina for
more than one year prior to the commencement of this
action.
The Defendant, at the time of the marriage of the
parties, was a resident of the State of Texas, and his
last known address was in Houston, Texas. After the
filing of the Summons and Complaint, the Defendant
could not be located. The Plaintiff retained the services
of a private investigator who attempted to locate the
Defendant at his last known address. The Plaintiff
testified that the last known address she had for the
Defendant was 14403 Ella Boulevard, #314 in Houston,
Texas. The private investigator found that the

App. 142
Defendant’s Texas driver’s license listed his address as
14365 Cornerstone Drive, #617, Houston, Texas.
This Court issued an Order of Publication on
February 3, 2004. This Court found that the Plaintiff
made a diligent effort to locate the Defendant, and it
appeared to the satisfaction of the Court that the
current address or whereabouts of the Defendant were
unknown although his last known address was in
Houston, Texas. The Court therefore ordered service
could be had by publication pursuant to §15-9-710 and
§15-9-740, SC Code Ann., and that the Summons would
be published once a week for a total of three weeks in
the Houston Chronicle, a newspaper of general
circulation in the area of Houston, Texas.
An Affidavit of Publication signed by the
Supervisor/Accounts Receivable of the Houston
Chronicle was filed with this Court. The Court finds
that the Defendant has been properly served by
publication pursuant to South Carolina law.
This matter was originally set to be heard on March
26, 2004, but the case was continued by Order of the
Court. The Defendant was given written notice of the
hearing by regular mail and by certified mail, return
receipt requested as appears from the affidavit of
Marcia F. Jones. The Defendant was therefore properly
notified of the final hearing pursuant to Rule 17 of the
South Carolina Rules of Family Court.
FINDINGS OF FACT
The Court finds as follows:

App. 143
1. Plaintiff is a citizen and resident of the State of
South Carolina and has resided in the State of South
Carolina for a period in excess of one year prior to the
commencement of this action.
2. Plaintiff married Defendant, Javed Ahmed, on
February 17, 1997 in Harris County, Texas. Thereafter
Defendant refused to live with Plaintiff. Plaintiff never
saw nor heard from Defendant again. Plaintiff never
lived with the Defendant. The parties never lived
together as husband and wife. The parties never
engaged in sexual intercourse, sexual conduct or sexual
activity of any kind and, therefore, failed to
consummate their marriage.
3. No children were born of this marriage between
the parties.
4. Plaintiff testified that she later learned that
Defendant, a Pakistani immigrant, wanted to marry
Plaintiff so that he could become a United States
citizen. Plaintiff also later learned that Defendant had
three or more wives to whom he was married under
Pakistani law when the parties married on February
17, 1997.
5. The Court finds there has been no contact
between the parties since shortly after February 17,
1997, and therefore there is no collusion between these
parties.
6. The marriage between the Plaintiff and the
Defendant was contracted by Plaintiff in good faith and
without any knowledge of the Defendant’s previous
marriages or fraudulent intentions.

App. 144
7. The Court finds that the Plaintiff is entitled to an
annulment for the following reasons: (1) Defendant was
already married to another woman or other women and
therefore did not have the capacity to marry the
Plaintiff; (2) Defendant perpetrated a fraud upon the
Plaintiff in that she intended in good faith to marry
Defendant but Defendant had no intention of marrying
her and consummating a marriage; and (3) the parties
did not consummate their marriage nor did they live
together as husband and wife.
8. This Court finds that the Plaintiff is therefore
entitled to an annulment of her marriage to Defendant,
Javed Ahmed.
CONCLUSIONS OF LAW
1. This Court has jurisdiction to hear and determine
actions to determine the validity of marriages and to
hear and determine actions for the annulment of
marriage. §20-7-420(5) and (6), SC Code Ann.
2. This Court has jurisdiction to grant an
annulment to the Plaintiff as she is domiciled in this
state. Foster v. Nordman, 137 S.E.2d 600 (1964).
3. The Court concludes that the uncontradicted
testimony shows that Plaintiff never cohabitated with
the Defendant and never engaged in sexual intercourse
with him and therefore, the marriage can be annulled
as it was never consummated.
4. The Court concludes that Defendant was married
at the time he entered into his marriage with Plaintiff
and therefore he lacked the capacity to marry Plaintiff.

App. 145
5. The Court concludes that Defendant represented
to Plaintiff that he wished to marry her, but in fact he
married her for a fraudulent purpose in an effort to
obtain United States citizenship. A marriage which is
procured by fraudulent means may be annulled in this
state. Jaker v. Jaker, 102 S. E. 337 (1919).
6. The Court concludes that it has jurisdiction of the
subject matter and of the parties.
7. The Court concludes that it has jurisdiction of the
Defendant for the purposes of this proceeding and that
the Defendant had been properly served and notified of
this hearing. It is therefore,
ORDERED, ADJUDGED AND DECREED that
the Plaintiff is entitled to an order and judgment
annulling the marriage between the Plaintiff and the
Defendant solemnized on February 17, 1997. It is
further
ORDERED, ADJUDGED AND DECREED that
the marriage between Tommy Rae Hynie a/k/a Tommie
Rae Brown and Javed Ahmed is annulled. It is further,
ORDERED, ADJUDGED AND DECREED that
the marriage between Plaintiff and Defendant be, and
is hereby, declared to be wholly null and void ab initio,
and the parties are, and each of them is, freed from the
obligations of such marriage.
AND IT IS SO ORDERED!
/s/ Segars Andrews
F.P. SEGARS-ANDREWS

App. 146
JUDGE OF THE FAMILY COURT
NINTH JUDICIAL CIRCUIT
Charleston, South Carolina
April 15, 2004

App. 147

APPENDIX G
The Supreme Court of South Carolina
Appellate Case No. 2018-001990
[Filed: August 24, 2020]
______________________________________
In Re: The Estate of James Brown a/k/a )
James Joseph Brown.
)
)
Tommie Rae Brown,
)
Respondent,
)
)
v.
)
)
David C. Sojourner, Jr., in his capacity
)
as Limited Special Administrator and
)
Limited Special Trustee,
)
Deanna Brown-Thomas,
)
Yamma Brown, Venisha Brown,
)
Larry Brown, Terry Brown,
)
and Daryl Brown,
)
Defendants,
)
_______________________________________)
Of whom Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown are the Petitioners.
ORDER
After careful consideration of the petition for
rehearing, the Court is unable to discover any material
fact or principle of law that has been either overlooked

App. 148
or disregarded. Accordingly, the petition for rehearing
is denied.
/s/_______________________ C.J.
/s/_______________________ J.
/s/_______________________ J.
/s/_______________________ J.
Few, J., not participating
Columbia, South Carolina
August 24, 2020
cc: Robert N. Rosen, Esquire
S. Alan Medlin, Esquire
Thomas Heyward Carter, Jr., Esquire
Andrew W. Chandler, Esquire
M. Jean Lee, Esquire
David Lawrence Michel, Esquire
Arnold S. Goodstein, Esquire
Robert C. Byrd, Esquire
Marc Toberoff, Esquire
Alyson Smith Podris, Esquire
Katon Edwards Dawson, Jr., Esquire
Gerald Malloy, Esquire
Daryl J. Brown
Michael Deon Brown
Terry Brown

App. 149

APPENDIX H
THE STATE OF SOUTH CAROLINA
In the Supreme Court
APPEAL FROM AIKEN COUNTY
Court of Common Pleas
Doyet A. Early III, Circuit Court Judge
Trial Court Case Nos. 2013-CP-02-02849 and
2013-CP-02-02850
Appellate Case No. 2015-002417 (Court of Appeals)
Appellate Case No. 2018-001990 (Supreme
Court)
[Filed: July 1, 2020]
In Re:

The Estate of James Brown a/k/a James
Joseph Brown.
__________________________________________
Tommie Rae Brown,
)
Respondent,
)
)
v.
)
)
David C. Sojourner, Jr., in his capacity as
)
Limited Special Administrator and
)
Limited Special Trustee,
)
Deanna Brown-Thomas, Yamma Brown,
)
Venisha Brown, Larry Brown, Terry Brown, )
Michael Deon Brown, and Daryl Brown,
)
Defendants,
)
)

App. 150
Of whom Deanna Brown-Thomas,
)
Yamma Brown, and Venisha Brown are the )
Petitioners.
)
__________________________________________)
TOMMIE RAE BROWN’S PETITION FOR
REHEARING PURSUANT TO RULE 221(a),
SCACR
[pp. 16]
V.

*

*

*

*

*

The Court Discriminates Against Mrs.
Brown by Applying Its Newly-Minted
“Record-Clearing” Bigamous Marriage
Analysis Only to the Brown-Brown
Marriage

Although the Court misapprehends case precedent
and legislative intent in its “record-clearing” analysis
of bigamous marriages, as well as the chaos its new
rule will create, the Court mistakenly applies its
analysis only to the Brown-Brown marriage and not to
the Brown-Ahmed marriage. In Part IIB of the
Opinion, the Court reasons that the Brown-Brown
marriage is invalid because Mrs. Brown was previously
married to Ahmed and did not get an annulment –
“clear the record” – from Ahmed until after her
marriage to Mr. Brown. Thus, according to the Court,
Mrs. Brown’s attempted marriage to Mr. Brown was
never valid.
The Court mistakenly, however, fails to apply its
own new rule to the Brown-Ahmed marriage. Applying
the Court’s own rule to the Brown-Ahmed marriage
would mean that Mrs. Brown was never married to

App. 151
Ahmed because Ahmed failed to obtain any annulment
– clear the record – before the attempted marriage to
Mrs. Brown, meaning – again according to the Court’s
own new rule – that there was never a valid marriage
between Mrs. Brown and Ahmed. Consequently,
applying the Court’s new rule to the Brown-Ahmed
marriage, Mrs. Brown was never married to Ahmed
and never had an impediment to her marriage to Mr.
Brown. The Court’s mistaken application of this new
rule to only the Brown-Brown marriage constitutes a
denial of Equal Protection to Mrs. Brown and her
constitutional right to marry.
If the Court is going to apply a new “recordclearing” rule, it must be applied to every attempted
marriage in which one person was already married
without having “cleared the record.” The Court
mistakenly failed to do so for the Brown-Ahmed
marriage and thus discriminated against Mrs. Brown
(as well as Mr. Brown who intended to be married to
Mrs. Brown). The Court cannot pick and choose which
marriage to apply the new record-clearing rule; the rule
must apply uniformly, not disparately just to obtain a
certain result in a certain case.
VI.

The Court Denied Equal Protection and
Due Process to Mrs. Brown by Applying Its
Newly-Minted “Record-Clearing” Bigamous
Marriage Analysis Only to Her and Not Mr.
Brown

As a corollary to the discussion in Part V. above, the
Court mistakenly applied its new record-clearing rule
analysis to Mrs. Brown and not Mr. Brown. In effect,
the Court ruled that Mrs. Brown was married to

App. 152
Ahmed until she obtained an annulment – “cleared the
record” – even though she was innocently entering into
a marriage with someone (Ahmed) already married.
However, the Court mistakenly failed to apply that
same rule to Mr. Brown. If it had applied the same
analysis to him, Mr. Brown would be married to Mrs.
Brown – who according to the Court was already
married – until he obtained an annulment and cleared
the record. He never obtained an annulment,20 so
according to the Court’s own analysis, Mr. Brown was
married to Mrs. Brown at the time of his death.
VII.

The Court Discriminates Against Mrs.
Brown by Applying Its Newly-Minted
Construction of Section 20-1-80 Only to the
Brown-Ahmed Marriage

Although the Court misapprehends case precedent
and legislative intent in its new construction of the
language of Section 20-1-80, as well as the chaos its
new construction will create, the Court mistakenly
applied its analysis of Section 20-1-80 only to the
Brown-Brown marriage and not to the Brown-Ahmed
marriage. The Opinion mistakenly treats language in
the second sentence of Section 20-1-80 – “But this
section shall not extend to a person whose husband or
wife shall be absent for the space of five years, the one
not knowing the other to be living during that time, not
[sic] to any person who shall be divorced or whose first
marriage shall be declared void by the sentence of a

20

Nor, as discussed above at Part III, could his children obtain
after his death an annulment he chose not to obtain while he was
alive.

App. 153
competent court” – as a predicate to construing the first
sentence of that section – “All marriages contracted
while either of the parties has a former wife or
husband living shall be void.” – in finding that one
must have an annulment before a bigamous marriage
is void as a bigamous marriage.21 Even if that
construction were not mistaken, however, the Court
applies the rule only to the Brown-Ahmed marriage
and not to the Brown-Brown marriage. The Court
construes the language of Section 20-1-80 to require an
annulment before the first sentence of that section
becomes operative and invalidates a bigamous
marriage. Consistent with the discussion at Parts V
and VI above, the Court mistakenly applies this
construction of the statute to the Brown-Ahmed
marriage but not the Brown-Brown marriage. If the
Court applied the same construction to the BrownBrown marriage, it would mean that Mr. Brown – who
never obtained an annulment – did not trigger the
predicate language in the second sentence of the
section to render the Brown-Brown marriage bigamous
and void under the first sentence of the section. The
Court mistakenly applied its own new construction
only to the Brown-Ahmed marriage, which constitutes
an unequal treatment of Mrs. Brown and her
constitutional right to marry.

21

As noted below, this contradicts this Court’s own statement in
Lukich that the first sentence overrides the exceptions: “Wife
would distinguish Day since it involves the first exception to the
bigamy statute rather than the third. What is important about Day
is not the exception, but rather the rule: the bigamous marriage is
not a marriage at all.” (emphasis added).

App. 154
VIII. The Court Discriminates Against Mrs.
Brown by Applying Its Newly-Minted
Construction of Lukich Differently to Mrs.
Brown
In its explanation of its decision in Lukich, the
Court mistakenly ignores and fails to incorporate into
its analysis its treatment of the bigamous second
marriage in Lukich, which it found void ab initio even
though the husband in the bigamous second marriage
did not obtain an annulment until many years after the
marriage ceremony. This Court in Lukich did not rule
that the second marriage was bigamous only from the
time of the annulment; rather, this Court ruled that
the second marriage was void ab initio.22 Thus, this
Court’s new treatment of bigamous marriages for Mrs.
Brown – that she is married until she obtains an
annulment – is different from its treatment of a
bigamous marriage in Lukich – that the bigamous
marriage was void ab initio even though the second
husband did not “clear the record” for 18 years – as
well as different from this Court’s treatment of every
bigamous marriage in every other case it has decided.23

22

“Since there was no marriage under the plain terms of the
statute when the ceremony between Wife and Husband #2 was
performed in 1985, there was nothing to be “revived” by the
annulment order [from Husband #1] in 2003.”
23

See Respondent’s Brief pp. 32-37.

App. 155
IX.

This Court has Violated Respondent’s
Right to Due Process of Law and Equal
Protection of the Law by Adopting and
Applying New Rules to Her Marriage
Instead of Adopting New Rules
Prospectively, Depriving Mrs. Brown of her
Constitutional Rights Despite the Court’s
Lack of Subject Matter Jurisdiction.

It is undisputed that Mrs. Brown obtained an
annulment from Ahmed with Mr. Brown’s financial
assistance and with his actual knowledge. (Joint
Stipulation, ROA p. 257). The order declared her
bigamous marriage void ab initio. Overturning all
precedent and ignoring legislative intent and public
policy that bigamous marriages are void ab initio, this
Court has now adopted new rules which allow
bigamous marriage in South Carolina and has
invalidated Mrs. Brown’s marriage without subject
matter jurisdiction. The Court also adopted new
requirements to the annulment process by requiring
that state laws about marriage certificates be strictly
observed, even though those requirements have
nothing to do with the application of the bigamy
statute. These new rules impinge on Respondent’s
federal constitutional rights.
In Lawrence v. Texas, 539 U.S. 558 (2003), the
United States Supreme Court declared:
It is a promise of the Constitution that there is
a realm of personal liberty which the
government may not enter. We have vindicated
this principle before. Marriage is mentioned
nowhere in the Bill of Rights and interracial

App. 156
marriage was illegal in most States in the 19th
century, but the Court was no doubt correct in
finding it to be an aspect of liberty protected
against state interference by the substantive
component of the Due Process Clause in Loving
v. Virginia, 388 U.S. 1, 12, 87 S. Ct. 1817, 1824,
18 L. Ed. 2d 1010 (1967). Planned Parenthood of
Se. Pa. v. Casey, 505 U.S. 833, 847-48 (1992).
In a long line of cases, we have held that, in
addition to the specific freedoms protected by
the Bill of Rights, the “liberty” specially
protected by the Due Process Clause includes
the rights to marry, Loving v. Virginia, 388 U.S.
1, 87 S. Ct. 1817, 18 L. Ed. 2d 1010 (1967); to
have children, Skinner v. Oklahoma ex rel.
Williamson, 316 U.S. 535, 62 S. Ct. 1110, 86 L.
Ed. 1655 (1942); to direct the education and
upbringing of one’s children, Meyer v. Nebraska,
262 U.S. 390, 43 S. Ct. 625, 67 L. Ed. 1042
(1923); Pierce v. Society of Sisters, 268 U.S. 510,
45 S. Ct. 571, 69 L. Ed. 1070 (1925); to marital
privacy, Griswold v. Connecticut, 381 U.S. 479,
85 S. Ct. 1678, 14 L. Ed. 2d 510 (1965); to use
contraception, ibid.; Eisenstadt v. Baird, 405
U.S. 438, 92 S. Ct. 1029, 31 L. Ed. 2d 349 (1972);
to bodily integrity, Rochin v. California, 342
U.S. 165, 72 S. Ct. 205, 96 L. Ed. 183 (1952), and
to abortion, Casey, supra.
Washington v. Glucksberg, 521 U.S. 702, 720 (1997).
The South Carolina appellate Courts have not had
occasion to consider whether a similar liberty interest
exists under the South Carolina State constitution. But

App. 157
language essentially identical to the Fourteenth
Amendment is contained in S.C. Const. art. I, Sec. 3.
The only South Carolina case to cite Lawrence
expressly recognized a constitutional right to freedom
of choice in sexual matters:
[I]n terms of due process and equal protection
the “right to privacy” has come to mean a right
to engage in certain highly personal activities.
More specifically, it currently relates to certain
rights of freedom of choice in marital, sexual,
and reproductive matters . . . . Ronald D.
Rotunda & John E. Nowak, 3 Treatise on
Constitutional Law: Substance and Procedure §
18.26 (3d ed.) (1999); see also, e.g., Griswold v.
Connecticut, 381 U.S. 479, 485, 85 S. Ct. 1678,
14 L. Ed. 2d 510 (1965) (recognizing a “right of
privacy” in marriage stemming from the “zone of
privacy created by several fundamental
constitutional guarantees”); Roe v. Wade, 410
U.S. 113, 153, 93 S. Ct. 705, 35 L. Ed. 2d 147
(1973) (holding that right of privacy in matters
concerning procreation and family “is broad
enough to encompass a woman’s decision
whether or not to terminate her pregnancy”);
Moore v. City of East Cleveland, 431 U.S. 494, 97
S. Ct. 1932, 52 L. Ed. 2d 531 (1977) (invalidating
ordinance that barred certain family living
arrangements); Lawrence v. Texas, 539 U.S. 558,
123 S. Ct. 2472, 156 L. Ed. 2d 508 (2003)
(holding that a statute making it a crime for two
persons of the same sex to engage in certain
intimate sexual conduct violates the “right of

App. 158
privacy” guaranteed by the Due Process Clause of
the Fourteenth Amendment).
Burton v. York County Sheriffs Dep’t, 358 S.C. 339, 594
S.E.2d 888, 896 (Ct. App. 2004) (emphasis added).
The precise standard for determining when state
pursuit of a legitimate interest inflicts unnecessary
collateral harm upon a liberty interest depends upon
whether the liberty interest is fundamental. When a
fundamental interest is involved, such as Mrs. Brown’s
right to marry and remain married, state action must
be narrowly tailored to inflict the smallest harm
possible upon the liberty interest. Where a
fundamental interest is not involved, there must still
be a “reasonable fit” between the state action and the
means chosen to advance that purpose. See, e.g., Reno
v. Flores, 507 U.S. 292, 305 (1993).
Here, Mrs. Brown and her husband Mr. Brown by
a ceremonial marriage agreed to formally confirm that
their marriage was legal by way of an annulment of her
prior invalid marriage, which Mr. Brown paid for and
was kept apprised of. Mr. Brown never obtained an
annulment of his marriage to Mrs. Brown. Mrs. Brown
had the right to rely on her due process right to have a
court declare the status of her marriage for all
purposes. That fundamental constitutional right was
taken from her by the Court’s opinion. The State has no
compelling interest in depriving Mrs. Brown of Due
Process by adopting rules retroactively which
substantially impact her and the beneficiaries of her
husband’s Charitable Trust.

App. 159
As this Court pointed out in Russo v. Sutton, 310
S.C. 200, 422 S.E.2d 750 (1992), “the legislature cannot
create a statute which applies retroactively to divest
vested rights.” 310 S.C. at 205 n.5, 422 S.E.2d at 753.
Neither can this Court do so. In Stone v. Thompson,
428 S.C. 79, 833 S.E.2d 266 (S.C. 2019), this Court
changed the law on common law marriage, but wisely
and fairly applied that change prospectively and not
retroactively.
This Court stated in Stone:
The Pennsylvania Commonwealth Court . . . also
elected to apply its decision purely
prospectively. . . . The court weighed the purpose
of its new rule, the level of reliance on the old
rule, and the impact on judicial function by
retroactive application. Id. at 1238. The
Pennsylvania Court noted the benefits of the
new rule should not undermine relationships
which were validly entered into at the time, and
upending formerly-correct decisions of law
served the interests of no one. The court also
concluded the old rule had been in effect for such
a length of time that citizens undoubtedly relied
upon it, including the parties before the court.”
Id. at 87, 833 S.E.2d at 270.
The Court in Stone likewise declined to exercise its
prerogative to apply its ruling retroactively.
Accordingly, the Court applied its ruling prospectively
only. Stone v. Thompson, 428 S.C. 79, 833 S.E.2d 266
(S.C. 2019).

App. 160
To avoid divesting Mrs. Brown of vested rights and
impinging on her constitutional rights, this Court
should apply any new rule and its ruling prospectively
only, and hold that Mrs. Brown is the surviving spouse.
See Part XII.
[pp. 29]

*

*

*

*

*

F. Even If the New Record-Clearing Rule Is
Correct, the Court Fails to Apply its New
Rule to the Brown-Ahmed Marriage
Even if the new record-clearing rule is not the result
of mistake and misapprehension, the Court fails to
apply its rule to the Brown-Ahmed marriage. Ahmed
failed to clear the record of his marriages before he
attempted to enter into the bigamous marriage with
Mrs. Brown. Because he failed to clear the record, he
was not “clear” to marry Mrs. Brown and that
attempted marriage was never valid.
XI.

The Court Is Mistaken About In Rem
Judgments and Collateral Estoppel

The majority’s discussion of in rem judgments and
collateral estoppel, which the concurrence presumably
believes is unnecessary given the Court’s creation of
the record-clearing rule for bigamous marriages, is
internally inconsistent. The in rem judgment/collateral
estoppel discussion is unnecessary, but for a different
reason: Petitioners do not have standing under South
Carolina law to attack the annulment action, as
discussed in Part III above, regardless of general issues
of in rem judgments and collateral estoppel. Moreover,
in his annulment action, Mr. Brown adopted and

App. 161
accepted the findings of fact from the Brown-Ahmed
annulment order. Standing at best in his shoes,
Petitioners cannot be allowed to take an action
contrary to Mr. Brown: he accepted the facts that the
majority now allows Petitioners to attack.35
Nevertheless, the majority’s mistaken approach to
in rem judgments further harms Mrs. Brown and
creates further general chaos.
The majority distinguishes the effect of an in rem
judgment as to status – which it recognizes is binding
on the world – and as to underlying facts, which the
majority concludes is fair game for anyone not a party
to the in rem judgment to attack. In so doing, the
majority mistakenly fails to recognize that, as to the
issue of the validity of a marriage and its impact on the
validity of future marriages, the status of the parties to
the in rem judgment is all that matters.36 In Mrs.
Brown’s case, her status as to whether she was married
or not before she married Mr. Brown is what matters,
and all that matters. Despite Petitioners’ lack of
standing,37 the Court allows Petitioners to attack the
underlying facts, but, as this Court and Petitioners
readily agree, status is not subject to attack. Thus,
regardless of how Petitioners might attack the
underlying facts, it is the status – which is not subject
to attack – that is all that matters in this case: was
Mrs. Brown married or not at the time she married Mr.
35

See the discussion at Part III.

36

See Respondent’s brief pp. 21-30.

37

See Part III above.

App. 162
Brown? The family court in this case determined, and
ordered, that her status was unmarried due to bigamy
on Ahmed’s behalf.38 Again, most people are divorced in
South Carolina in uncontested or default proceedings,
yet their decrees are valid as against all the world.
When a litigant divorces on the ground of adultery or
physical cruelty that decree and factual basis cannot be
attacked later. This opinion opens the floodgates of
litigation.
Another significant problem with the Court allowing
Petitioners to attack the underlying facts of an
annulment action, to which their father could not be a
party39 (or anyone other than Mrs. Brown and Ahmed
for that matter), is that Mrs. Brown or any future party
to an annulment action cannot with confidence ever
marry again. For example, assume Mrs. Brown marries
next month. Ten years later, she and her new husband
decide to divorce, but the new husband does not want
to pay alimony, so he contests the validity of the
Ahmed annulment which, after all, he can do because
he was not a party to the annulment action. The result
of the Opinion is that Mrs. Brown cannot now enter
into a legally binding marriage with certainty – a
decision which clearly results in a denial of her Due
Process rights under the United States Constitution.
The same would apply to Mr. Brown if he had obtained
his annulment from Mrs. Brown and then decided to
marry someone else. The record-clearing rule would
thus punish innocent parties to a bigamous marriage:
38

ROA pp. 295-296.

39

See discussion at Part III above.

App. 163
Mrs. Brown in the Ahmed-Brown marriage, and in the
resulting situation from the Opinion, Mr. Brown in the
Brown-Brown marriage, had he survived.
This disastrous precedent could apply to anyone
who has been through an annulment or, for that
matter, a divorce, which is also an in rem action
determining status. Using the Court’s in rem analysis
as precedent, any third party marrying someone who
has gotten a divorce or annulment can later decide to
attack the divorce or annulment – at least as to
underlying facts – because this Court now allows
someone not a party to the divorce or annulment to
attack it. Presumably, family courts in the future will
be asked to decide many such cases. The Opinion of
this Court fails to recognize that, under applicable law
and relevant commentary, an in rem judgment as to
divorce and annulment binds the world as to status
and precludes any type of attack by someone not a
party to the in rem judgment as to status, except in
narrow circumstances not applicable to this case.40
The Court and Petitioners recognize that the family
court annulment order itself is not subject to collateral
attack. This is all that is needed to know that the
Brown-Ahmed marriage was bigamous because that
was the family court’s conclusion of law and its order as
to status: Mrs. Brown was in a bigamous marriage
which was void ab initio. The Opinion offers a number

40

See Respondent’s Brief, p. 23. note 36.

App. 164
of facts41 that appear to be designed to undermine Mrs.
Brown’s testimony in the family court, yet this Court
does not – and does not have the subject matter
jurisdiction to – invalidate the family court order as to
status. Nor are those facts properly before the Court.42
The summary judgment for Mrs. Brown in the trial

41

The Court does so even though the summary judgment was
based on a joint stipulation of facts. ROA pp. 255. The Court
nevertheless cites such “facts” as an affidavit by an attorney in the
case who claimed to have talked with Ahmed in Pakistan but who,
according to another unrelated person’s affidavit, refused to give
an affidavit or be deposed. These affidavits obviously are
inadmissible, although if they were true, it tells us that Ahmed
was aware of the annulment action for many years yet has not
bothered to appeal it. The Court’s Opinion fails to consider the
impact on Ahmed, who may have been relying on the annulment
and may have married afterwards. See Respondent’s Brief p. 7.
This is just another example of the chaotic precedent the Court has
created. Yet the Court refuses to give weight to evidence, such as
his autobiography, of Mr. Brown’s expressed understanding that
he was married to Mrs. Brown and happy about it. The Court also
notes that the consent dismissal of the annulment action contains
language in which Mrs. Brown purportedly prospectively waives
her right to a common law marriage. That has no bearing on this
case, which involves a licensed marriage. Moreover, one cannot
prospectively waive a constitutional right to many.
42

Given that this case is before the Court on summary judgment,
there was never any hearing or other determination of facts in this
case, other than those stipulated for summary judgment. The
relevant facts were determined in the family Court, which result
is not on appeal in this case. Nor, for family law in rem status
binding the world, should it matter whether there is a default
judgment. If so, a spouse who for example gets a default divorce
based on abuse/cruelty would have to re-open those painful issues
when a third party is allowed to collaterally attack the validity of
the divorce.

App. 165
court and affirmed by the Court of Appeals, holding
that she is the surviving spouse, was based on the law
and stipulated facts; the stipulated facts do not include
the facts referred to in footnote 41 herein. The Opinion
of this Court does not expressly override findings of
fact. Nor does this Court have the subject matter
jurisdiction to override those findings of fact.43 So the
Opinion’s discussion of these facts appears to prejudice
Mrs. Brown, but has no substantive impact on the
decision. The Court fails to mention facts in the record
that support Mrs. Brown, such as Mr. Brown’s
autobiography – published after the consent dismissal
of his annulment action – and Mrs. Brown’s belief that
she had gotten the Brown-Ahmed marriage annulled
before she married Mr. Brown,44 not to mention Mr.
Brown’s own allegations in the Aiken County Family
Court in his later-filed annulment action in Aiken
County against Mrs. Brown and said that “the Findings
of Facts of the Charleston Family Courts are binding
on [the Aiken County Family] Court” (ROA VOL. I, p.
258 at ¶ 19, p. 334) and that “[Mrs. Brown] is
collaterally and judicially estopped from denying the
allegations in this action.” (ROA VOL. I, p. 334 at ¶ 11).
Mr. Brown clearly accepted the benefits of the
Charleston County Family Court Order when he
utilized the Order to advance his own position in the
Aiken County action. This is the essence of estoppel.
This Court has invalidated the order issued by the
family court judge who actually heard the case.
43

See discussion at Part II above.

44

See ROA pp. 304 – 308; 150-154.

App. 166
Problematically, the Court and Petitioners recognize
that in rem judgments as to status cannot be attacked
by third parties and are binding on the world, yet the
Court actually allows the status to be attacked:
“alleged bigamous marriage of Respondent’s first
marriage was never established in this estate matter.”
Despite recognizing the law is to the contrary, the
Court invalidates the in rem annulment order as to
status for this “estate matter.” The precedent set will
allow courts in the future to invalidate in rem status
order, such as divorce, for any other “matter.” The
decision deprives Mrs. Brown of her statutory rights,
Mrs. and Mr. Brown of their constitutional right to
marry, and Mrs. Brown (and ultimately the Charitable
Trust) of her federal copyright interests.
XII.

Mrs. Brown’s Rights Vested at Mr. Brown’s
Death in Accordance with the Law in
Effect at the Time of His Death; the New
Record-Clearing Rule Should Only Apply
Prospectively

The Court mistakenly applies its new rule
retroactively to Mr. Brown’s date of death. However,
Mrs. Brown’s rights vested according to the law in
effect at the date of Mr. Brown’s death, when no case or
statute imposed a record-clearing rule. The Court’s new
rule cannot apply to the marriage of Mr. and Mrs.
Brown, but would have to be applied prospectively only.
Otherwise, the Court is divesting vested rights. See
S.C. Code Ann. § 62-1-100(b)(4) (substantive right in a
decedent’s estate accrues in accordance with the law at
date of death); Boan v. Watson, 281 S.C. 516, 316
S.E.2d 401 (1984); Wilson v. Jones, 281 S.C. 230, 314

App. 167
S.E.2d 341 (1984); Stone v. Thompson, 428 S.C. 79, 833
S.E.2d 266 (S.C. 2019).
XIII. Conclusion
Again, James Brown died knowing that he was
married to Mrs. Brown. We know this because of what
he did and what he did not do. He knew about Mrs.
Brown’s putative marriage to Ahmed and even brought
an action to annul his marriage to Mrs. Brown (after he
paid for her annulment action in the Brown-Ahmed
matter), but he dismissed his annulment action by
consent. He could not have thought that the annulment
action was unnecessary to terminate his marriage to
Mrs. Brown because the law at that time – before
Lukich and this Court’s record-clearing rule – would
not have invalidated their marriage; in any event, if he
wanted to invalidate their marriage, why not pursue
the annulment to conclusion, and if the law invalidated
their marriage without an annulment, then why bring
the action in the first place? After all the family court
actions, he made numerous public pronouncements,
such as the publication of his autobiography,
confirming that Mrs. Brown was his wife. After the
family court actions, he never brought another
annulment action.
Not one piece of evidence in the record or cited by
this Court indicates or even implies that he did not
think he was married to Mrs. Brown when he died. The
Opinion decimates the Charitable Trust that this Court
recognized he wanted when he died and diverts
extremely valuable federal termination rights proceeds
from that Charitable Trust to Petitioners, who were
beneficiaries of only some personal property in his will.

App. 168
Although the federal termination rights operate by
federal law, his treatment of his children in his will –
executed before his marriage to Mrs. Brown – indicates
that he did not want them to benefit significantly, and
certainly evidences that he did not want them
becoming even wealthier at the expense of needy
children who would take under the Charitable Trust.
Overriding what Mr. Brown understood and wanted
when he died – that he was married to Mrs. Brown and
that his Charitable Trust would flourish – this Court
has done the opposite of honoring James Brown and his
legacy. To do so, it ignored its lack of subject matter
jurisdiction; it ignored the lack of Petitioners’ standing;
it reversed all case precedent holding that a bigamous
marriage is never valid (the Brown-Ahmed marriage
was never valid); it reversed the order of a family court
not properly before it on appeal; it rejected the public
policy that a bigamous marriage is never valid; it
ignored the plain language of a statute; it created a
new rule that allows a bigamous marriage to be valid;
it opened the door for third parties to contest in rem
status rulings about marriages, divorce, and
annulments, creating a precedent for chaos and
uncertainty for marital status; and it applied its new
rule selectively and disparately to invalidate the
Brown-Brown marriage but not to invalidate the
earlier Brown-Ahmed marriage (which would be
invalid under the existing law as well as under a
uniform application of the Court’s new rule). It would
not be proper for a court to do all of that even to honor
a decedent’s wishes; it is certainly not proper for a
court to do all of that to override a decedent’s wishes.

App. 169
Mrs. Brown hereby respectfully requests that this
Court reverse Opinion No. 27982 issued June 17, 2020,
and re-issue an Opinion consistent with the requests
set forth above.
Respectfully Submitted,
/s S. Alan Medlin
S. Alan Medlin (Bar No. 3924)
1713 Phelps Street
Columbia, SC 29205
803-920-1181
amedlin@sc.rr.com
Robert N. Rosen (Bar No. 4918)
Rosen Law Firm, LLC
18 Broad Street, Suite 201
Charleston, SC 29401
(843) 377-1700
rnrosen@rosen-lawfirm.com
Gerald Malloy (Bar No. 12033)
Malloy Law Firm
P.O. Box 1200
Hartsville, South Carolina 29551
843-339-3000
T. Heyward Carter, Jr. (Bar No. 001156)
Andrew W. Chandler (Bar No. 69388)
M. Jean Lee (Bar No. 11209)
Evans, Carter, Kunes & Bennett
115 Church Street
P.O. Box 369
Charleston, SC 29402

App. 170
David L. Michel (Bar No. 13578)
Michel Law Firm, LLC
751 Johnnie Dodds Blvd., Suite 200
Mt. Pleasant, SC 29464
Arnold S. Goodstein (Bar No. 2212)
Goodstein Law Firm, LLC
P.O. Box 2350
Summerville, SC 29484-2350
ATTORNEYS FOR PETITIONER
TOMMIE RAE BROWN

App. 171

APPENDIX I
THE STATE OF SOUTH CAROLINA
In the Supreme Court
APPEAL FROM AIKEN COUNTY
Court of Common Pleas
Doyet A. Early III, Circuit Court Judge
Trial Court Case Nos. 2013-CP-02-02849 and
2013-CP-02-02850
Appellate Case No. 2015-002417 (Court of Appeals)
Appellate Case No. 2018-001990 (Supreme
Court)
[Filed: March 28, 2019]
In Re:

The Estate of James Brown a/k/a James
Joseph Brown,
__________________________________________
Tommie Rae Brown
)
Respondent,
)
)
v.
)
)
David C. Sojourner, Jr., in his capacity as
)
Limited Special Administrator and
)
Limited Special Trustee,
)
Deanna Brown-Thomas, Yamma Brown,
)
Venisha Brown, Larry Brown,
)
Terry Brown, and Daryl Brown
)
Respondents below, )
)

App. 172
Of whom Deanna Brown-Thomas,
)
Yamma Brown, and Venisha Brown
)
are the
)
Appellants.
)
__________________________________________)
RESPONDENT’S BRIEF
[pp. 26]

*

*

*

*

*

The cases cited by Appellants involve situations in
which a party argued that factual findings on one
action were binding in a later action involving a
completely different issue.43 Here, both cases involve
the exact same issue. Moreover, and more importantly,
the family court has exclusive subject matter
jurisdiction over annulments, while the Court of
Common Pleas has no jurisdiction over annulments at
all. The cases cited by Appellants therefore do not
apply.
Because annulment judgments are binding upon all
third parties, the courts below properly held that the
annulment in this case is binding upon Appellants.

43

See Gratiot County State Bank v. Johnson, 249 U.S. 246 (1919)
(first case was a bankruptcy action and the second was as an
action to set aside a transfer to creditors); Becher v. Contoure
Labs., 279 U.S. 388 (1929) (the first case was a state court action
to a declare a party as trustee of a patent, and the second case was
a federal court action for patent infringement).

App. 173
[pp. 36]

*

*

*

*

*

Appellants argue against following the bigamy
statute and all precedent.51 They want this Court to
create a new rule that a bigamous marriage is effective
until a court order finds it invalid. Their proposed new
rule would result in chaos for relationships and related
rights and certainly violate the strong public policy
against bigamy. Even if the Court would adopt their
theory and create new law, the new rule could not
apply to the marriage of Mr. and Mrs. Brown, but
would have to be applied prospectively only. See Boan
v. Watson, 281 S.C. 516, 316 S.E.2d 401 (1984); Wilson
v. Jones, 281 S.C. 230, 314 S.E.2d 341 (1984).

51

Appellants argue that the Court of Appeals in Lukich intended
to hold that an annulment cannot retroactively invalidate a
marriage, and therefore must prospectively validate the marriage,
based upon material in a quotation from American Jurisprudence
2d. It would be remarkable if the Court of Appeals intended that
language to be controlling, as that court expressly stated in
footnote 2 that its holding did not apply to marriages that were
void ab initio. Moreover, American Jurisprudence 2d expressly
adopts Mrs. Brown’s position: “A person who has entered into a
marriage that is void, as distinguished from one that is merely
voidable, may thereafter legally enter into another marriage
without taking any steps to have the first marriage dissolved.
However, where a prior marriage is voidable, a second marriage
generally cannot be entered into until the prior marriage has been
legally dissolved.” 52 Am. Jur. 2d Marriage, § 58 (emphasis added).
This language reaches the exact same result as footnote 2 in the
Court of Appeals opinion in Lukich. The earlier marriage is never
valid if the marriage is void ab initio, but is invalid only
prospectively if the marriage is only voidable. A bigamous
marriage, of course, is void ab initio.

App. 174
[pp. 39]

*

*

*

*

*

Appellants prevail only if their construction of Lukich
applies to one marriage (between Mrs. Brown and
Ahmed) but not to another marriage (between Mrs.
Brown and Mr. Brown). There is no reason to apply
different constructions of Lukich to different
marriages.57 Moreover, under Appellants’ incorrect
analysis of the treatment of bigamous marriages, even
if a posthumous annulment order were obtained (even
thought that is not possible), such an order would be
prospective only from the date it was obtained, so that
Mr. Brown would nevertheless be married to Mrs.
Brown on his death, the date when his surviving
spouse is determined.58 Appellants thus get hoisted by
their own petards.

57

This also demonstrates just one of countless examples that
following Appellants’ tortured and incorrect construct of the
treatment of bigamous marriages would create the chaos warned
about in Lukich. Following the statutory requirement and the
holdings of every appellate decision in South Carolina
jurisprudence, bigamous marriages are void ab initio. But if
Appellants’ construct were correct – that bigamous marriages are
valid until a court order and then only prospectively – a person
could be married to two or more people at a time. Again,
Appellants want their construct to apply only to the Brown-Ahmed
marriage and not to the Brown-Brown marriage.
58

S.C. Code Ann. § 62-2-802.

App. 175
*

[pp. 45]

*

*

*

*

Respectfully submitted,
/s/ Robert Rosen
Robert N. Rosen (Bar No. 4918)
Rosen Law Firm, LLC
18 Broad Street, Suite 201
Charleston, SC 29401
(843) 377-1700
S. Alan Medlin (Bar No. 3924)
1713 Phelps Street
Columbia, SC 29205
T. Heyward Carter, Jr. (Bar No. 001156)
Andrew W. Chandler (Bar No. 69388)
M. Jean Lee (Bar No. 11209)
Evans, Carter, Kunes & Bennett
P.O. Box 369
Charleston, SC 29402
David L. Michel (Bar No. 13578)
Michel Law Firm, LLC
751 Johnnie Dodds Blvd., Suite 200
Mt. Pleasant, SC 29464
Arnold S. Goodstein (Bar No. 2212)
Goodstein Law Firm, LLC
P.O. Box 2350
Summerville, SC 29484-2350
ATTORNEYS FOR RESPONDENT
TOMMIE RAE BROWN
March 27, 2019

App. 176

APPENDIX J
THE STATE OF SOUTH CAROLINA
In the Supreme Court
APPEAL FROM AIKEN COUNTY
Court of Common Pleas
Doyet A. Early, III, Circuit Court Judge
Trial Court Case Nos. 2013-CP-02-02849 and
2013-CP-02-02850
Appellate Case No. 2015-002417 (Court of Appeals)
Appellate Case No. 2018-001990 (Supreme
Court)
[Filed: March 4, 2019]
In Re:

The Estate of James Brown a/k/a James
Joseph Brown,
_______________________________________
Tommie Rae Brown
)
Respondent,
)
)
v.
)
)
David C. Sojourner, Jr., in his capacity
)
as Limited Special Administrator and
)
Limited Special Trustee,
)
Deanna Brown-Thomas, Yamma Brown, )
Venisha Brown, Larry Brown,
)
Terry Brown and Daryl Brown
)
Respondents below, )
)

App. 177
Of whom Deanna Brown-Thomas,
)
Yamma Brown and Venisha Brown,
)
are the
)
Petitioners
)
_______________________________________)
PETITIONERS’ BRIEF
[pp. 15]

*

*

*

*

*

There is no dispute that South Carolina recognizes
annulment orders as in rem orders. Carnie v. Carnie,
252 S.C. 471, 475, 167 S.E.2d 297, 299 (1969); 4 S.C.
Jur. Action§ 5. The U.S. Supreme Court has made clear
that while the ultimate disposition of the res subject to
an in rem order is binding on all the world, the factual
findings and legal conclusions contained in an in rem
order are not: “Establishing a fact and giving a specific
effect to it by judgment are quite distinct. A judgment
in rem binds all the world, but the facts on which it
necessarily proceeds are not established against all the
world”. Becher v. Contoure Labs, 279 U.S. 388, 391, 49
S.Ct. 356, 357, 73 L. Ed. 752 (1929); see also Gratiot
County State Bank v. Johnson, 249 U.S. 246, 39 S.Ct.
263, 63 L.Ed. 587 (1919) (“[J]udgments in rem [are] not
res judicata as to the facts or [] the subsidiary
questions of law on which it is based, except as between
parties to the proceeding or privies thereto.”).

App. 178
[pp. 23]

*

*

*

*

*

Appellants were strangers to Respondent’s limited
family court action and never had any opportunity to
contest Respondent’s unsupported claim that her
Marriage 1 was supposedly bigamous. The erroneous
application of the collateral estoppel doctrine below
must be reversed as it deprived Appellants of their
fundamental right to due process.
[pp. 47]

*

*

*

*

*

Respectfully submitted,
/s/_________________
Robert C. Byrd, SC Bar #1069
bobbybyrd@parkerpoe.com
A. Smith Podris, SC Bar #78051
smithpodris@parkerpoe.com
Parker Poe Adams & Bernstein LLP
200 Meeting Street, Suite 301
Charleston, SC 29401
Telephone: (843) 727-2650
Facsimile: (843) 727-2680
Attorneys for Appellants
Deanna Brown-Thomas, Dr. Yamma Brown,
and Venisha Brown

App. 179
OF COUNSEL
Pro Hae Vice:
Marc Toberoff
mtoberoff@toberoffandassociates.com
Toberoff & Associates, P.C.
23823 Pacific Coast Hwy, Suite 50-363
Malibu, CA 90265
Telephone: (310) 246-3333
Facsimile: (310) 246-3101

